<html>
<title> - INTEGRITY AND SECURITY AT THE BORDER THE US</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                  INTEGRITY AND SECURITY AT THE BORDER
                         THE US--VISIT PROGRAM

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2004

                               __________

                           Serial No. 108-34

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________






                 U.S. GOVERNMENT PRINTING OFFICE

21-770PDF              WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001










                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg,T1 Arizona           Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff
         Uttam Dhillon, Chief Counsel and Deputy Staff Director
                  Steven Cash, Democrat Staff Director
               David H. Schanzer, Democrat Staff Director
                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                    Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California, 
Jennifer Dunn, Washington            Ranking Member
Don Young, Alaska                    Edward J. Markey, Massachusetts
Duncan Hunter, California            Norman D. Dicks, Washington
Lamar Smith, Texas                   Barney Frank, Massachusetts
Lincoln Diaz-Balart, Florida         Benjamin L. Cardin, Maryland
Robert W. Goodlatte, Virginia        Louise McIntosh Slaughter, New 
Ernest Istook, Oklahoma              York
John Shadegg, Arizona                Peter A. DeFazio, Oregon
Mark Souder, Indiana                 Sheila Jackson-Lee, Texas
John Sweeney, New York               Bill Pascrell, Jr., New Jersey
Christopher Cox, California, Ex      Jim Turner, Texas, Ex Officio
Officio

                                  (ii)


















                                CONTENTS

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas, and Vice Chairwoman, Subcommittee on 
  Infrastructure and Border Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Committee on 
  Infrastructure and Border Security.............................     4
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     6
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security
  Oral Statement.................................................     8
  Prepapred Statement............................................     9
The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State Florida.........................................    13
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    47
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Texas.............................................    10
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of
  Prepapred Statement............................................    14
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    12
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................    43
The Honorable John E. Sweeney, a Representative in Congress From 
  the State of New York..........................................    11

                               WITNESSES

Mr. Asa Hutchinson, Under Secretary, Border and Transportation 
  Security Directorate, Department of Homeland Security
  Oral Statement.................................................    15
  Prepared Statement.............................................    19
The Honorable Maura Harty, Assistant Secretary, Bureau of 
  Consular Affairs, Department of State
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Mr. James May, President and CEO, Air Transport Association
  Oral Statement.................................................    57
  Prepared Statement.............................................    58
Ms. Kathleen Campbell Walker, Testifying on Behalf of American 
  Immigration Lawyers Association and Foreign Trade Association, 
  Inc.
  Oral Statement.................................................    59
  Prepared Statement.............................................    61
Mr. Dennis Carlton, Director of Washington Operations, 
  International Biometric Group, LLC
  Oral Statement.................................................    71
  Prepared Statement.............................................    73

                                Appendix
                   Material Submitted for the Record

Questions and Responses of The Honorable Maura Harty.............    85
Questions and Responses of The Honorable Asa Hutchinson..........    93
Questions and Responses of Air Transport Association of 
  America.Inc....................................................   110

              Additional Material Submitted for the Record

Questions and Responses of Mr. Dennis A. Carlton.................   111
Prepared Statement of Mr. Edward K. Pultorak.....................   112
Prepared Statement of Mr. J. Clark Robinson, President, 
  International Association of Amusement Parks and Attractions...   114
Prepared Statement of The Travel Industry Association of America.   116
















                  INTEGRITY AND SECURITY AT THE BORDER

                         THE US--VISIT PROGRAM

                              ----------                              


                      Wednesday, January 28, 2004

                          House of Representatives,
        Subcommittee on Infrastructure and Border Security,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 11:04 a.m., in 
Room 345, Cannon House Office Building, Hon. Kay Granger [vice-
chairwoman of the subcommittee] presiding.
    Present: Representatives Granger, Dunn, Diaz-Balart, 
Shadegg, Sweeney, Cox, Sanchez, Markey, Dicks, Pascrell, Turner 
and Christensen.
    Ms. Granger. [Presiding.] The Subcommittee on 
Infrastructure and Border Security hearing will come to order.
    As vice chair of the subcommittee, I am sitting in for 
Chairman Dave Camp who is prevented from attending by a 
Michigan snow storm. I know we will all understand that.
    I would like to welcome and thank you for attending today's 
hearing.
    I see that the gentlelady from the Virgin Islands is here.
    The chair asks for unanimous consent that Ms. Christensen 
be allowed to sit and question the panel.
    Today's business is to receive testimony regarding the new 
border management system to record the arrival and departure of 
foreign nationals into the U.S.--the United States Visitor and 
Immigrants Status Indicator Technology program, which we call 
US-VISIT.
    This hearing will have two panels. The subcommittee will 
hear first from Border and Transportation Security 
Undersecretary Asa Hutchinson from the Department of Homeland 
Security, and Consular Affairs Assistant Secretary Maura Harty 
from the Department of State.
    We will then hear from a second panel comprised of James 
May, the president and CEO of the Air Transport Association; 
Kathleen Campbell Walker, a member of the board of directors of 
the El Paso Foreign Trade Association and a member of the 
American Immigration Lawyers Association; and Dennis Carlton, 
the director of Washington operations for the International 
Biometric Group.
    Thank you all for your participation.
    The subcommittee is also expecting several additional 
statements from outside groups that will be included in the 
hearing record.
    The chair would like to remind members that we have two 
very qualified panels here with a great deal to contribute to 
the discussion of the US-VISIT program.
    In order to allow sufficient time for their testimony and 
questions, the chair will urge members to give short statements 
and to submit their full opening statements for the record. The 
record will remain open for ten days after the close of the 
hearing. Members are advised that they will receive an 
additional three minutes during the question time if they waive 
their opening statement.
    The chair will begin with a short opening statement.
    The terrorist attacks of September 11, 2001 highlighted the 
need to improve our national security by improving integrity in 
the U.S. immigration system.
    As a nation, we must have reliable methods for identifying 
aliens who are inadmissible to the country as well as those who 
overstay their lawful admission period.
    At the same time, we cannot create policies or programs 
that discourage or delay or prevent legitimate travel, commerce 
and tourism.
    The US-VISIT is an extensive border management system 
developed to monitor the arrival and departure of foreign 
nationals within the United States and to improve the 
reliability and security of their travel documents.
    The US-VISIT program will be implemented in phases over the 
next several years to comply with congressional mandate.
    As envisioned, foreign nationals traveling to the United 
States will have their fingerprints captured and authenticated 
at U.S. ports of entry. This biometric information we enter 
into and compare with prints already in the automated biometric 
identification system called IDENT.
    Additionally, the biometrics will be checked when the 
individual exits the country to confirm identity.
    The alien's biographic information, including name and 
place of birth, are checked through the Interagency Border 
Inspection Systems, IBIS, which includes law enforcement, 
immigration and intelligence databases to determine whether the 
individual is a threat to national security, public safety or 
is otherwise inadmissible.
    Travelers entering the U.S. through the visa waiver program 
will not be affected by the biometrical requirements of US-
VISIT. This program allows nationals from 27 countries to enter 
the U.S. as temporary visitors without first obtaining a visa.
    Travelers entering through this program are still screened 
through the IBIS database. However, under current law, by 
October 26, 2004, visa-waiver countries have to issue biometric 
passports. Under this mandate, the biometric requirement for 
visa-waiver travelers will be similar under US-VISIT.
    The State Department plays a complementary role in the US-
VISIT program. State is in the process of equipping overseas 
embassies and consular posts with the ability to capture 
biometrics at the time of interview.
    The key benefit of this initiative is that by comparing the 
visa information from State with that taken at primary 
inspection, Customs and Border Protection inspectors will have 
additional assurance that an alien's visa is reliable.
    Currently 50 consular posts are equipped to capture 
fingerprints and photographs, and the remaining facilities are 
on schedule to begin capturing biometrics by the congressional 
deadline of October 26, 2004.
    In November 2003, DHS began the pilot for the 
implementation of phase one at Hartsville-Jackson International 
Airport in Atlanta. During the voluntary pilot, over 20,000 
individuals were screened through US-VISIT. And the system 
turned up over 20 hits on inadmissible or wanted people.
    DHS estimates that capturing the biometric information adds 
approximately 15 to 18 extra seconds to an individual's 
processing time.
    On January 5, 2004, DHS added biometric collection for all 
arriving visa holders at 115 airports and 14 seaports.
    Two pilot programs for the exit component are under way at 
Baltimore-Washington National Airport and the Port of Miami.
    A persistent issue in all border security programs is 
finding the right balance between security and legitimate 
travel for tourism and commerce. There is concern from several 
stakeholders about the impact US-VISIT will have on travel and 
trade, particularly at the land borders. Some fear that the 
program will create massive delays at border crossings.
    The United States has more than 300 land, air and sea ports 
of entry where international travelers are inspected and 
permitted to enter the United States. Each year, more than 500 
million people enter the United States. This hearing will 
provide an opportunity to explore the implementation at the 
land border and the different options under considerations for 
the rollout.
    Coming from a border state, I am particularly interested in 
different plans and proposals for the ports of entry. Any 
additional delays will have serious consequence for communities 
on both sides of the border.
    Over time, US-VISIT promises to strengthen the integrity of 
the border security system.
    The US-VISIT will improve the accuracy and consistency of 
detecting fraudulent travel documents, verifying traveler 
identity and determining traveler admissibility.
    Again, I would like to thank our witnesses for being here. 
I will conclude my remarks and enter my full statement for the 
record.

      Prepared Opening Statement of The Honorable Kay Granger, a 
  Representative in Congress From the State of Texas, and Vice Chair, 
            Infrastructure and Border Security Subcommittee

    The terrorist attacks of September 11, 2001, highlighted the need 
to improve national security by improving integrity in the U.S. 
immigration system. As a nation, we must have reliable methods for 
identifying aliens who are inadmissible to the country as well as those 
who overstay their lawful admission periods. At the same time, we can 
not create policies or programs that discourage, delay or prevent 
legitimate travel, commerce, and tourism.
    The US-VISIT Program is an extensive border management system 
developed to monitor the arrival and departure of foreign nationals 
within the United States and to improve the reliability and security of 
their travel documents.
    The US-VISIT Program will be implemented in phases over the next 
several years to comply with Congressional mandates. As envisioned, 
foreign nationals traveling to the United States will have their 
fingerprints captured and authenticated at US ports of entry. This 
biometric information will be entered into and compared with prints 
already in the Automated Biometric Identification System called IDENT. 
Additionally, the biometrics will be checked when the individual exits 
the country to confirm identity.
    The alien's biographic information, including name and place of 
birth, are checked through the Interagency Border Inspection System 
(IBIS), which includes law enforcement, immigration and intelligence 
databases to determine whether the individual is a threat to national 
security, public safety, or is otherwise inadmissible.
    Travelers entering the U.S. through the Visa Waiver Program will 
not be affected by the biometric requirements of US-VISIT. This program 
allows nations from 27 countries to enter the U.S. as temporary 
visitors without first obtaining a visa. Travelers entering through 
this program are still screened through the IBIS database. However, 
under current law, by October 26, 2004 Visa Waiver countries have to 
issue biometric passports. Under this mandate, the biometric 
requirements for Visa Waiver travelers will be similar to those under 
US-VISIT.
    The State Department plays a complementary role in the US-VISIT 
Program. State is in the process of equipping overseas embassies and 
consular posts with the ability to capture biometrics at the time of 
the interview.
    The key benefit of this initiative is that by comparing the visa 
information from State with that taken at primary inspection, Customs 
and Border Protection Inspectors will have additional assurance that an 
alien's visa is reliable. Currently, 50 consulate posts are equipped to 
capture fingerprints and photographs and the remaining facilities are 
on schedule to begin capturing biometrics by the Congressional deadline 
of October 26, 2004.
    In November 2003, DHS began the pilot for the implementation of 
Phase One at Hartsfield-Jackson International Airport in Atlanta. 
During the voluntary pilot over 20,000 individuals were screened 
through US-VISIT and the system turned up over 20 hits on inadmissible 
or wanted people. DHS estimates that capturing the biometric 
information adds approximately 15-18 extra seconds to an individual's 
processing time. On January 5, 2004, DHS added biometric collection for 
all arriving visa holders at 115 airports and 14 seaports. Two pilot 
programs for the Exit component are underway at Baltimore Washington 
International (BWI) Airport and the Port of Miami.
    A persistent issue in all border security programs is finding the 
right balancing between security and legitimate travel for tourism and 
commerce. There is concern from several stakeholders about the impact 
US-VISIT will have on travel and trade, particularly at the land 
borders. Some fear that the program will create massive delays at 
border crossings. The United States has more than 300 land, air, and 
sea ports of entry where international travelers are inspected and 
permitted to enter the United States. Each year, more than 500 million 
people enter the U.S. This hearing will provide an opportunity to 
explore the implementation at the land border and the different options 
under consideration for the roll-out.
    Coming from a border state, I am particularly interested in 
different plans and proposals for land ports of entry. Any additional 
delays will have serious consequences for communities on both sides of 
the border.
    Over time, US-VISIT promises to strengthen the integrity of the 
border security system. The US-VISIT Program will improve the accuracy 
and consistency of detecting fraudulent travel documents, verifying 
traveler identity, and determining traveler admissibility.
    Again, I would like to thank our witnesses for being here. I will 
conclude my remarks and enter my full statement for the record.

    The chair now recognizes Ms. Sanchez, the ranking member of 
the Subcommittee on Infrastructure and Border Security for any 
statement she may have.
    Ms. Loretta Sanchez of California. Thank you Madam Chair. 
And it is a shame that Chairman Camp could not be here, but we 
will slog on, as they say.
    I appreciate all of you here today also.
    Welcome back to our former colleague.
    Because this US-VISIT program is very important to us, I 
doubt that there is one member on this subcommittee who 
disagrees how important and with the aims of this program.
    But I have to admit that some of us on this subcommittee 
wonder if the US-VISIT program, as it currently operates, is 
really the most effective tool to deter potential terrorism for 
the United States.
    Also, Customs and Border Protection officers are already 
being stretched thin under the new US-VISIT entry system. And 
we still have not really added the exit system and implementing 
phase two and phase three.
    I think we will only strain them further.
    A true entry-exit system makes a lot more sense than the 
system that US-VISIT is in the process of checking people as 
they arrive in the country but having no idea when they have 
left.
    I also think that most of us believe it is a good idea to 
have more sophisticated visas and passports that contain more 
information about these people, including the biometric 
information that can give us a better verification of a 
person's identity.
    And I know that others share them, are with the efficiency 
of the US-VISIT as a security tool, and also with the 
implementation of this program.
    I know that the program will enhance security to some 
degree, but I am wonder how much. If the visa-waiver countries 
are not required to participation in the US-VISIT, then isn't 
that a big security hole?
    I know that there are also plans for secure passports from 
these visa-waiver countries. We were just in Europe discussing 
some of these issues with some of those countries, some of 
which, to tell you the truth, are having some difficulty trying 
to figure how they are really going to comply with this by the 
deadline that we set.
    I guess I don't understand the relationship between the US-
VISIT program and this issue of the biometrics involved in the 
passports of these visa-waiving countries. For example, will 
there be different databases used?
    And my number one concern is simply the overextension of 
the people that we have doing this work. Are we making enough 
investment in personnel and the infrastructure necessary to 
ensure that all these components come together and that in fact 
we have a system that is going to work for entry and exit into 
this country?
    Because the implementation of phase one of the US-VISIT 
means that the entry and exit data from airplane passenger 
manifests at the 115 airports and the cruise-ship passenger 
manifests at the 14 seaports must be reconciled, thereby being 
able to tell us if people are actually overstaying their visas.
    It is a very complicated issue. And so I hope that today 
you can shed some light on this.
    I would just give one example that I just see as being a 
major problem. Because right now, the checkouts that we have is 
this pilot program with the kiosk at the airport, for example. 
What if somebody forgets to do that or does not do that?
    And then they are a legitimate good person, they are coming 
back into the country the next time, and now we have all these 
false positives and we have got to pull these people aside, and 
it requires more resources and more of our time.
    And in talking to some of my customs and border people, 
they are already feeling like they are being pulled off of 
cargo inspections in order to do green card holders and others 
to try to get the entry portion of this US-VISIT going.
    So maybe what we are doing is, possibly making ourselves 
safer in one aspect, but really taking the eye off another area 
that might be of concern to us, that of checking the cargo.
    So I look forward to hearing from our panels and getting 
some answers to these question.
    And, again, thank you, Madam Chairman, for the time and for 
having this hearing.
    Ms. Granger. Thank you very much.
    The chairman now recognizes Representative Cox, chairman of 
the Homeland Security Select Committee for any statement he may 
have.
    Mr. Cox. Thank you Madam Vice Chairman.
    Let me begin by commending our absent Subcommittee Chairman 
Camp, who as you heard is bogged down in a Michigan snowstorm, 
for scheduling this important hearing today. I know he did a 
lot of work on this and looked for to being here, and he would 
be very pleased to welcome our witnesses himself.
    This is important to him and to all of us because our 
country faces no greater challenge today than monitoring over 
300 U.S. ports of entry for potential terrorist crossings, 
while at the same time facilitating the legitimate trade and 
travel and tourism that are the hallmarks of our free society.
    The US-VISIT program is designed to meet this challenge. 
And our witnesses today will give us an update on the progress 
we are making.
    I am especially pleased to welcome back Undersecretary Asa 
Hutchinson to this committee. I, along with many on this 
committee, know him as an esteemed former colleague and a 
friend, and most importantly, as an extraordinarily capable 
leader who is well equipped to lead the Department of Homeland 
Security on border transportation and security issues.
    Since assuming his position, Undersecretary Hutchinson has 
supervised one of the largest reorganizations of our government 
in history.
    Among other accomplishments, his tenure has seen the 
successful implementation of the first phase of the US-VISIT 
program on schedule and indeed ahead of schedule with respect 
to the use of biometric identifiers.
    The department should be commended for meeting the 
statutory requirement and deadline for an automated entry and 
exit system.
    And all air-and sea-port passenger arrival and departure 
information is now collected and processed through the US-VISIT 
program. This gives us the ability for the first time in our 
history to create a list of those overstay their visas.
    Undersecretary Hutchinson, we look forward to hearing from 
you today on how DHS is implementing this program at our air 
and sea ports of entry. We were especially interested in your 
plan for the eventual rollout of the program to all of our 
border points of entry, including land ports, and the handshake 
that US-VISIT will make with interior enforcement.
    I also look forward to hearing from Ms. Harty on the State 
Department's efforts to ensure greater security with respect to 
visa applicants. The State Department can also inform us of the 
status of the 27 visa-waiver countries we have asked to add 
biometric identifiers to their passports.
    The role of the State Department's Bureau of Consular 
Affairs has been vital to the effective implementation of US-
VISIT. Consular officials at 211 visa processing posts are the 
frontline in our efforts to prevent would-be terrorists from 
entering the United States.
    When precise biometric data is captured overseas and linked 
in real time to the Department of Homeland Security and other 
federal agencies, we will be able to screen each visa applicant 
against federal law enforcement databases and terrorist watch 
lists.
    We will also be able to ensure that a person arriving at 
one of our ports of entry is the same person who obtained a 
visa at our overseas consulate.
    The US-VISIT program is a work in progress. But it is a 
work that is moving ahead very rapidly.
    During the recently concluded pilot phase at Atlanta's 
Hartsville International Airport, US-VISIT stopped several 
dangerous criminals and others using false information from 
entering the United States.
    The biometric enter-exit system contemplated by US-VISIT 
will add integrity to our immigration progress. Just as 
importantly, it is consistent with maintaining a defining 
American tradition: opening our nation to legitimate travel, 
business and tourism.
    In just 15 seconds per visit, US-VISIT adds a layer of 
protection to our border security system and permits our Border 
Protection officers to focus their efforts on those that 
warrant closer scrutiny.
    But as I say, this is a work in progress and we have a lot 
more hard work to do.
    The US-VISIT program has not yet integrated all of the 
existing law enforcement and terrorist databases into its 
search capabilities. This is a complex task, and it needs 
additional attention.
    And while the rollout of the entry portion of the solution 
has achieved great success, the exit portion of the program is 
not yet fully delved with respect to the capture of biometric 
data. This, too, is an important element because it allows the 
system to verify that the person leaving our country is the 
same person who entered.
    We also need additional procedural guidance for travelers 
trying to comply with the biometric exit requirements of the 
US-VISIT program.
    There are many questions about how this exit system 
actually will be implemented.
    There are also many questions about the eventual rollout of 
the US-VISIT program at all of our land ports of entry.
    Current law requires that DHS expand the entry-exit program 
to the top 50 high-traffic land border ports by December 31st 
of this year and the remaining entry points by December 31, 
2005.
    Is this a realistic goal? Do we have the technology? Do we 
have the other essential infrastructure in place to accommodate 
this plan without severely compromising the free flow of goods 
and people.
    Finally, under the visa-waiver program, citizens of 27 
nations are not required to obtain visas to enter the United 
States and thus are not part of the US-VISIT program. But under 
current law, these countries will have to encode all of their 
newly issued passports with biometric data beginning on October 
26th of this year.
    Reports indicate that the majority of the 27 visa-waiver 
countries will not be able to meet this deadline. As a result, 
current law could be interpreted to require that the citizens 
of these countries obtain visas. This would cause a dramatic 
increase in visa applications to our consulates and strain 
relations with our closest allies.
    It is also uncertain whether we would be able to 
accommodate any such increase in applications.
    Next month, members of this committee will visit Miami, the 
U.S. Virgin Islands and Guantanamo Bay as part of our homeland 
security oversight responsibilities. We will examine security 
at air and sea ports in those locations, and we will witness 
the US-VISIT program in practice.
    This visit will be another expression of the committee's 
interest in this important program and of our intention to 
exercise responsible and effective oversight in this area.
    Again, I want to thank our witnesses for coming to today's 
hearing.
    I want to thank our vice chairman for your consideration 
during this opening statement, and I yield back the balance of 
my time.
    Ms. Granger. Thank you.
    The chair will now recognize Ranking Member Turner for any 
statements he may have.
    Mr. Turner. Thank you, Madam Chairman.
    I am very pleased that the subcommittee has taken up the 
issue of US-VISIT. Over the past two days I have been watching 
some of the hearings before the National Commission on 
Terrorist Attacks and the witnesses that have appeared before 
the commission. And those hearings remind us once again of the 
gravity of the responsibility that we have before us.
    This Select Committee on Homeland Security is very much the 
place where this issue must be vigorously examined and where we 
must exercise strong oversight.
    We all have a duty to make America safer.
    And I thank the chairman and the ranking member of this 
subcommittee for calling this hearing.
    One month into the launch of US-VISIT is certainly the time 
to ensure that we begin rigorous oversight.
    Our obligation is to assess the effectiveness of the 
program as a counterterrorism tool. And while I believe that 
US-VISIT has potential, there are many questions that we must 
all be willing to address.
    First, will the US-VISIT program be implemented with a 
comprehensive terrorist watch list so as to be most effective 
in identifying and assisting in the apprehension of suspected 
terrorists.
    Secondly, do the program's current exemptions as to who 
must participate create vulnerabilities that diminish the 
effectiveness of US-VISIT as a counterterrorism tool?
    And thirdly, can it be implemented effectively at all of 
our air, sea and land ports of entry?
    Obviously, much of the success of US-VISIT depends upon 
intelligence information. I am a strong believer that border 
security systems and programs are only as good as the 
intelligence they are able to access. The information must be 
reliable and provided to those who make decisions allowing the 
entry of foreign visitors to our country in a time frame that 
is meaningful. And I look forward to hearing testimony that 
addresses these issues.
    I also believe that while we are securing our borders, we 
must not change the vision of America as a welcoming nation. We 
are enriched by the cultural, political and social 
contributions of those who visit our country.
    As a Texan, I am also very much aware of the economic need 
to ensure that our borders function smoothly, that our homeland 
and economic security are closely linked, and that if we are to 
succeed in securing our homeland, facilitating cross-border 
trade and travel must be a part of the equation.
    We can achieve all of these goals--homeland security and 
growth and trade and travel--if our vision includes the 
willingness to make the necessary investments in ports of entry 
in our border and border communities.
    We know that implementing US-VISIT is not going to be easy. 
The challenges are greatest at our land borders. Land border 
crossings are fundamentally different from airports and 
seaports. You don't receive much advanced data on people or 
cargo coming to a land border crossing. At many border 
crossings, you have to deal with both passenger and cargo 
inspections. If there is a backup either entering or leaving 
the United States, our border communities pay a high price.
    Lastly, US-VISIT implementation at our land borders must 
involve the full participation of our neighbors to the north 
and the south. If US-VISIT is going to be effective, we must 
work with Mexico and Canada to ensure that implementation does 
not result in a gridlocked border that benefits no one. If we 
can secure the full cooperation of our neighbors, implementing 
US-VISIT will be much more likely.
    I look forward to hearing from all of our witnesses today.
    And again I thank the chairman of the full committee and 
the chairman of this subcommittee for holdings this hearing at 
this time.
    I thank you, Madam Vice Chairman.

  Prepared Statement of the Honorable Jim Turner, a Representative in 
                    Congress From the State of Texas

    I am very pleased that this subcommittee has taken up the issue of 
US-VISIT. Over the past two days I have been paying careful attention 
to the hearings before the National Commission on Terrorists Attacks 
and the testimony of witnesses before that Commission. The hearings 
once again remind us of the gravity of the responsibility before us--
that this Select Committee on Homeland Security has the very great 
obligation to find existing holes in homeland security and address 
those vulnerabilities.
    We have a duty to make America safer.
    I thank the Chairman and the Ranking Member in calling for this 
hearing. One month into the launch of US-VISIT it is certainly time to 
ensure that we have rigorous oversight of the program.
    Our obligation is to assess the effectiveness of this program as a 
counter-terrorism tool. While I believe US-VISIT has potential, there 
are many issues that need to be addressed:

        <bullet> Will the US-VISIT program be implemented with a 
        comprehensive terrorist watch list, so as to be most effective 
        in identifying and assisting in the apprehension of suspected 
        terrorists?
        <bullet> Do the program's current exemptions as to who must 
        participate create vulnerabilities that diminish the 
        effectiveness of US-VISIT as a counter-terrorism tool?
        <bullet> Can it be implemented effectively at all of our air, 
        sea and land ports of entry?
    Much of the success of US-VISIT depends on intelligence 
information.
    I am a strong believer that border security systems and programs 
are only as good as the intelligence they are able to access. The 
information must be reliable, and provided to those who make decisions 
allowing the entry of foreign visitors to our country.
    I look forward to hearing testimony that addresses these issues.
    I also believe that while we are securing our borders, we must not 
change the vision of America as a welcoming nation. We are enriched by 
the cultural, political and social contributions of those who visit our 
country.
    As a Texan, I also understand the economic need to ensure that our 
borders function smoothly, that our homeland and economic security are 
closely linked and that if we are to succeed in securing our homeland, 
facilitating cross border trade and travel must be a part of the 
equation.
    We can achieve all of these goals- homeland security and economic 
security--if our vision includes investing in ports of entry and in the 
border and border communities.
    We know that US-VISIT implementation is not going to be easy. The 
challenge is greatest at our land borders. Land border crossings are 
fundamentally different from air ports and sea ports. You do not 
receive much advance data on the people or cargo coming across the 
border. At many border crossings you have to deal with both passenger 
and cargo inspections. If there is a backup either entering or leaving 
the US, our border communities pay the price.
    Lastly, US-VISIT implementation at our land borders must involve 
the full participation of our neighbors to the north and the south. If 
US-VISIT is going to be effective, we must work with Mexico and Canada 
to ensure that implementation does not result in a gridlocked border 
that benefits no one. If we cannot secure the cooperation of our 
neighbors in implementing the US-VISIT system, it simply will not 
succeed. I look forward to the testimony of our witnesses today.

    Ms. Granger. Thank you.
    The chair now recognizes Representative Dunn, who serves as 
vice chair of the full committee.
    Ms. Dunn. Thank you very much, Madam Chairman.
    Good morning, ladies and gentlemen.
    I am glad we have a full house today because it is 
important that we all understand exactly how this program came 
into being and where it is going.
    The US-VISIT program has been the focus of much attention 
in the last few months. And I look forward to learning about 
the progress, for example, that the Department of Homeland 
Security is making in implementing the new system at airports 
and seaports.
    I also look forward to discussing the challenges that are 
certain to come along with the starting of such a program at 
our land border crossings.
    This program is of particular interest to this committee 
because it is an example of federal partnership that were 
envisioned during the actual creation of the Department of 
Homeland Security.
    The US-VISIT program is a result of the pooled resources of 
and the open communication among the State Department, TSA, the 
Department of Justice, Immigration and Customs Enforcement--or 
ICE as we now know it--and Customs and Border Protection.
    The program is of particular interest to me because I come 
from Washington State, a border state, where residents and 
businesses depend on open lanes at the border to get themselves 
or their goods to or from a Canadian destination on time.
    We are committed to maintaining American strong trade 
partnerships while continuing to be innovative with programs at 
the borders to track the movement of people and goods.
    The Department of Homeland Security will turn one year old 
in just about a month. In that time, it has developed and 
implemented ground breaking programs at the borders.
    The One Face at the Border Initiative is one example that 
comes to my mind, and another, of course, is US-VISIT.
    For the first time, we will be able to track foreign 
visitors. We will be able to cut down on identification 
document fraud. And we will make use of numerous databases to 
identify terrorist suspects before they enter this country.
    I will have questions that relate to a number of areas.
    For example, as we move toward the more complex exit 
portion of the system, I will be curious about your strategy, 
Director Hutchinson, for collaborating with airport operators 
such as those at Sea-Tac and others in my state but, also, all 
over the country.
    I would like to know if the new US-VISIT database links up 
with and interfaces with others, for example, as Congressman 
Turner suggested, the terrorist watch list.
    I know you agree we must not forget about commerce as it 
moves across our borders: What specific steps is the US-VISIT 
team taking to make sure that we don't stop traffic at our 
ports of entry and slow the movement of commerce?
    And lastly, I realize that upgrading all United States 
passports will need to include biometric data and that that is 
a huge undertaking.
    And I will be curious, Ms. Harty, to see how you see this 
new priority changing the daily operations of the United States 
embassies and consulates around the world.
    I yield back.
    Ms. Granger. Thank you.
    The chairman now recognizes Representative Dicks for any 
statement he may have.
    Mr. Dicks. I want to welcome our witnesses, but I am going 
to keep my time for questions.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Sweeney for any 
statements he may have.
    Mr. Sweeney. I thank the vice chairwoman. I am going to 
submit for the record. I think it is important that we hear 
from our witnesses. I, as you know, Vice Chairwoman, I have to 
leave at 12 o'clock for a meeting, but I will come back.
    I just want to make two brief statements and thank the 
witnesses for being here.
    Yesterday I, too, watched the testimony of the 9/11 
commission. Customs Inspector Jose Melendez-Perez testified. It 
is widely believed that that inspector kept the 20th hijacker 
out. However, unfortunately 19 others were let in.
    I most particularly--this may be a rehash for some--really 
would like to hear the witnesses expound on how this system 
will have the desired effect of changing that process within 
the nation.
    And I also want to congratulate the Secretary, because as I 
understand it, the department is some nine months ahead of 
schedule on a number of directives. And it is at a time when 
there is waning confidence. Because of all the confusion it is 
nice. I think that is an important point that we stress so the 
American people understand we are moving in the right 
direction.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Pascrell for any 
statements he may have.
    Mr. Pascrell. Thank you, Madam Chairlady.
    I want to welcome good friend, Asa Hutchinson, who did a 
terrific job at the DEA and is doing a great job at Homeland 
Security.
    Richard Reid was a British citizen--better known as the 
``shoe bomber.'' And Zacarias Moussaoui--I believe I am 
pronouncing that correctly--was a French citizen. They arrived 
here legally, as far as know--as far as I have been able to 
ascertain--from exempt countries.
    And I hope that we keep this in mind as we, Madam Chair, 
look through this very important effort to implement the 
Patriot Act. After all, this comes out of the Patriot Act.
    And everything that comes out of the Patriot Act is under 
careful scrutiny by this Congress--and should be.
    When our rights are reviewed, substantiated, supported I 
think, Mr. Hutchinson, you would agree that--and this is my 
opening statement, I realize that--that that is the main 
business of why we are in the Congress in the first place.
    The attacks of September the 11, 2001, emphasize the urgent 
need to secure the visa-issuance process at our consulates and 
the inspections process at our ports of entry.
    We all know the grim truth: All 19 hijackers entered United 
States ports easily.
    This can simply never happen again.
    Yet our country is still vulnerable. That is why we are 
discussing this. Our borders are still arguably too porous, too 
penetrable.
    This, of course, is the uncomfortable reality of homeland 
security. While we need to act with absolutely urgency to 
improve our security levels, to do so in a truly effective 
manner often takes time.
    We see this with the US-VISIT program. In concept, security 
our borders to protect our nation by identifying every person 
who enters the country is an ideal solution. I think the 
government, we all agree, has a right to know who is coming 
into this country and who is leaving. We have a right to know 
that as a very basic tenet of securing our neighborhoods and 
our streets.
    In reality, this is an enormous undertaking. It will be 
costly. And many times it will be inconvenient. It will take 
time. And as we have already seen, it can be ineffective as 
well as being effective.
    There are big holes in the program's ability to work. Among 
other shortfalls, it does not compare the foreign nationals 
entering this country against a list that we have waited for a 
long time: the integrated terrorist watch list. You have heard 
that mentioned before I bring it up. That is critical.
    It would seem to me that that should be the main priority 
that will help our law enforcement agencies, both national and 
local, now that we have opened up the process of communication, 
for the first time in a long time.
    Individuals from 27 countries participating in the visa 
waiver are currently exempt from the US-VISIT. In an age where 
terrorism can strike any place, this to me is non-sensical.
    Additionally, there are still serious questions about the 
general ability of biometric identifiers. We know that we have 
used the biographic identifiers in the past. We will continue 
to use that.
    And I am interested to find out whether you are going to 
add fees to the biographic ones that already exist.
    To say the least, while we need to secure our ports is 
critical, we have a long way to go before we effectively 
accomplish this goal.
    This hearing will give us an exemplary opportunity to 
discuss where we are in this difficult process, where we are 
expected to be in the future, how we can help, because that is 
what we are all about. We are all on the same page.
    I look forward to the remarks.
    And I thank you, Madam Chair, for your courtesy.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Lincoln Balart for 
any statement he may have.
    Mr. Diaz-Balart. Thank you, Madam Chairman.
    And I join in welcoming our distinguished guests this 
morning.
    It is important, I think, to put a spotlight on the issue 
of US-VISIT. It is a critical issue. Protecting our citizens 
from future terrorist attack is of the highest priority, not 
only for me as a representative from southern Florida, but as a 
member of this committee.
    Our physical land borders and ports of entry must remain a 
critically important line of defense. And I believe the 
department, with the leadership of Undersecretary Hutchinson, 
is doing just that.
    I look forward to monitoring the progress of US-VISIT to 
ensure that it is an effective tool in protecting the homeland 
and not just a hindrance for travel and a deterrence to tourism 
into the United States.
    We must find the appropriate balance that allows the 
department to utilize the most effective tools to combat 
terrorism and allows commerce and transit to flow.
    I would like to use this opportunity to raise another issue 
that is critical to South Florida: the international transit 
program, ITI.
    The ITI program allows certain international air passengers 
to travel through the United States for transit purposes 
without first obtaining a visa. These are international 
passengers whose final destination is not the United States, 
but transfer at the airport on to another international flight.
    The suspension of ITI, and in particular the suspension of 
the Miami International Airport's use of its secure transit 
lounges, could have an adverse impact on South Florida.
    MIA receives more ITI passengers than any other U.S. 
airport. America Airlines alone carries approximately 700,000 
ITI passengers annually into Miami International Airport.
    Iberia Airlines of Spain carries approximately 250,000 ITI 
passengers annually.
    Iberia Airlines, which uses MIA as hub for in-transit 
passengers, reacted by initiated very serious plans to move 
their hub to foreign airports. This airline alone generates 
approximately 2,000 jobs and almost $200 million in business 
revenue in South Florida's economy.
    I commend Undersecretary Hutchinson for his attentive 
response by authorizing Miami International Airport's temporary 
use of its satellite transit lounge. This matter is critical 
for the well-being of South Florida's economy.
    I look forward to working with Undersecretary Hutchinson to 
find a permanent solution that will protect our homeland and 
allow Miami International Airport to continue as a hub for 
flights to and from Latin America.
    And again, I thank you, Madam Chairman.
    Ms. Granger. Thank you very much.
    Seeing no additional requests for time, we will proceed.
    I would like to again thank our witnesses for being here.
    I am sorry, you are not a member. You are not allowed to 
make an opening statement.

       Prepared Statement of the Honorable Sheila Jackson-Lee, a 
           Representative in Congress from the State of Texas

    The Department of Homeland Security launched US-VISIT at 115 
airports and 14 seaports on January 5, 2004. The stated objective for 
US-VISIT is to enhance the nation's security while facilitating 
legitimate travel and trade through our borders.
    The security measures employed by this program begin overseas at 
the U.S. consular offices that issue visas. Digital fingerscans are 
taken at these offices and used to determine whether the applicant is 
on a database of known or suspected criminals or terrorists. When a 
foreign visitor with a visa reaches our border and seeks admission into 
the United States, the fingerscans are used to verify that the person 
seeking admission is the same person who received the visa. And, 
another check is made for information about any involvement in 
terrorism or crime.
    US-VISIT also will include departure confirmation systems, 
including an automated, self-service kiosk where visitors with visas 
will scan their travel documents and repeat the digital finger scanning 
process. The exit confirmation will be added to the visitor's travel 
records to demonstrate compliance and record the individual's status 
for future visits to the United States.
    US-VISIT already has systems in place at airports and cruise ship 
terminals. In addition, Congress has mandated that an automated entry-
exit program be implemented at the 50 busiest land ports of entry by 
December 31, 2004, and at all land ports of entry by December 31, 2005.
    I am very much in favor of improving security at our borders. I 
support the efforts of the Homeland Security Department to implement 
new programs that will achieve that objective without impeding 
legitimate travel and trade through our borders. I am concerned, 
however, about whether the US-VISIT program ultimately will be 
successful.
    The difficult challenges that this program faces are set forth in a 
report issued on September 2003, by the General Accounting Office 
(GAO). According to GAO, the scope of US-VISIT is large and complex; it 
must meet a demanding implementation schedule; and its potential cost 
is enormous. GAO observes in the report that many of the difficulties 
are inherent to the program and cannot easily be changed. However, GAO 
says, compounding these inherent problems are a number of others that 
are attributable to the program's current, inadequate state of 
governance and management. GAO questions whether US-VISIT will be able 
to measurably and appreciably achieve the Homeland Security 
Department's goal of enhancing national security while facilitating 
legitimate travel and trade.
    Implementation of the program is not my only concern. Even if the 
Department of Homeland Security is successful in implementing US-VISIT, 
the program may not make our country more secure in any significant 
way. In 1998, a Senate Judiciary Committee Report (No. 105-197) found 
that, ``implementing an automated entry-exit control system has 
absolutely nothing to do with countering drug trafficking, with halting 
the entry of terrorists into the United States, or with any other 
illegal activity at or near the borders. An automated entry-exit 
control system will at best provide information only on those who have 
overstayed their visas.'' I am not convinced that the Senate Judiciary 
Committee was wrong.
    In its present form, US-VISIT only will apply to foreign visitors 
seeking admission on the basis of non-immigrant visas. It will not 
include aliens presenting lawful permanent resident documents. It will 
not include visitors from the 27 countries participating in the Visa 
Waiver Program. Most Canadians are not subject to US-VISIT. And, it 
will be years before the system is fully operational at all of the land 
borders. I do not believe that we can rely on this program to secure 
our borders. Thank you.

    We will begin with Under Secretary for Border and 
Transportation Security at DHS, Asa Hutchinson.
    We have received your written testimony. I ask you to 
briefly summarize in five minutes your statement.
    I want to add: All the accolades that have been heaped your 
way are certainly deserved. I enjoyed coming into Congress and 
serving with you. And you have done an excellent job in all the 
ways you have served us.

  STATEMENT OF THE HONORABLE ASA HUTCHINSON, UNDER SECRETARY, 
 BORDER AND TRANSPORTATION SECURITY DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Madam Chairman. It is good to be 
with you and the committee, Ranking Member Sanchez, Chairman 
Cox, Ranking Member of the Full Committee Turner--thank you for 
leadership and your partnership in the development of US-VISIT.
    And it is a pleasure to be before you today to discuss this 
important program of the Department of Homeland Security.
    US-VISIT represents the greatest advance in border 
technology in three decades. It is an historic achievement in 
which we, for the first time in history, can use a biometric 
ability to confirm the identity of those traveling to our 
country with visas.
    The Department of Homeland Security deployed the first 
increment of US-VISIT on time, within budget, and has exceeded 
the mandate established by Congress.
    We also met the challenge that was given by Secretary Ridge 
to include biometrics ahead of schedule.
    This US-VISIT is in response to a congressional mandate--
the leadership of Congress long before the attack on America of 
September 11 set the stage to develop a comprehensive entry-
exit system.
    And some people would like to measure the effectiveness of 
US-VISIT simply as a counterterrorism tool. But it is more than 
that. That is an important measuring stick. But also, as 
Congress well knew when it was first mandated, they would also 
build the integrity of an immigration system to know who 
overstays a visa, and that is also a measuring stick.
    The deterrent value, the reduction of reliance upon 
fraudulent documents and the security of our country all are 
important goals of US-VISIT.
    On January 5, US-VISIT entry procedures were operational at 
115 airports and 14 seaports.
    Our exit procedures, which fully comply with the 
requirements of law, we based upon passenger departure 
information that will allow the Department of Homeland Security 
to identify visa overstays.
    In addition, we have begun pilot testing biometric exit 
procedure at one airport and one seaport.
    As of today, more than 600,000 foreign visitors have been 
processed through US-VISIT entry procedures without increasing 
wait times. And more than 30 known criminals have been 
prevented from entering our country.
    Let me take a few minutes to explain how US-VISIT works. 
Many of you have seen it at our airports already.
    But currently, prior to US-VISIT, at a port of entry many 
of the same procedures were still applicable today as was 
previously. For example, a Customs and Border Protection 
inspector still reviews each visitor's travel documents, such 
as a visa and a passport, still asks the question about the 
visitor's stay in the United States.
    What is new under US-VISIT is that the inspector now uses 
an inkless digital finger scanner to capture two finger scans 
of arriving, non-immigrant visitors holding visas. The visitor 
puts the left index finger and the right index finger on the 
scan, and it very quickly checks it against the operable 
databases. This check takes a matter of seconds.
    The officer also takes a digital photograph of the visitor.
    The biographic and biometric data are used to verify the 
identity of the visitor against the data captured by the State 
Department to ensure that the person entering the country is 
the same person that receives a visa.
    Those biometrics are also compared against a watch list.
    In addition, the digital picture was taken at the visa 
issuing post that is displayed to the CBP officer allows for a 
visual comparison.
    These are important tools for Customs and Border Protection 
officers in their decision whether to admit a visitor to the 
country or not.
    Since the US-VISIT entry procedures were implemented, we 
have significantly increased our capability to uncover 
criminals, to enhance security and to increase the integrity of 
our visa system.
    A few examples, I think, would be appropriate. And these 
are all since January 5.
    A citizen of Colombia convicted of statutory rape was 
intercepted on January 6 at the Miami International Airport 
after he failed to appear for sentencing in New York City and 
fled the country. He was arrested when he attempted to re-enter 
the country and turned over to New York for sentencing.
    One day later, on January 7, a citizen of El Salvador was 
caught at JFK International Airport in New York City through 
the use of the US-VISIT biometrics. This individual had 
previously managed to leave and re-enter the U.S. 12 times over 
the past year until he was caught by the US-VISIT. He had been 
convicted of numerous driving offenses.
    A citizen of El Salvador was intercept in New York on 
January 10th who had previously been convicted of a DUI hit-
and-run death under another identity. This individual had been 
able to successfully leave and re-enter the United States 
despite outstanding warrants for his arrest, including a visit 
as recently as December 12. US-VISIT caught that individual.
    On January 14th, officers in Miami encountered a Peruvian 
national attempting to enter the United States. He had 
previously visited the United States in May of 2003, but his 
name did not appear on any biographic watch list. A biometric 
check under US-VISIT disclosed that he was in fact a convicted 
cocaine trafficker wanted for escaping from a federal prison in 
1984. He had previously entered the United States under a 
fraudulent identity. He was caught under US-VISIT.
    The same day in New York City, an officer intercepted a 
female citizen of Trinidad after she had attempted to enter the 
United States under a false identity. She admitted to officers 
that she had paid $2,000 in Trinidad for a new passport and 
visa under an alternate identity--only caught through the 
biometrics.
    One day later in Los Angeles, US-VISIT biometric checks 
resulted in the interception of a Chinese national wanted for 
probation violations following convictions for wire fraud, 
conspiracy, food stamp trafficking and use of false Social 
Security numbers. He had been attempting to enter the United 
States through use of a false identity. He was successfully 
caught by US-VISIT.
    A citizen of Russia, on January 16th, attempted to enter 
New York City after he had attempted to enter the United States 
on an alternate identity. He was arrested for an assault case--
captured by US-VISIT.
    In Tampa, Florida, on January 17th, a citizen of Jamaica 
attempted to enter the United States but was caught by US-
VISIT. Officers learned that previously he had been arrested 
and convicted in both federal and state courts on cocaine 
trafficking charges. He had been able to successfully evade 
detection and enter the United States over 40 times in the last 
year prior to the implementation of US-VISIT.
    On January 17th, officers in Miami intercepted a citizen of 
Honduras after the biometric check disclosed that he had been 
previously deported from the United States following drug 
convictions.
    January 18th, officers caught a Colombian national who had 
used five different identities and three different dates of 
birth as he attempted to enter the United States. Because of 
the US-VISIT biometrics, that individual was apprehended.
    In Atlanta, on January 19th, we intercepted a citizen of 
Mexico after she attempted to enter the United States by using 
false documents. The biometric checks discovered that she had 
previously attempted to enter the United States in 1996 through 
the use of false documents.
    The illustrations go on and on and on.
    One instance they had used eight different aliases and 
three different dates of birth, and they were intercepted by 
US-VISIT.
    And so it is important to note that these important 
security measures currently are capturing those that are 
attempting to enter our country under false identity and with 
previous convictions, many times under orders to be expelled 
from the country.
    But it also serves as a deferent as the word goes out that 
we have this capability and you cannot underestimate the 
importance of that deterrent.
    It has not a negative impact on our wait times, which is a 
commitment that we engaged in from the very beginning as we 
developed this.
    We have respected the privacy of our foreign visitors, and 
the privacy assessment was published prior to the 
implementation of US-VISIT.
    Our partners have been very important in this endeavor. I 
am delighted to be with Maura Harty, assistant secretary at the 
Department of State. We could not have engaged and had the 
success of US-VISIT without their partnership. That is an 
ongoing effort, and I applaud the efforts of the Department of 
State in working in partnership with us.
    I also appreciate the private sector. James May will be 
testifying later, who has done a terrific job with the ATA in 
working with us, giving us their advice on what are the proper 
solutions that we look to.
    The airlines and airports have all been very valuable 
partners as we have developed this.
    As we look to the future, I know that the job is not 
finished. And clearly, you can look at what has been 
accomplished and say there is much more to be done, and that is 
absolutely correct.
    I am pleased to advise the committee that today we are 
submitting to Congress the 2004 spend plan, which gives 
Congress adequate time to review that in conjunction with the 
GAO.
    We are pleased with the 2004 spend plan that will outline 
in a little bit more detail what we will be doing as we try to 
accomplish the 2004 deadlines of US-VISIT of implementing this 
at the 50 busiest land border ports of entry. And as has been 
indicated, that is a huge list and challenge for us.
    Another part of the 2004 spend plan will be to complete the 
exit portion for our airports.
    We currently have, let me emphasize, the biographic data 
that will allow us to determine visa overstays. We want to be 
able to enhance this with the biometric feature. We are testing 
this with various pilots, one of them being at Baltimore 
International Airport. We will test it in other arenas to 
determine what is the best exit solution with a biometric that 
we can work to implement as we continue to work with our 
partners to see what is the best solution.
    We have done this with the 2003 budget of $367 million to 
achieve this successful deployment. In 2004 we have $330 
million that has been allocated and appropriated by Congress 
for this purpose.
    The biggest challenges is to do this in the 50 busiest land 
ports by the deadline of December of 2004.
    I wanted to recognize the tremendous work of the program 
director, Jim Williams, who is behind me, as well as his deputy 
director, Bob Mockney and the entire Homeland Security team 
that has worked together to meet the current goal and will be 
working with the partners on the border to implement the 50 
busiest land borders requirement in a way that does not 
compromise the commerce that flows through the border each and 
every day.
    We are committed to building a program that enhances the 
integrity of our immigration system by catching the few and 
expediting the many. And we recognize that the U.S. is leading 
the way internationally in this effort, but we will continue to 
work with our international partners.
    [The statement of Mr. Hutchinson follows:]

           Prepared Statement of the Honorable Asa Hutchinson

    Chairman Camp, Ranking Member Sanchez and other distinguished 
Members, it is a pleasure to appear before you today to discuss the 
Department of Homeland Security's US-VISIT program and how this fits in 
with our commitment to protect the homeland.
    US-VISIT represents yet another major milestone in enhancing our 
nation's security and our efforts to reform our borders. It is a major 
step towards bringing integrity back to our immigration and border 
enforcement systems.
    US-VISIT procedures are clear, simple, and fast for foreign 
nationals. Upon arrival at the air or seaport, visitors will see 
signage that clearly explains the US-VISIT procedures. This signage, as 
well as explanatory boarding cards that many airlines are distributing 
to their passengers, is translated into multiple languages and features 
the campaign iconography to ensure people understand what to do when 
they get to the primary inspection booth.
    For foreign visitors traveling with visas, the additional US-VISIT 
steps are simple. First, the officer directs the visitor to place his 
or her left index finger on the small red window of the digital 
fingerscanning device. Next, the visitor places his or her right index 
finger on the scanning device. Finally, the officer takes a digital 
photograph of the visitor. These procedures add, on average, 15 seconds 
to the overall inspection process. There is no ink involved in the 
digital fingerscanning process. The officer will then ask the visitor 
standard, routine questions about his or her visit. The biometric data 
and biographic information are compared to a series of watchlists and 
databases, and within seconds the officer has the information he or she 
needs to admit the visitor into the country or refer the visitor to 
secondary inspection for further review.
    The Department of Homeland Security (DHS) deployed US-VISIT on 
time, on budget, and has met the mandates established by Congress as 
well as the challenge by the Secretary of Homeland Security to include 
biometrics (fingerprints) ahead of schedule. Senior U.S. Customs and 
Border Protection management has hailed it as the biggest improvement 
to border inspection in more than three decades. By January 5, 2004, 
US-VISIT entry procedures were operational at 115 airports (covering 99 
percent of all foreign visitors entering the country by air) and 14 
seaports, and we began pilot testing biometric exit procedures at one 
airport and one seaport. As of January 23rd, more than 600,000 foreign 
visitors have been processed under the new US-VISIT entry procedures.
    Our border management system impacts the security of our citizens 
and our visitors, affects billions of dollars in trade and travel, and 
helps define relations with our international partners. There is a need 
to improve this system and bring it into the 21st century with a new 
integrated system of technological processes that will keep our 
country's economic and national security strong. This 21st century 
technology will provide an important step toward achieving the 
President's goal of secure U.S. borders.
    In just a few short weeks the first release of US-VISIT has 
improved the security of our citizens and visitors. Our Customs and 
Border Protection Officers are saying that the new tools we have put in 
place truly help them do their jobs more effectively. They say it's a 
major advancement in border control. US-VISIT integrates multiple 
sources of information spanning multiple agencies and departments in 
order to identify visitors who may pose a threat to the security of 
this country. A primary source of information supporting the 
identification of foreign-born criminal violators is the FBI's 
Integrated Automated Fingerprint Identification System. (IAFIS) To 
facilitate the inspectors' job at the border, the entrants' screening 
results are processed and displayed on one screen in less than 15 
seconds. Included in this processing time is the collection of the 
entrants' fingerprints and photograph and matching certain information 
with that collected by the Department of State at the time of visa 
issuance. We intercepted a fugitive who had escaped from prison over 20 
years ago. We caught and extradited a felon wanted for manslaughter in 
San Diego. We finally stopped one drug dealer who had entered the U.S. 
more than 60 times in the past four years using different names and 
dates of birth. We continue to identify criminals every day at our 
borders, and on January 19, we supplied crucial biometric information 
to our partners at the Department of State and prevented an individual 
from ever obtaining a visa.
    The increase in security has not had negative effect on our wait 
times or our commitment to service. But you don't have to take my word 
for it. Albert Park, a Korean visiting his sister and arriving at John 
F. Kennedy International Airport, told the New York Sun (January 6th 
edition): ``I expected a lot more delays, but it was all pretty 
smooth,'' and said, ``It definitely makes me feel safer.''
    ``We at the airport believe that this is a true enhancement,'' said 
Bruce Drum, associate director of the Miami-Dade County Aviation 
Department.'' (The Associated Press, January 5th)
    And, there was this excerpt from the Washington Post (January 6th): 
Some travelers who were fingerprinted and photographed at airports 
across the country yesterday said the security procedures were swift, 
and most said they were resigned to the new rules. ```I don't really 
mind,'' said D.C. resident Salome Nnanga, a native of Ethiopia. ``I 
think it's a very, very good idea to protect the country.''
    We want to ensure that we continue to be a welcoming nation, a 
nation that invites visitors to study, do business, and relax in our 
country. We also owe it to our citizens and visitors to deny entry to 
persons wishing to do harm, or who are inadmissible to the U.S. . Few 
would dispute that these steps are necessary.
    As we evaluate the first month of the program, it seems clear that 
visitors appreciate the effort we are making to deliver security while 
simultaneously facilitating the process for law-abiding, legitimate 
travelers. We must continue to respect our visitors' privacy, treat 
them fairly, and enable them to pass through inspection quickly so they 
can enjoy their visit in our country. As people attempt to enter our 
country, we must know who they are and whether they have committed a 
crime that would make them inadmissible to the U.S. Moreover, as they 
leave, we must know that they have not overstayed the duration of their 
visa. This ability to verify identity means we can have security and 
control without impeding legitimate travelers, and we can also help 
protect our welcomed visitors by drastically reducing the possibility 
of identity theft.
    But we are not finished. This is a complicated job that will take 
time to complete. In fact, US-VISIT is designed to be rolled out in 
increments to ensure that the foundation is strong and the building 
blocks are effective. With the deployment of the entry components at 
air and sea ports, we have made a strong beginning, and going into 
2004, we are on track to meet the December 31, 2004 deadline to 
integrate entry-exit databases at the 50 busiest land border ports of 
entry and to deploy biometric capabilities to verify certain visa 
holders. We are seeing that we can accomplish what we set out to do: 
keep out criminals and terrorists, enhance the integrity of our 
immigration system, facilitate legitimate travel and trade and help 
protect the privacy and identity of our visitors.

A Brief Overview
    The US-VISIT program is a high-priority initiative of DHS. Working 
with the Department of State, the Department of Justice, and other 
federal agencies, we have made great strides in improving overall 
border management through the collection of pre-arrival, arrival, and 
departure information on foreign visitors and immigrants who apply for 
visas and travel through our nation's air and seaports. The program 
will ultimately record the entry and exit of certain visa holders at 
our land ports of entry as well. The information will be used to report 
on the numbers of aliens who have overstayed their periods of 
admission. Ultimately these reports will enable DHS to seek aliens who 
have not departed.
    By recording more complete arrival and departure information, the 
US-VISIT program will meet various Congressional mandates for an 
integrated, interoperable, and automated entry exit system for foreign 
visitors. More than that, it will also enhance the security and safety 
of citizens, residents, and visitors by verifying foreign national 
travelers' identities through the comparison of biometric identifiers, 
by authenticating their travel documents, and by checking their data 
against appropriate law enforcement and intelligence systems.

The goals of US-VISIT are to:

Enhance the security of our citizens and visitors.
US-VISIT is a history-making achievement that begins overseas with our 
partners at the Department of State's visa-issuing posts, and continues 
upon entry at Customs and Border Protection inspection booths. Already 
US-VISIT has prevented 30 people who matched criminal databases from 
entering the U.S.--one even before the visa was issued overseas. And, 
just by implementing US-VISIT procedures, we have sent a warning to 
those who believe they can skirt the system, to not even try.

Facilitate legitimate travel and trade.
    The Department believes that, over time, US-VISIT will actually 
speed up the processing times. Reports indicate that capturing 
biometrics (two fingerscans and a digital photo) takes less then 15 
seconds. The Automated Biometric Identification System (IDENT) system 
takes only seconds to capture the person's information. The CBP 
Officers often can ask fewer questions once the identity of the visitor 
has been captured. Fewer people are being sent for secondary 
inspection, and the overall time to `clear' a plane has not been 
significantly impacted. We have also developed responsible mitigation 
strategies if circumstances dictate that wait times have become 
unacceptable at a port of entry. All of these improvements help to keep 
trade booming and contribute to the economy of our nation.

Ensure the integrity of the immigration system.
    Inherent in the US-VISIT program is its ability to identify 
fraudulent documents. This tool aids in bolstering the integrity of the 
immigration system. As we test various exit components, we further 
strengthen the immigration system by identifying people who do not 
comply with the terms of their admission.
    US-VISIT also allows DHS to identify those visitors who have 
overstayed their allotted time in the U.S. and will be available to 
determine the future admissibility of such visitors. Through the use of 
airline and ship manifests, US-VISIT already tracks who has arrived to, 
and departed from, the U.S. Those departures are matched with US-VISIT 
databases against the recorded entries. Information received from other 
DHS databases, such as the Student and Exchange Visitor Information 
System, or SEVIS, will be used to confirm a visitor's compliance with 
U.S. immigration policy. Individuals for whom an entry exists, but for 
whom there is no record of departure, are referred to U.S. Immigration 
and Customs Enforcement for further investigation. If these overstays 
are located, they may be placed in removal proceedings in accordance 
with applicable immigration laws.
    By providing vital data and assisting in the enforcement of 
immigration laws, US-VISIT strengthens the overall immigration process 
and ensures the integrity of our immigration system.

Safeguard the personal privacy of our visitors.
    Biometric identifiers make it harder to steal someone's identity 
even if their travel documents are lost or stolen. This is a 
significant benefit US-VISIT delivers for the millions of legitimate 
travelers we welcome each year. In addition, we must continue to 
respect our visitors' privacy. We have a Privacy Impact Assessment 
(PIA) being reviewed by external audiences and DHS has the first 
statutorily created Chief Privacy Officer, Nuala O'Connor Kelly. Ms. 
O'Connor Kelly along with the US-VISIT privacy officer has worked 
closely with privacy experts at the Office of Management and Budget, 
and with independent privacy consultants to prepare a PIA that 
addresses the beginning increments of this program.

The Identity Verification Continuum
    The Department of Homeland Security and Department of State 
together have created an entire continuum of identity verification 
measures that begins overseas, when a traveler applies for a visa, and 
continues upon entry and exit from this country. Today, more than 50 
visa-issuing posts have begun to capture fingerscans and photographs of 
foreign nationals when they apply for visas, regardless of their 
country of origin. This process will be in place at all 211 visa-
issuing posts worldwide by October 2004.
    US-VISIT supports pre-entry processes by using information from the 
Advance Passenger Information system (biographic, biometric, and 
previous travel and visa information) to match information to 
watchlists. This pre-entry processing establishes a single identity for 
each foreign national that will be used in all interactions with US-
VISIT.
Program Implementation
    The program is being implemented in increments. The first increment 
was implemented on December 31 of last year. The other increments will 
be deployed over the coming years with the ultimate goal of having a 
robust system that can deliver all of the US-VISIT goals. The steps to 
this program include:

        Increment 1--12/31/03:
        <bullet> Collect and verify biometrics for foreign nationals 
        arriving with nonimmigrant visas at air and seaports of entry
        <bullet> Check admissibility against watchlists using 
        biographic and biometric data
        <bullet> Establish exit pilots

        Increment 2A--10/26/04:
        <bullet> Issue U.S. biometric travel documents following 
        International Civil Aviation Organization (ICAO) standards (all 
        countries)
        <bullet> Visa Waiver Program applicants must have machine 
        readable passports with biometric indicators in compliance with 
        ICAO standards
        <bullet> Deploy capability to read biometric travel documents 
        at air and sea POEs

        Increment 2B--12/31/04:
        <bullet> Extend Increment 1 capability to 50 highest volume 
        land POEs

        Increment 3--12/31/05:
        <bullet> Extend Increment 2B to remaining land POEs

        Increment 4:
        <bullet> Launch initial roll-out of US-VISIT envisioned system

US-VISIT's Budget
    We deployed US-VISIT on budget. During Fiscal Year 2003 we used 
appropriated funds of $367 million to achieve successful deployment to 
115 airports and 14 seaports. Specifically we have:
        <bullet> Implemented/interfaced systems to reduce redundancy 
        and make more information available
        <bullet> Upgraded our infrastructure to support added 
        biometrics
        <bullet> Deployed the US-VISIT system to 115 airports and 14 
        seaports on January 5, 2004
        <bullet> Initiated the exit pilot at one airport and one 
        seaport
        <bullet> Established the US-VISIT program office
    During fiscal year 2004, we have a total of $330 million plus an 
additional $10 million in no-year funds that we intend to use to 
continue meeting our goals. Currently, our fiscal year 2004 Expenditure 
Plan is in review; when these funds are released, we plan to:
        <bullet> Analyze, field test, and initiate deployment of 
        alternative approaches for verifying identity on exit at air 
        and sea ports of entry
        <bullet> Implement US-VISIT Increment 1 capabilities at the 50 
        busiest land border ports of entry by December 2004
        <bullet> Install biometric readers at all air, sea, and land 
        ports of entry
        <bullet> Continue building our program management capabilities
In addition, we plan to award a contract to a prime contractor for 
further development of our end vision. This long-term vision will cover 
foreign nationals and their interactions with U.S. officials before 
they enter, when they enter, and when they exit. This comprehensive 
approach to border management will lead to the creation of a virtual 
border and will set the course for improved processes for management of 
data on foreign visitors.
    We have also requested that $25 million be released in the interim, 
while the current year expenditure plan is in review. This will allow 
us to continue our efforts without interruption and avoid impact to the 
program that delays in schedule may cause.

Entry Procedures
    US-VISIT procedures are already in place at more than 50 visa-
issuing posts, and all 211 visa-issuing posts will be deploying US-
VISIT technology by October, 2004. By capturing biometrics overseas, 
before visas are issued, we are working together to strengthen national 
security.
    Once at the port of entry, visitors will find that many of the 
procedures remain unchanged and are familiar to international 
travelers. For example, a U.S. Customs and Border Protection Officer 
still reviews each visitor's travel documents, such as a visa and 
passport. The officer still asks questions about the visitor's stay in 
the U.S.
    What's new under US-VISIT is that the U.S. Customs and Border 
Protection Officer now uses the inkless, digital ``fingerscanner'' to 
capture two ``fingerscans'' of arriving nonimmigrant visitors holding 
visas. The visitor puts the left index finger and then the right index 
finger on the scanner. The officer also takes a digital photograph of 
the visitor.
    The biographic and biometric data are used to check the identity of 
the visitor against the data captured by the State Department to ensure 
that the person entering the country is the same person who received 
the visa. Biometrics are also are compared against watchlists. At that 
point, the U.S. Customs and Border Protection Officer will either admit 
the visitor or conduct additional inquiries based on the verification 
results. These procedures reduce fraud, identity theft, and the risk 
that terrorists and criminals will enter the U.S. undetected.

A True Partnership
    The Department is not doing this alone. We are collaborating with 
other government agencies, most notably the Department of State, to 
implement US-VISIT and inform the traveling public. We are working 
closely with the air and sea travel industry regarding the requirements 
of the US-VISIT program, as well as speaking with constituencies along 
the land borders. We see our relationship with these groups as a 
partnership.
    We are also partnering with private industry to develop the best 
technological solutions. In accordance with our published schedule, a 
Request For Proposals (RFP) was issued in November 2003. The RFP 
incorporates an acquisition strategy to ensure that the latest 
available technologies will be incorporated into US-VISIT. The contract 
for this technology is expected to be awarded in May 2004.
    An important part of the program is public education. Travelers are 
getting educated about the program before they arrive at the port of 
entry. We are engaged in a worldwide campaign to inform them. This 
campaign includes public service announcements, signage at ports of 
entry, explanatory cards on airplanes and cruise ships, news media 
coverage, and on-board explanatory videos.

Statutory Mandates
    The principal law that mandates the creation of an automated entry 
exit system that integrates electronic alien arrival and departure 
information is the Immigration and Naturalization Service Data 
Management Improvement Act of 2000 (DMIA), Pub. Law No. 106-215 (2000), 
114 Stat. 339, codified as amended at 8 U.S.C. section 1365a.
    But there are many other laws that also impact this program. In 
order to handle all of the legal requirements and be able to best 
monitor the progress, meet the requirements, and measure the success, 
Secretary Ridge established US-VISIT.

(See Appendix I for details of these statutory mandates.)

    We have prepared a Privacy Impact Assessment (PIA), which is being 
reviewed by external audiences including several privacy advocacy 
groups. This process is being spearheaded by DHS's Chief Privacy 
Officer, Ms. O'Connor Kelly, the first statutorily mandated privacy 
officer, to ensure that US-VISIT is in compliance with the appropriate 
privacy rules and regulations. The PIA has been developed and published 
in the Federal Register, and DHS is currently considering all comments 
received.
    The Chief Privacy Officer (Ms. Nuala O'Connor Kelly) and the US-
VISIT Privacy Officer (Steve Yonkers) have met with numerous advocacy, 
privacy and immigration groups to solicit input and hear concerns, 
which have been taken into account in the development of the program.
    The US-VISIT PIA was hailed by many in the privacy community as an 
excellent model of transparency, including detailed information about 
the program, the technology and the privacy protections.

A copy of the PIA is attached as Appendix II.

Success Stories on Violators and Deployment of US-VISIT
    Since US-VISIT entry procedures were implemented, it has resulted 
in the interception of dozens of individuals who matched various 
criminal databases. These included rapists, drug traffickers, credit 
card and visa fraud criminals, and a convicted armed robber.

Here are details of a few examples.
        (1) Interception of Drug Trafficker who Escaped from Prison
        On January 14, 2004, at Miami International Airport, a man from 
        Peru was traveling to the U.S. When he arrived at the CBP 
        Officer's booth for admittance, he was enrolled in US-VISIT. 
        His fingerprints matched the ones already in a federal criminal 
        database. This man was wanted by the U.S. Marshals for escaping 
        from Latuna Federal Correction Facility where he had been 
        serving a sentence for a conviction of dealing cocaine. After 
        his escape, an arrest warrant was issued. In May of 2003 he re-
        entered the U.S. without incident. Now, with the help of US-
        VISIT biometric processes, this man was caught and extradited 
        by U.S. Marshals for the warrant. US-VISIT prevented a drug 
        trafficker from roaming the streets of Miami.

        (2) Closing a Deportation Loop Hole
        On January 18, 2004, a man who has had four aliases tried to 
        enter the U.S., even with a ``failure to appear'' warrant for 
        him. DHS/ICE issued the warrant on August 8, 2003, and since 
        then this man had entered the U.S. at least five times. Now, 
        with the ability to match fingerscans with those in a criminal 
        database, this man's luck ran out. He was extradited from the 
        U.S. and put on the next flight back to Columbia.

        (3) Passport Fraud Uncovered
        On January 14, 2004, a British West Indies Airways flight 
        arrived at JFK International Airport in New York carrying a 
        woman from Trinidad. Because US-VISIT begins at the visa-
        issuing post, a photo of the visitor was on file and accessible 
        by the Customs and Border Protection Officer, who determined 
        that she had used a false name. In reality, the traveler was a 
        woman who had been arrested in April 2000 in New Orleans and 
        convicted of passport fraud. The woman was placed on five 
        years' probation and ordered not to enter the U.S. without the 
        attorney general's written permission. The woman, whose husband 
        lives in the U.S., had obtained a passport and U.S. visa by 
        fraud in Trinidad for $2,000. She was removed from the U.S.

A CBP Trainee Rises to the Occasion
    U.S. Customs and Border Protection Officer Trainee Rafal Izycki was 
working at primary inspection at Chicago O'Hare International Airport. 
An Albanian national seeking admission into the U.S. appeared before 
him and presented an Albanian passport. When Inspector Izycki compared 
the State Department photo image provided by US-VISIT against the 
photographs on the passport and visa, he realized that the person in 
front of him was not the person who had obtained the visa. He 
immediately referred the Albanian national for a secondary inspection 
where it was determined that the passport had been photo-substituted 
and the non-immigrant visa had been altered. The capability to access 
the State Department photographs of visa applicants provides a powerful 
tool for inspectors working to protect the U.S.

Land Issues
    US-VISIT Increment 1 capabilities will be in place at the 50 
busiest land ports of entry (POEs) by December 31, 2004, with processes 
in place at the remaining land borders by December 31, 2005. Land 
borders present a unique challenge in and of themselves, and each of 
the 165 land ports of entry is different and challenging. We do know 
that an inspection conducted at an air or sea entry point and one 
conducted at a land border will be different.
    We are currently developing the best solution for a technology to 
be used at land borders to leverage biographic and biometric data.

US-VISIT Program Office Update
    Secretary Ridge approved the creation of a US-VISIT program office, 
and positions have been approved to fill the organization and manage 
the program. The US-VISIT program team consists of representatives from 
the various components of DHS responsible for border security, 
including the U.S. Immigration and Customs Enforcement, U.S. Customs 
and Border Protection, and the Transportation Security Administration. 
U.S. Citizenship and Immigration Services is also represented. Other 
DHS components that assist the US-VISIT team include the Directorate 
for Management and the Science and Technology Division. In addition, 
outside DHS, the team consists of representatives from the Departments 
of Transportation, State, Commerce, Justice, and General Services 
Administration.

Conclusion
    US-VISIT is critical to our national security as well as our 
economic security, and its introduction has been successful. But US-
VISIT can not be left unfinished. We must build upon the initial 
framework and solid foundation to ensure that we continue to meet our 
goals to enhance the security of our citizens and visitors while 
facilitating travel for the millions of visitors we welcome each year. 
We are committed to building a system that enhances the integrity of 
our immigration system by catching the few and expediting the many, and 
we recognize that the U.S. is leading the way in helping other 
countries around the world keep their borders secure and their doors 
open.

                               Appendix I

                          Statutory Mandates:

The principal law that mandates the creation of an automated entry exit 
system that integrates electronic alien arrival and departure 
information is the Immigration and Naturalization Service Data 
Management Improvement Act of 2000 (DMIA), Pub. Law No. 10.6-215 
(2000), 114 Stat. 339, codified as amended at 8 U.S.C. section 1365a. 
DMIA amended previous legislative requirements for an entry exit system 
that would record the arrival and departure of every alien who crosses 
the U.S. borders. See section 110. of the Illegal Immigration Reform 
and Immigrant Responsibility Act of 1996. Div. C, Pub. Law No.104-208 
(1996), 110. Stat. 3009-558, codified in scattered sections of 8 U.S.C. 
(later amended by DMIA). DMIA requires that the entry exit system 
consist of the integration of all authorized or required alien arrival 
and departure data that is maintained in electronic format in 
Department of Justice (DOJ) (now DHS) or Department of State (DOS) 
databases. 8 U.S.C. section 1365a. This integrated entry exit system 
must be implemented at all air and sea ports of entry by December 31, 
2003 using available air and sea alien arrival and departure data as 
described in the statute. DMIA also states that the system must be 
implemented at the 50. most highly trafficked land border ports of 
entry by December 31, 2004, and at all ports of entry by December 31, 
2005, with all available electronic alien arrival and departure 
information. DMIA also requires DHS to use the entry exit system to 
match the available arrival and departure data on aliens and to prepare 
and submit to Congress various reports on the numbers of aliens who 
have overstayed their periods of admission and on implementation of the 
system. 8 U.S.C. section 1365a(e). DMIA authorizes the Secretary of 
Homeland Security, in his discretion, to permit other Federal, State, 
and local law enforcement officials to have access to the entry exit 
system for law enforcement purposes. 8 U.S.C. section 1365a(f).
    In addition, section 217(h) of the Visa Waiver Permanent Program 
Act of 2000. (VWPPA), Pub. Law No. 106-396 (2000), 114 Stat. 1637, 
codified as amended at 8 U.S.C. section 1187(h), requires the creation 
of a system that contains a record of the arrival and departure of 
every alien admitted under the Visa Waiver Program (VWP) who arrives 
and departs by air or sea. The requirements of DMIA effectively result 
in the integration of this VWP arrival/departure information into the 
primary entry exit system component of the US-VISIT program.
    In late 2001 and 2002, Congress passed two additional laws 
affecting the development of the entry exit system, partly in response 
to the events of September 11, 2001. Section 40.3(c) of the Uniting and 
Strengthening America by Providing Appropriate Tools Required to 
Intercept and Obstruct Terrorism (USA PATRIOT Act). Pub. Law No. 107-56 
(2001),115 Stat. 353, codified as amended at 8 U.S.C. section 1379, 
required the Attorney General and the Secretary of State jointly, 
through the National Institute of Standards and Technology (NIST), and 
in consultation with the Secretary of Treasury and other appropriate 
Federal law enforcement and intelligence agencies, and in consultation 
with Congress, to develop and certify a technology standard, including 
appropriate biometric identifier standards, that can be used to verify 
the identity of visa applicants and persons seeking to enter the United 
States pursuant to a visa and to do background checks on such aliens. 
In developing the entry exit system required by DMIA, section 414(b) of 
the USA PATRIOT Act directed the Attorney General and the Secretary of 
State to ``particularly focus on the utilization of biometric 
technology; and the development of tamper-resistant documents readable 
at ports of entry.'' 8 V.S.C. section 1365a note.
    The legislative requirements for biometric identifiers to be 
utilized in the context of the entry exit system were significantly 
strengthened with passage of the Enhanced Border Security and Visa 
Entry Reform Act of 2002 ``Border Security Act'' or EBSVERA) Pub. Law 
No. 107-173 (2002), 116 Stat. 553, codified in scattered sections of 8 
U.S.C. Section 302(a)(1) of the Border Security Act states that the 
entry exit system must use the technology and biometric standards 
required to be certified by section 403( c) of the USA PATRIOT Act. 
Section 303(b)(1) requires that ``[n]o later than October 26, 2004,'' 
only machine-readable, tamper resistant visas and other travel and 
entry documents that use biometric identifiers may be issued to aliens 
by DHS and DOS. 8 U.S.C. section 1732(b)(1). This section, however, 
does not invalidate unexpired travel documents that have been issued by 
the U.S. government that do not use biometrics. Section 303(b)(1) 
further states that the Secretaries of Homeland Security and State must 
jointly establish document authentication and biometric identifier 
standards for alien travel documents from among those recognized by 
domestic and international standards organizations. Id.
    Section 303(b)(2) requires that ``[n]o later than October 26, 
2004,'' all ports of entry must have equipment and software installed 
``to allow biometric comparison and authentication of all United States 
visas and other travel and entry documents issued to aliens, and 
passports'' that are required to be issued by VWP countries. 8 U.S.C. 
section 1732(b)(2). The current statutory language also requires that 
by that same date, VWP countries must have a program in place to issue 
tamper-resistant, machine-readable, biometric passports that comply 
with biometric and document identifying standards established by the 
International Civil Aviation Organization (ICAO). 8 U.S.C. section 
1732(c)(1). The statute also states that on or after October 26, 2004, 
any alien applying for admission under the VWP must present a passport 
that is machine readable, tamper-resistant and that uses ICAO-compliant 
biometric identifiers, unless the unexpired passport was issued prior 
to that date. 8 U.S.C. section 1732(c)(2). The entry exit system must 
include a database that contains alien arrival and departure data from 
the machine readable visas, passports, and other travel and entry 
documents. 8 U.S.C. section 1731 (a)(2). In developing the entry exit 
system, the Secretaries of Homeland Security and State must also make 
interoperable all security databases relevant to making determinations 
of alien admissibility. 8 U.S.C. section 1731(a)(3).
    In addition, the entry exit system component must share information 
with other systems required by the Border Security Act. Section 202 of 
the Border Security Act addresses requirements for an interoperable law 
enforcement and intelligence data system and requires the integration 
of all databases and data systems that process or contain information 
on aliens.
    The US-VISIT program requirements that foreign nationals provide 
biometric identifiers when they seek admission to the United States are 
further supported by the Department's broad authority to inspect aliens 
contained in section 235 of the INA, 8 U.S.C. section 1225. Pursuant to 
section 215(a) of the INA, the President also has the authority to 
regulate the departure of aliens, as well as their arrival. President 
Bush has issued Executive Order titled Assignment of Functions Relating 
to Arrivals In and Departures From the United States delegating his 
authority to promulgate regulations governing the departure of aliens 
from the United States. In accordance with section 215 and with this 
new Executive Order, the Secretary of Homeland Security, with the 
concurrence of the Secretary of State, has the authority to issue this 
rule which requires certain aliens to provide requested biometric 
identifiers and other relevant identifying information as they depart 
the United States. For nonimmigrant aliens, the Department may also 
make compliance with the departure procedures a condition of their 
admission and maintenance of status while in the country under INA, 
section 214.
    Many other provisions within the INA also support the 
implementation of the US-VISIT program, such as the grounds of 
inadmissibility in section 212, the grounds of removability in section 
237, the requirements for the VWP program in section 217, the 
electronic passenger manifest requirements in section 231, and the 
authority for alternative inspection services in sections 286(q) and 
235 of the INA and section 404 of the Border Security Act. These are 
but a few of the most significant provisions that support US-VISIT from 
among numerous other immigration and customs statutes.

                     US-VISIT Program, Increment 1

                       Privacy Impact Assessment

                           Executive Summary

                           December 18, 2003

Overview
    US-VISIT, the United States Visitor and Immigrant Status Indicator 
Technology, is a legislatively-mandated DHS program that is designed 
to:

        <bullet> Enhance the security of American citizens, permanent 
        residents, and visitors
        <bullet> Expedite legitimate travel and trade
        <bullet> Ensure the integrity of the immigration system
        <bullet> Safeguard the personal privacy of visitors

When fully implemented, US-VISIT will provide a dynamic, interoperable 
system involving numerous stakeholders across the government. Increment 
1, as the name suggests, is the first step in the implementation 
process. Increment 1 proposes to integrate and modify the capabilities 
of several information systems in order to accomplish the mission of 
US-VISIT.
This Privacy Impact Assessment (PIA) focuses on Increment 1 of this 
entry exit system.
What Information is Collected
    The US-VISIT program will collect and retain biographic, travel, 
and biometric information (i.e., photograph and fingerprints) 
pertaining to visitors.
    Individuals covered by Increment 1 (``covered individuals'') are 
nonimmigrant visa holders traveling through air and sea ports.\1\ The 
DHS regulations and related Federal Register notice for US-VISIT 
Increment 1 will fully detail coverage of the program. Information is 
in the Committee file.
---------------------------------------------------------------------------
    \1\ Nonimmigrant visa entrants comprise a small percentage of the 
330 million non-citizens admitted annually through ports of entry. 
Establishing US-VISIT incrementally with this population will allow DHS 
to test implementation of the system and to make revisions as needed 
for future increments.
---------------------------------------------------------------------------
Why the Information is Being Collected and Intended Use of the 
Information
    In accordance with Congressional mandates for an entry exit system, 
information is collected from and used to verify the identity of 
covered individuals who enter or leave the United States. This enables 
U.S. authorities to enhance the security of the United States by more 
effectively identifying covered individuals who are:

        <bullet> Known to pose a threat or are suspected of posing a 
        threat to the security of the United States;
        <bullet> Known to have violated the terms of their admission to 
        the United States; or
        <bullet> Wanted for commission of a criminal act in the United 
        States or elsewhere.

Information Access and Sharing
    Information collected and retained by US-VISIT will be accessed by 
employees of DHS components--Customs and Border Protection, Immigration 
and Customs Enforcement, Citizenship and Immigration Services, and the 
Transportation Security Administration--and by consular officers of the 
Department of State. Strict security controls will be put in place to 
ensure that only those personnel with a need for the information in the 
performance of their official duties will be able to access information 
in the system.
    If necessary, the information that is collected will be shared with 
other law enforcement agencies at the federal, state, local, foreign, 
or tribal level, who are lawfully engaged in collecting law enforcement 
intelligence information and who need access to the information in 
order to carry out their law enforcement duties.

Consent Mechanisms
    The admission into the United States of an individual subject to 
US-VISIT requirements will be contingent upon submission of the 
information required by US-VISIT, including biometric identifiers. A 
covered individual who declines to provide biometrics is inadmissible 
to the United States, unless a discretionary waiver is granted under 
section 212(d)(3) of the Immigration and Nationality Act. Such an 
individual may withdraw his or her application for admission, or be 
subject to removal proceedings.

Security
    Information accessible to US-VISIT will be protected through multi-
layer security mechanisms that are physical, technical, administrative 
and environmental and that are in compliance with the DHS IT Security 
Program Handbook and DHS Baseline Security Requirements for Automated 
Information Systems. These security mechanisms provide access control 
to sensitive data, physical access control to DHS facilities, 
confidentiality of communications, authentication of sending parties, 
and careful screening to ensure that all personnel with access to data 
are screened through background investigations commensurate with the 
level of access required to perform their duties.

System of Records
    A system of records notice (SORN)--normally required under the 
Privacy Act--is not necessary for US-VISIT because no new system is 
being developed for Increment 1. However, the ADIS and IDENT SORNs have 
been revised to reflect US-VISIT usage.
    Although US-VISIT derives its capability from the integration and 
modification of existing systems, it nevertheless represents a new 
business process that involves new uses of existing data and the 
collection of new data items. As a result, there is a potential for new 
privacy risks, which are addressed in the PIA.

Privacy Controls
    US-VISIT collects, integrates, and shares personal information of 
covered individuals. Covered individuals must consent to the 
collection, use, and disclosure of this personal information if they 
wish to enter or leave the U.S.
    To address the privacy concerns associated with the program, US-
VISIT will implement comprehensive privacy controls, which will be 
modified and updated as the system is revised and expanded. These 
controls consist of:
<bullet> Public education through transparency of the program, 
including development and publication of a Privacy Policy that will be 
disseminated prior to the time information is collected from potential 
visitors; \2\
---------------------------------------------------------------------------
    \2\ A copy of the Privacy Policy is appended to the full report.
---------------------------------------------------------------------------
<bullet> Establishment of privacy sensitivity awareness programs for 
US-VISIT operators; \3\
---------------------------------------------------------------------------
    \3\ The legacy systems on which Increment 1 is built include 
privacy sensitivity training requirements. This training will be made 
mandatory for US-VISIT operators.
---------------------------------------------------------------------------
<bullet> Establishment of a Privacy Officer for US-VISIT and 
implementation of an accountability program for those responsible for 
compliance with the US-VISIT Privacy Policy;
<bullet> Periodic strategic reviews of US-VISIT data to ascertain that 
the collection is limited to that which is necessary for US-VISIT 
stated purposes;
<bullet> Usage agreements between US-VISIT and other agencies 
authorized to have access to US-VISIT data;
<bullet> To the extent permitted by law, regulations, or policy, 
establishment of opportunity for covered individuals to have access to 
their information and/or allow them to challenge its completeness;
<bullet> Maintenance of security safeguards (physical, electronic and 
procedural) consistent with federal law and policy to limit access to 
personal information only to those with appropriate rights, and to 
protect information from unauthorized disclosure, modification, misuse, 
and disposal, whether intentional or unintentional; and
<bullet> Establishment of administrative controls to prevent improper 
actions due to data inconsistencies from multiple information sources.

Contact Point and Reviewing Official
        Contact Point: Steve Yonkers, US-VISIT Privacy Officer, (202) 
        298-5200
        Reviewing Official: Nuala O'Connor Kelly, Chief Privacy 
        Officer, DHS,
        (202) 772-9848

Comments
    We welcome your comments on this privacy impact assessment. Please 
write to: Privacy Office, Attn.: US-VISIT PIA, U.S. Department Of 
Homeland Security, Washington, DC 20528, or email <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f8888a918e999b8194b89c908bd69f978ed6">[email&#160;protected]</a> 
Please include US-VISIT PIA in the subject line of the email.


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


    Ms. Granger. Thank you, Mr. Secretary, I appreciate that 
very much. We will be back with some questions in just awhile.
    The chair now recognizes Assistant Secretary Maura Harty 
for her testimony.

 STATEMENT OF THE HONORABLE MAURA HARTY, ASSISTANT SECRETARY, 
        BUREAU OF CONSULAR AFFAIRS, DEPARTMENT OF STATE

    Ms. Harty. Thank you, Madam Chairman, members of the 
committee. Thank you very much for inviting me here to testify 
before you today on the role of the Bureau of Consular Affairs 
in implementing biometrics programs in U.S. visas and 
passports.
    The inclusion of biometrics in international travel 
documents is an important step in enhancing the security of our 
nation's borders.
    The Department of State's visa work abroad constitutes a 
vital element in providing for our national security. We have 
no higher responsibility than the protection of our citizens 
and safeguarding our country's borders through the visa 
process.
    The consular officers of the foreign service who adjudicate 
visas at our embassies and consulates abroad truly are the 
first line of defense. Through them, our goal in fact is to 
push the borders of the United States out as far from our 
shores as possible to stop questionable or problematic 
travelers overseas long before they ever reach our shores.
    The biometric visa program will allow us to do just that by 
helping consular officers identify visa applicants already 
known to U.S. law enforcement.
    The Border Security Act requires that no later than October 
26, 2004, the Secretary of State issue to aliens only visas 
that use biometric identifiers. To comply with this 
requirement, the State Department began deployment of the 
biometric visa program last September.
    I am pleased to report that 55 posts now are already 
enrolling fingerprints, and with a very aggressive rollout 
schedule, the program will be in effect at all visa 
adjudicating posts by the congressionally mandated October 26 
deadline.
    We will start issuing immigrant visas with the same 
biometric features next month and have this program operational 
at all immigrant-visa-issuing posts on the same date.
    Under the biometric visa program, consular officers abroad 
will enroll applicants' fingerprints with electronic scanners 
at the visa interview windows, which will then be matched 
against the fingerprint files of DHS's IDENT system.
    Our scanner looks almost exactly like the scanner that 
Undersecretary Hutchinson has already shown to you.
    We are currently doing the match procedure at four pilot 
posts and are experiencing a return time of approximately seven 
to eight minutes at all four posts.
    If the fingerprints match fingerprints in the IDENT 
database, no action is taken until the derogatory information 
is reviewed by a consular officer overseas.
    We are currently discussing with the FBI the means to 
readily access these files so that consular officers in the 
field will have the necessary information to efficiently 
adjudicate the visa application to conclusion.
    The most important here that I would like to underscore is 
that an IDENT hit overseas will freeze the visa application 
process until that hit is resolved, meeting that very first 
goal of pushing that border out as far from our own physical 
borders as a nation as possible.
    Now moving on to cases with no hits, once the visa has been 
issued, our non-immigrant visa system sends the issued visa 
data, including the visa applicant's photo and the fingerprint 
identification number, to DHS. When the traveler arrives at a 
port of entry, the US-VISIT system will use the fingerprint 
identification number to match the visa with the file in IDENT 
and compare the visa holder's fingerprints with those on file.
    This one-to-one fingerprint comparison ensures that the 
person presenting the visa at the port of entry is in fact the 
same person to whom the visa was issued.
    To guard against impostors and forged or counterfeit visas, 
our visa data-share program has been upgraded for us with US-
VISIT so that CBP officers at ports of entry have complete 
access to the travelers' visa files from the consular 
consolidated database at their primary stations.
    CBP officers at ports of entry sees the same photo and the 
same bio data that the consular officer entered into the 
consular consolidated database at posts overseas at the time of 
the interview. This is a seamless operation.
    The Border Security Act also established October 26, 2004, 
as the date by which visa waiver program countries must issue 
to their nationals only machine-readable passports, 
incorporating biometric identifiers that comply with the 
standards established by ICAO.
    ICAO's decision to make facial-recognition technology the 
standard passport biometric was not made until May of 2003, 
leaving visa-waiver countries approximately 17 months to bring 
a biometric passport from design to production--a process that 
normally takes several years.
    Although VWP governments share a commitment to making this 
change--and all are making varying degrees of progress toward 
complying with the biometric requirement--they have indicated 
at this point that they will be unable to meet the deadline.
    The legislative requirements of the Border Security Act 
apply only to passports issued by visa-waiver program 
countries, but not the U.S. passport, which I firmly believe is 
the world's single most valuable travel document.
    Although the law does not require of us what we are 
requiring of the VWP countries, the Department of State has a 
program that will produce the first biometric U.S. passport, 
using the ICAO standard official recognition, in October of 
this year.
    We have planned to complete the transition to biometric 
passports by the end of 2005.
    Embedding biometrics into U.S. passports to establish a 
clear link between the person issued the passport and the user 
is an important step forward in the international effort to 
strengthen border security. The Department of State is working 
hand in hand with our colleagues and friends at the Department 
of Homeland Security to ensure that we have a system that 
continues to facilitate legitimate international travel and 
properly identifies those who pose or could pose a threat to 
prevent them from entering our country.
    I think I speak for all of us here today when I say that 
the continued commitment to ensuring the sanctity and security 
of our borders and our nation is our number one priority.
    I am happy to answer any questions you might have.
    Thank you very much.
    [The statement of Ms. Harty follows:]

               Prepared Statement of The Hon. Maura Harty

    Mr. Chairman and Members of the Committee:
    Thank you for inviting me to testify before you today on the role 
of the Bureau of Consular Affairs in implementing Section 303 of the 
Enhanced Border Security and Visa Entry Reform Act (Border Security 
Act). The inclusion of biometrics, in addition to the photograph that 
has always been collected, in international travel documents is an 
important step in continuing to improve our ability to verify the 
identity of prospective travelers to the United States. In the process 
of screening visas and passports domestically and abroad, additional 
biometrics can serve as a useful adjunct to existing screening 
processes that identify individuals who might be terrorists, criminals, 
or other aliens who might represent a security risk to the United 
States. The Department of State has invested substantial time, money, 
and effort to implement the additional biometrics and ensure that 
international visitors are aware of changes to the visa application 
process and admission procedures in the United States. In so doing, we 
have worked, and will continue to work, closely with our colleagues at 
the Departments of Homeland Security and Justice (including the FBI).
    As you know, the Border Security Act requires that no later than 
October 26, 2004, the Secretary of State issue to aliens only visas 
that use biometric identifiers. To comply with this requirement with 
respect to nonimmigrant visas, the State Department began deployment of 
the Biometric Visa Program on September 22, 2003, at the U.S. Embassy 
in Brussels, Belgium, and quickly followed suit at the U.S. Consulate 
General in Frankfurt and Embassies in San Salvador and Guatemala City. 
I am pleased to report that the program is now operational at 55 visa-
issuing posts and with our aggressive rollout schedule the program will 
be in effect at all visa-issuing posts by October 26 of this year. With 
regard to immigrant visas, we will start issuing biometric visas in 
February and have this program operational at all immigrant visa-
issuing posts by October 26, 2004.
    The success we are having with the rollout of the Biometric Visa 
Program should not detract from the accomplishments of the process 
itself. I would like to walk you through the nonimmigrant visa process 
from visa applicant enrollment to the traveler's arrival at the U.S. 
port of entry.
    Consular officers abroad oversee the fingerprint enrollment of the 
visa applicants with fingerprint scanners at the visa interview 
windows. Enrollment time averages about 30 seconds. As soon as the 
fingerprints are enrolled they are sent electronically, along with the 
photo of the applicant and biographic data, to the Consular 
Consolidated Database (CCD) in Washington. The CCD relays the 
fingerprint files to DHS's IDENT system in Rockville over a reliable, 
direct transmission line, which sends the results back to the CCD for 
relay back to the post. The current return time is approximately seven 
to eight minutes at three pilot posts.
    No visa can be issued until a response of no derogatory information 
found is returned from the IDENT system. Until such information from 
IDENT is received, the visa system is locked with regard to that visa 
application. If the fingerprints match fingerprints provided by the FBI 
in the IDENT lookout database, the IDENT system returns to the post an 
FBI file number.
    At present, Consular officers at posts overseas do not have desktop 
access to the FBI record associated with that file number. As an 
interim procedure, we are processing such cases through our National 
Visa Center, where an FBI official receives and analyzes the FBI's 
records and then forwards the information to post. We are discussing 
means to enhance the efficiency of the process with the FBI, so that 
consular officers in the field will have more direct access to National 
Crime Information Center (NCIC) information that will be of use in 
adjudicating the visa to conclusion.
    If there is no match against the IDENT lookout database, then the 
visa applicant's fingerprints are stored in the US-VISIT database in 
IDENT, and a fingerprint identification number (FIN) is returned to the 
post. Once the visa has been issued, our nonimmigrant visa system sends 
to the DHS Interagency Border Inspection System (IBIS) the issued visa 
data, including the visa applicant's photo and the fingerprint 
identification number.
    When the visa applicant arrives at a port of entry, the US-VISIT 
system will use the fingerprint identification number to match the visa 
with the file in IDENT, and will compare the visa holder's fingerprints 
with those on file. This one-to-one fingerprint comparison ensures that 
the person presenting the visa at the port of entry is the same person 
to whom the visa was issued.
    As I mentioned before, biometrics (including photos and 
fingerprints) are a useful adjunct to the existing screening 
procedures. Even though fingerprint data has only recently begun to be 
incorporated into the U.S. visa issuing process, through our visa 
datashare program, which has been upgraded for use at primary 
inspection under US-VISIT, we are able to ensure the integrity of valid 
visas that do not have associated fingerprint data captured at visa 
issuance.
    I will quickly outline the process by which visa datashare helps us 
accomplish our goal of securing further the integrity of the U.S. visa. 
Under visa datashare, the biographic data and current biometric data 
(i.e. photo) from the issued nonimmigrant visa are stored on the IBIS 
computer. When the DHS officer scans the visa at primary inspection, 
the photo and biographic data of the applicant are extracted from the 
database and projected on the screen. If the traveler has altered the 
photo on the visa, the DHS officer will be able to make a comparison 
with the original photo. In one such case under US-VISIT, a woman's 
photo appeared on the screen, but the traveler presenting the visa was 
a man.
    If the visa is a complete counterfeit, nothing will appear on the 
DHS officer's screen. In this way, US-VISIT is combating fraud and 
protecting the integrity of the U.S. visa. At the same time, this 
system facilitates travel for the legitimate traveler because the DHS 
officer need not spend time examining the visa to ensure its 
authenticity--the US-VISIT system is ensuring the visa authenticity.
    The process for the biometric immigrant visa that includes a 
fingerprint will be very similar. The visa itself will be printed on a 
tamper-resistant document. There will be reliable datashare with DHS so 
that the DHS inspector at the port of entry can verify the identity of 
the traveler and the authenticity of that individual's status as a new 
immigrant.
    Let me now turn to the issue of the U.S. passport, which I firmly 
believe is the world's most valuable identity and travel document. 
First, I think it is important to note that improving passport security 
is not a one-time effort. Instead, we are involved in a process of 
continuous improvement that affects not just the physical passport 
carried by an American citizen, but also the adjudication process that 
determines whether an applicant is in fact a U.S. citizen.
    Our latest efforts to improve the U.S. passport began in the late 
1990's with the introduction of photodigitization technology to support 
passport printing. Instead of gluing a physical photograph of the 
applicant into a passport and protecting that photo with a laminate, we 
introduced an entirely new technique that takes advantage of the many 
improvements in digital technology during the last decade. 
Photodigitization has been an unqualified success. Any passport with a 
physical photograph is inherently susceptible to photo substitution. We 
have now produced over 25 million passports using photodigitization and 
the number of credible alterations we have encountered still number in 
the single digits. I should add that domestic photodigitization has 
been so successful that we have, in turn, returned the production of 
passports issued abroad to our U.S. domestic production facilities so 
that we can take advantage of the significant security improvements 
embodied in the photodigitization process.
    But, as good as photodigitization is, it is not the end of our 
efforts. We are currently undertaking a total redesign of our passport 
book to introduce the latest generation of security features as well as 
a total update of the physical appearance of the inside of the book. 
More significantly, we are also undertaking a massive effort to 
introduce embedded biometrics into the U.S. passport through the 
insertion of a contact-less chip, which will store biometric and 
biographic data including digital photos. I think it is important to 
note, however, that the legislative requirements in that section do not 
apply to U.S. passports, only to passports issued by our partner 
nations in the Visa Waiver Program.
    Embedding enhanced biometrics into passports so that a clear link 
can be established between the authorized bearer of that passport and 
the user is an important step forward in the international effort to 
strengthen border security. We recognize that convincing other nations 
to change and improve their passport requires U.S. leadership both at 
the International Civil Aviation Organization (ICAO) and practically by 
introducing these changes into the U.S. passport. Thus, the Department 
of State has underway a program that should result in the production of 
our first enhanced biometric passports using the ICAO standard of 
facial recognition techniques in October of this year and we plan to 
complete the transition to this new biometric passport by the end of 
calendar year 2005.
    In addition to our enhanced biometric initiatives, we are moving 
forward aggressively on two other programs to further improve further 
the U.S. passport. The first of those programs is to redesign the 
passport itself. We are well advanced on this project and expect to 
have these new books in large-scale production later this year. We have 
also implemented and expanded our data base which immediately alerts 
ports of entry to any passports reported lost or stolen.
    The second is to strengthen further our passport adjudication 
process. We are negotiating new datasharing agreements with agencies 
such as the Social Security Administration (SSA) so that we can gain 
access to SSA data, which when combined with data from other sources, 
will help to identify possible irregularities in passport applications. 
We are also receiving additional data from the law enforcement 
community to help prevent issuance of passports to persons who may be 
flight risks. We are examining the possible uses of decision based 
software techniques and commercial database searches as part of a 
longer range effort to give passport adjudicators every possible tool 
to ensure the accuracy of their decisions. We will complete the 
scanning of applications with images for all currently valid passports 
by April, making them available at the desktop level worldwide to 
assist in adjudication. Finally, we should soon sign an agreement with 
DHS that will allow border inspectors access to these electronic copies 
of passport applications as a way to help strengthen our processing 
systems for returning American citizens.
    Now that I have addressed the accomplishments that we are making 
towards improving the biometrics currently in our passports, I would 
like to focus on other countries efforts towards the same end. The 
Border Security Act set October 26, 2004 as the date when VWP travelers 
with passports issued on or after that date must also have biometrics 
(digital photos) incorporated in those passports that meet the ICAO 
standard for use in visa-free travel to the United States. Visa Waiver 
Program (VWP) governments have indicated that they will be unable to 
meet the legislatively mandated deadline to issue to their nationals 
only machine-readable passports (MRP) incorporating this enhanced 
biometric identifier that complies with the standards established by 
the ICAO.
    ICAO's decision to make facial recognition technology the standard 
passport biometric was not made until May, 2003, leaving countries only 
17 months to bring a biometric passport that meets that standard from 
design to production, a process that normally takes years.
    Moreover, while the VWP country governments share a commitment to 
make this change, many of them are encountering the same problems being 
experienced by the Department of State in our effort to introduce 
embedded enhanced biometrics into the U.S. passport. These issues 
include needing final decisions through the ICAO process on security 
matters, resolution of interoperability matters, as well as 
comprehensive testing to ensure that the chips work successfully and 
that they will continue to do so through the validity of the passport, 
which is 10 years in most cases.
    We have vigorously encouraged VWP countries to issue biometric 
passports that meet the ICAO standard by the October 26, 2004, 
deadline. The U.S. has played a leadership role in ICAO working groups 
to advocate the successful inclusion of biometrics in travel documents. 
In the G8 we strongly advocated support for ICAO leadership in 
biometrics and participated fully in a special working group on 
biometrics established by the G8 ministers of Home and Justice Affairs. 
We are fully engaged in the group of 5 (US, UK, New Zealand, Australia, 
Canada) in which there are continuing discussions on progress regarding 
each country's efforts to produce the passport.
    On the margins of international conferences, we have had repeated 
meetings with VWP representatives to explain the process; at trade 
conferences, State Department officials have made many public 
appearances to educate VWP government representatives about the 
requirements and deadlines. Many VWP countries have sent 
representatives to Washington to meet with U.S. government 
representatives and had full and open discussions on the issue. In 
December, the Secretary of State sent a diplomatic note to the VWP 
Embassies in Washington that conveyed the criteria for certification of 
a biometric passport program and also noted that there is no waiver 
available for the production deadline. The State Department followed up 
by sending the text of the note to U.S. Embassies in the VWP countries 
and requested the Embassies deliver the information to the host 
government and have them reply by January 10. We are still receiving 
responses from those countries.
    In testament to our efforts, all VWP countries are making varying 
degrees of progress toward complying with the requirement to have a 
program in place to issue biometric passports; however, only one or two 
countries may have production capability in place by October 26, 2004. 
None of the larger countries (Japan, the U.K., France, Germany, 
Ireland, Italy or Spain, for example) will begin issuing passports with 
the ICAO biometric by October 26, 2004. Japan and the United Kingdom 
say they will begin in late 2005; others may not come on-line until a 
year after that.
    Since travelers from VWP countries with non-biometric passports 
issued on or after October 26, 2004 will need visas to travel to the 
U.S., we estimate that the demand for nonimmigrant visas will increase 
significantly over fiscal year 2005 to over five million applications, 
nearly double last year's workload. However, once VWP countries begin 
issuing passports with biometrics, the increased workload will 
disappear. For example, in fiscal year 2003, mission Japan (Tokyo, 
Osaka, Kobe and Naha) processed approximately 111,000 nonimmigrant visa 
cases. The Japanese estimate that between October 26, 2004, and the 
introduction of their biometrics-bearing passport projected for 
November 2005, between 1.2 to 1.5 million Japanese would need visas. In 
fiscal year 2006, the number would likely drop back to current levels.
    The Department of State is working hand in hand with our colleagues 
at the Department of Homeland Security to ensure that we have a system 
that continues to facilitate legitimate international travelers and 
properly identifies those who pose a threat to prevent them from 
entering our country. I think I speak for all of us here today when I 
say that the continued commitment to ensuring the sanctity and security 
of our borders and our nation is the number one priority. I am happy to 
answer any questions you may have. Thank you very much.

    Ms. Granger. And I thank you very much.
    I have a couple of questions. But, first, Undersecretary 
Hutchinson, you gave some excellent examples of people we have 
stopped from coming into this country because of this system.
    But can you tell me specifically if someone gets to the 
airport, what databases exactly does the biographical and 
biometric information run through?
    Mr. Hutchinson. The check goes through the Interagency 
Border Inspection System, the IBIS system, which is a database 
that includes information from 26 other databases, including 
the Department of State's CLASS, the TIPOFF databases.
    And so the various interagency databases that would give 
you the necessary information to trigger a hit would be 
included in the IBIS.
    In addition, we are linked to the TSC, the Terrorist 
Screening Center, for their list that they put together for 
strictly the terrorist watch list.
    Ms. Granger. Very good. And when the traveler is screened 
through US-VISIT, does the IDENT start to take place in the 
primary inspection? Does it go through the primary inspection?
    Mr. Hutchinson. Yes, this is all done in the primary 
inspection.
    Ms. Granger. And you told us, again, how long does that 
take and how much does that add to the time?
    Mr. Hutchinson. Actually we are measuring it very 
carefully, and the time for the system to do the check is on 
average eight seconds. And that would be from when the finger 
scan is taken, running through the system and back, eight 
seconds.
    We have not noticed any appreciable difference in any wait 
times, which we have been monitoring. And one of the reasons 
is, the inspectors obviously are conducting other business as 
these checks are going on and asking other routine questions.
    The eight seconds is actually cutting in half the response 
time under the previous system because of the upgrades in the 
system that we have been able to implement through US-VISIT.
    Ms. Granger. Oh, very good, thank you.
    Secretary Harty, there have been press reports criticizing 
US-VISIT because the 27 visa-waiver countries will not be 
processed through the system. But can you tell me what the 
State Department is doing to enhance the security in those 
passports?
    Ms. Harty. Thank you for the question, ma'am.
    The visa-waiver program administered by DHS with State 
Department concurrence in various aspects of it is a 
congressionally mandated program by which the meets and bounds 
are defined.
    The 27 countries in the program now have been judged to be 
low-risk countries, travelers presenting less of a risk than 
others out there. That implies, to a degree, a face in the 
issuance ability and the integrity of the documents as issued 
by their own respective countries.
    We are always eager to continue to work together. We have 
very, very good relationships with the 27 countries in the 
program. We have been very communicative with them about the 
deadline that Congress has set for next October 26, 2004.
    This does give us pause and I am glad that you raise it. It 
gives us pause because this is a challenge for us that has a 
rather finite sort of beginning and end to it.
    All of the countries in the program, about 80 percent of 
visa-waiver travelers, come from Japan, the United Kingdom, 
Germany, France, Italy and The Netherlands. All of the 
countries in the program are striving to make the deadline.
    As they do make that deadline, the problem in their 
countries of our having to issue visas to their nationals will 
in fact wane.
    If I were to have to begin to issue visas to all visa-
waiver countries right now, it would, we estimate, be upwards 
of 5 million additional visas we would have to adjudicate. That 
would cause me to think about having to hire hundreds of more 
consular officers and even foreign service national employees--
again, for a challenge that is somewhat finite in nature--as 
the visa-waiver countries come into compliance with the October 
26 deadline, at whatever point they are able to do that.
    As a manager, I cannot, in all honesty, justify hiring so 
many more people, perhaps even looking at constructing some 
sort of additional space at consular sections or consulates 
around the world to handle that workload.
    So what we are doing is making sure the countries 
understand the deadline.
    We are making sure that our own procedures will call for us 
to be as agile as possible, being concerned with what another 
member of the committee spoke about earlier, a facilitation of 
travel, also important to us.
    The visa-waiver countries in the last five years have 
accounted for some 68 percent of people who have come into this 
country--exclusive of those who come in from Mexico and Canada. 
This is a huge number of people. We do not want to deter that 
travel.
    What we do at all of our consulates and embassies is make 
sure that the emergencies are taken care of, that students who 
have a need to be here at a certain date will go to the front 
of the line, that medical cases will go to the front of the 
line, that business people who have a precipitous meeting of 
which they were previously unaware go to the front of the line.
    We will handle it just as efficiently as we possibly can. 
We have asked for 161 new officers for this fiscal year, and 
123 for next fiscal year.
    We will do the very best we can to facilitate legitimate 
travel to this country, but always keeping security as job one, 
ma'am.
    Ms. Granger. I am still a little unsure about what specific 
security procedures they will go through, then. I understand 
putting emergencies at the front--.
    Ms. Harty. Thank you for that question, ma'am. I should 
have added that visa-waiver-country travelers at the ports of 
entry go through exactly--their names are checked through 
exactly the same procedures as a namecheck is done overseas, 
simply done by an inspector at a port of entry rather than at 
an embassy overseas.
    Ms. Granger. One last question for you, Secretary Harty: Do 
you know if primary inspectors have access to the State 
Department consular consolidated databases? And how does this 
improve their screening ability?
    Ms. Harty. Oh, yes, they do, and we are very proud of that 
partnership.
    I think that there is nothing better than an inspector at a 
port of entry being able to know that he or she is in fact 
absolutely and without a shadow of a doubt looking at the same 
person who a consular officer has already looked at overseas. 
And they do that by being able to pull up the photo that we 
capture overseas. And that is done very, very quickly.
    So if you were to apply for a visa this morning in Buenos 
Aires, Argentina, and show up at Miami airport this afternoon, 
that inspector would have that.
    It is refreshed every seven or minutes around the world, so 
it is very real time access to data that I think is very useful 
to both sides.
    Ms. Granger. Thank you very much.
    Ms. Harty. Thank you.
    Ms. Granger. And, Secretary Hutchinson, you talked about 
how important US-VISIT is because it checks the people that are 
coming in and all the security. But, then, the other thing is, 
as they leave to make sure that they have left and who is 
leaving was the same person that came in.
    So what mechanisms are used to ensure that those people go 
through the US-VISIT exit process and actually leave the 
country?
    Mr. Hutchinson. First of all, the exit procedure would be 
information-base at our airports, and seaports, in which we 
would get the departure passenger information from the airlines 
or the cruise lines which would indicate that they left.
    So biographically we can determine visa overstays who 
leaves.
    Your question is, how can you confirm their identity? 
That's what we are testing at the Baltimore airport in a kiosk-
type solution, that we would have assistance provided to the 
passenger as they check out.
    The question would be: What mandates them to do that? How 
can you guarantee that they do that?
    We are looking at different solutions. There are 
significant issues there, whether we put a gate solution, 
whether we put it near the TSA screening counter.
    But it is a mandatory requirement for the visitor to check 
out. And if they fail to do that, we can monitor that with the 
passenger information that is provided by the airlines.
    And then there obviously would be a penalty attached to it 
in the sense that they would have a more difficult time re-
entering if they did not exit in a proper fashion.
    Ms. Granger. And what is the date that you are looking at 
to have that completely operational?
    Mr. Hutchinson. Well, as soon as we can. But that is a part 
of the goal that we would have for calendar year 2004, would be 
to formalize the exit system and to have the final exit 
solution determined for our air and sea ports.
    As to the full implementation date, we have not set that 
yet.
    Ms. Granger. One of the concerns that has come up so many 
times is, people who come in the country, whether they are 
students, whatever, a particular period of time, and there was 
no tracking and so they actually didn't either return to school 
or go to school. That will be a part of what you are doing 
also, will issue a report to say who has overstayed their visit 
also, isn't it?
    Mr. Hutchinson. Well, first of all is to have the 
information. And we do. You mention the foreign students, of 
course, would be under our SEVIS, student exchange visitor 
information system, which is tied into US-VISIT, in which we 
would have the information when they left the university and 
also left the country.
    We are setting up and have set up an office of compliance 
in ICE, Immigration and Customs Enforcement, which will be 
responsible for handling this information for visa overstays. 
It will be a vast amount of information that is created from 
US-VISIT, the SEVIS system. We are building that capacity, but 
that will be the enforcement responsibility of ICE.
    Ms. Granger. Thank you very much.
    Ms. Sanchez may inquire now.
    Ms. Loretta Sanchez of California. Thank you, Madam Chair.
    And once again, thank both of you for being here.
    Madam Chair, before I ask my questions, I would like to 
submit for the record some testimony from Ed Petrarch, who is a 
senior Customs and Border Protection Officer at LAX, which 
respect to what is going on with U.S. visa.
    In his testimony, Assistant Secretary, that I just 
submitted, one of the things that this senior Customs and 
Protection officer says is that they are pulling off of cargo 
screening to process low-risk U.S. citizens and green-card 
holders so that there is an acceptable flow of passengers in 
the international terminals under this US-VISIT.
    In other words, they are getting pulled off cargo 
inspection to process people.
    So my question is: What have you asked for with respect to 
personnel needs for this coming year? How many more people do 
you need if you are pulling people off of one situation to try 
to work on another situation?
    Mr. Hutchinson. Thank you, and that should not be the case.
    The same individuals prior to January 1 of this year that 
did the inspection at our ports of entry in terms of processing 
people are still doing it. There has not been a shift in 
resources.
    There may be emergency circumstances. But I do not believe 
there has been any significant shift of resources to implement 
US-VISIT. It is the same people that were there before to do 
it.
    In terms of new resources, that will be a part of the 
budget submission in our testimony this year. We have enhanced, 
thanks to the help of Congress, our inspection resources. And 
we, with monitoring the wait times and not adding additional 
resources for the US-VISIT implementation, I think we have been 
successful with our existing resources.
    Ms. Loretta Sanchez of California.That is nice. Again, the 
testimony says that this is just not the case at LAX. So I 
would ask that you might follow upon that and that you get back 
to us about just what resources are required.
    [Copy maintained in the Committee files.]
    Now, there is also an internal memo that was done by 
Assistant Commission Ahearn that outlined some mitigation 
strategies when US-VISIT wait times exceed one hour.
    The strategy simply is a series of fall-backs where you 
collect biometric fingerprints from fewer and fewer people.
    First, if it is over an hour, don't do those who are under 
17.
    Then if the wait is still too long, don't do those that 
have biographical and photo data from the State Department.
    Next, if there is a family traveling together, only do the 
head of household.
    And finally, move to sampling from certain types of visa 
holders.
    Why is your mitigation strategy to just keep letting more 
people go through without doing what you just told us is the 
intent of this program rather than to assess high-peak times, 
or suggestive high-peak times, and figure out how much 
personnel you really need to do that?
    Can you explain why this memo and?
    Mr. Hutchinson. Thank you. This is a new system. And so as 
it was rolled out on January 5th, even though we had great 
faith in it, we didn't know exactly how it would progress, 
whether there would be difficulties.
    We wanted to have some flexibility in the early stages of 
this implementation that we didn't clog up our airports.
    Well, it wasn't an hour tied to mitigation strategy; it was 
if the wait times exceeded 10 percent over the normal wait 
times, then they could implement a mitigation strategy.
    But the good news is that there has been no instance in 
which that mitigation strategy has had to be implemented, 
because the wait times have not increased to that level. And we 
have no reason to expect that it will.
    So it was a precautionary step at the initial phases of the 
implementation of US-VISIT.
    Ms. Loretta Sanchez of California. So you are saying that 
this memo in effect has no relationship to what is really going 
on.
    Mr. Hutchinson. Well, it had a very important foundation of 
starting this rollout on the first day. But it was a backup 
plan in the event that there was delays caused, or unforeseen 
circumstances, as we processed US-VISIT visitors.
    That has not been the case. I do not anticipate it being 
the case in the future.
    Ms. Loretta Sanchez of California. But if you had longer 
waits, what was stated in this memo is the way that things 
would be implemented currently.
    Mr. Hutchinson. Correct. That was a memo that we did send 
out. What you recited was not precisely what the plan was. But 
there was a mitigation strategy.
    You know, we have electrical outages from time to time. 
Well, there is a mitigation strategy. When the system goes 
down, you do things in the old way.
    And in the same the US-VISIT, if we had to go to orange, we 
might increase and broaden the requirements in a time of 
heightened alert.
    That is one of the benefits of this system is, there is 
some flexibility in it.
    And if from whether a power outage or other problems, it 
can be adjusted in other ways.
    Ms. Loretta Sanchez of California. I just find that not 
collecting the information when really that is the main reason 
for having this program is certainly a very strange way to 
mitigate, not having enough resources.
    I have some other questions, Madam Chair, but I see that my 
time is over. So I don't know if we are coming back for a 
second round, or I will submit--.
    Ms. Granger. Then we can.
    Ms. Loretta Sanchez of California. --to be answered by both 
the undersecretary and the assistant secretary.
    Thank you both for being here.
    Ms. Granger. Thank you very much.
    The chair now recognizes Chairman Cox for five minutes.
    Mr. Cox. Thank you, Madam Vice Chairman.
    Again, welcome Undersecretary Hutchinson, Ambassador Harty.
    There has been a bit of news recently from the 9/11 
commission. The 9/11 commission reported that more than one, at 
least a few, of the 9/11 terrorists, possibly as many as eight, 
forged their passports.
    We also know that when they filled out their visa 
applications, they either lied or in other cases just did it 
differently than they were supposed to.
    If US-VISIT is in place in the future and that pattern were 
to repeat itself, what difference would it make?
    And, Undersecretary Hutchinson, if could begin with you.
    Mr. Hutchinson. It would make a significant difference. 
That is one of the benefits is that there is less reliance on 
fraudulent documents.
    Usually a false passport has a false identity.
    First--and I am sure Maura Harty would want to comment on 
this--that would probably be prevented at the consular post 
when the biometric is taken there. We will not have an 
assurance that the person passing through the port of 
inspection is the same person that they actually gave the visa 
to.
    And then secondly, we will be relying upon their biometric 
to confirm that identity rather than simply the passport.
    Mr. Cox. Ambassador Harty, do you want to address that as 
well?
    Ms. Harty. Certainly, thank you, sir.
    I agree completely with what Undersecretary Hutchinson 
said, that it would be our very strong belief, and our 
experience even, in the information base of this new program 
that the inspector at a port of entry is going to know, flat 
out know, if the person in front of them is the person who was 
seen at the embassy. They have a photo right there in front of 
them.
    And they also have what we have done. Using our reader, we 
have taken a biometric, we have taken their fingerprint at our 
embassy or consulate. We have run that name against the IDENT 
system so we will know if there is any previous information on 
a person already in the system.
    Should we then move to the next step of issuing a visa, 
then that same process will in fact occur at the port of entry.
    So it is really a second check on the identity of a person 
and something that knits up and marries up the bearer of the 
passport with the face, with the person we have seen at a port 
of entry.
    So that in fact would be a little bit different than the 
scenario in the past.
    Mr. Cox. Now, this recent news from the 9/11 commission 
also informs us that at least one of the 9/11 planners applied 
for a visa using an alias in Saudi Arabia. Would this program 
have stood in the way of that?
    Mr. Hutchinson. Two things would happen there.
    You mentioned Saudi Arabia, that the consular offices there 
would receive the application for a visa. We also have a visa 
security officer of the Department of Homeland Security in 
Saudi Arabia that would add a security perspective on that visa 
check.
    So that is something that is new that we did not have two 
years ago.
    And then that name, if it is an alias, would be checked 
against all of the watch lists.
    I believe that we have an enhanced capability to determine 
that that is an alias to the checks that we have if it is not a 
legitimate name. That is the purpose of the background check.
    Mr. Cox. Ambassador Harty?
    Ms. Harty. Sir, if someone were to come into a consular or 
an embassy overseas, and have a completely clean background, 
such that they had never been in the United States before, or 
had never come to the attention of any of the various entities 
who contribute to the watch list that we have as a nation, it 
is in fact possible that we would not know it were an alias, if 
they had never come to our attention before.
    But we do have another thing that we are working now.
    One is, if they have ever come to our attention before in 
that we have previously seen them and issued or refused a visa, 
now that US-VISIT is up and running, now that we are enrolling 
people overseas, we have their fingerprint, so that if we have 
ever seen them before, despite the fact that they have used an 
alias, we have their print and we will know that.
    While that is one program as we have described up and 
running now and getting better every day, we do have another 
thing that we are looking at, and that is facial recognition. 
It is a technology that is maturing.
    However, we have a program at 13 different posts overseas 
as well as what we are exercising in conjunction with the 
diversity visa lottery to begin to explore yet another 
technology beyond the fingerprint that we already have.
    So we have technology we are using as well as technology 
that we are experimenting with. We are always trying to push 
the envelope, sir.
    Mr. Cox. Just lastly on this watch-list question, I want to 
ask you about the testimony that the 9/11 commission received 
yesterday, that apparently having your name on a list of 
suspected terrorists does not guarantee you a place on the 
FAA's no-fly list.
    And as I understood the testimony, that may still be the 
case. Is this correct? And what impact would a suspected 
terrorist presence, or non-presence, on FAA's no-fly list have 
in the contest of the US-VISIT program?
    Mr. Hutchinson. Well, the no-fly list, of course, would 
certainly--one, they would not be flying on the airplane to 
enter our airports, if they were on the no-fly list. They 
should not be on there to begin with.
    And so as part of our security measures, that should be 
caught before they would get on that aircraft. And then in the 
event that the system failed in a foreign country, we would 
know about that before they landed by checking the biographical 
data.
    Your question is about whether everybody on other watch 
lists, FBI's and so on, is on the TSA no-fly list. And the 
answer there is that any agency can submit a name for the no-
fly list--CIA, FBI--but it has to be more than just a name.
    We obviously want to have the biographical data, either an 
address, a date of birth, because if you submit just a name, it 
might hit against 200 different people that would be flying, 
particularly if you used a very common name, ``John Smith in 
the United States,'' or a very common name in the Arab world, 
then it is not really accomplishing anything by putting that on 
the no-fly list.
    And so that is part of the distinction and discussion. We 
are obviously wanting any information that would help us 
identify those people that would be at risk. But we also want 
as much information from the agencies as we can get.
    Mr. Cox. Thank you, Madam Vice Chairman.
    And I thank our witnesses once again.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Pascrell for five 
minutes.
    Mr. Pascrell. Thank you.
    Just some quick--.
    Ms. Granger. Can I stop you? I am sorry, I didn't see Mr. 
Turner come in. I apologize.
    I recognize Mr. Turner now for five minutes.
    Mr. Turner. Thank you, Madam Vice Chairman.
    Mr. Hutchinson, I understand Ms. Sanchez was asking you 
about the problem of wait time, particularly at the airports. 
And I have taken a look at this memo that was issued by the 
department to field operations on January 2nd. And that was the 
memo that lowered the wait time--or stated that if the wait 
times exceeded one hour, then you could waive the US-VISIT 
process, and prior to that, your regulation was that if the 
wait time exceeded two hours.
    Now, it is strange to me that during a period of orange 
alert, you changed the rules and you told field operations that 
if there is a wait time that exceeds an hour, you can just 
waive all these requirements, when previously at least you had 
a two-hour rule.
    So it seems like you sent a terrible signal to field 
operations with regard to the meaning of US-VISIT.
    Because--.
    Ms. Granger. Representative Turner?
    Mr. Turner. If I read this--.
    Ms. Granger. Would the gentleman yield, please--.
    Can the witness have a copy, please--.
    Mr. Turner. Sure.
    Ms. Granger. --before you question him about that. He does 
not have a copy of that memo.
    Mr. Turner. Asa, would you like a copy of this?
    Mr. Hutchinson. I would be happy to look at it, but go 
ahead and ask me questions.
    Mr. Turner. There was an article that I read on a Web site, 
World Daily Net, where several of the frontline screeners were 
quite upset with this change, because they felt very strongly--
and I could quote a couple of them to you.
    But the bottom line is, we know that the intent of US-
VISIT, according to Secretary Ridge, is to add about 15 seconds 
to the wait time of an average passenger. That is what we are 
told anyway.
    And so to me it seems like at the very point in time when 
you are implementing the system to say that if the lines get so 
long and the backup such that we are going to have an hour 
wait, then you can just waive the program and bring people in.
    Not only is it a significant security risk?because as you 
know, you are building a system that obviously will do what you 
said in your opening statement. It will catch a lot more 
criminals and a lot more immigrations violations than we have 
ever caught before just because we are creating the system.
    But that is not the standard.
    You know, this system, unfortunately, has got to be 
airtight. And if we already are loosening the rules, then I 
think we are moving in the wrong direction. And more important, 
I think it sends a terrible signal to those frontline workers 
who are out there dedicated to making this work and knowing the 
importance of what they are doing, and then to say, well, if 
the wait lines are too long, just waive all this stuff and let 
everybody on in.
    So I would urge you to take a look at that, to make 
hopefully a reassessment of that, and certainly make it clear 
to those who are out there on the frontlines, working for your 
agency, that we want this system to work and be implemented, 
and that this is not a system that just because the lines are 
long we will waive it.
    Now, I recognize that we are going to have a lot of 
pressure?and I am sure you felt it--from those who are 
concerned about backlogs and the effect on travel.
    But the way we have to deal with that is reallocation of 
resources to be sure that we move people on through in a timely 
way.
    And to send a message this early that we are going to 
loosen the rules, I think is a bad signal for us.
    The other area that I have concern about is one I have 
expressed on numerous occasions, is about your linkage to the 
Terrorist Screening Center.
    We all know that the Terrorist Screening Center is not yet 
collecting on a real-time basis the information from other 
databases. In fact, in many cases the information on many 
government watch-list databases haven't yet been incorporated 
into the unified terrorist watch list.
    But in terms of the way it is working for you now, I want 
you to describe for me, if you will, whether the data used by 
US-VISIT is adequately comprehensive and up to date? And 
describe the relationship between US-VISIT and the Terrorist 
Screening Center.
    My impression is, that is not a real-time linkage. And even 
when you submit information to the Terrorist Screening Center, 
they have to manually check all these other databases.
    And even on the important FBI list that they maintain, that 
you utilize, through the IDENT program, the FBI doesn't update 
that list but once every two weeks.
    So what I am interested in is, what is the state of 
achieving what I hope some day we will be able to say is a 
real-time system of screening for terrorists that will be 
available to your frontline inspectors so that when somebody 
walks through and enters our country and walks through the 
inspection station, they can get the information back in real 
time to know whether that person is a dangerous person.
    Mr. Hutchinson. Well, the check is first against the 
Interagency Border Inspections System, our IBIS database, that 
has 26 different databases, including the State Department's, 
including the Department of Justice, other databases that make 
that up, including Treasury, with our tech system, including 
the Justice Department.
    And then it is also checked against the terrorist list from 
the Terrorist Screening Center.
    Now is it real time?
    If a name is added by the Terrorist Screening Center to the 
watch list, it is in real time communicated and refreshed with 
our databases so it can be an immediate hit if that passenger 
would try to come through.
    Now can the system be improved? Absolutely. This is a new 
system. We are building the capacity. The TSC is strengthening 
its ability as well. This is being refined every day.
    But I believe that with the technology that we have, being 
ahead of the schedule, the biometrics, that we have enhanced 
the ability of increasing our security at our ports of entry 
with US-VISIT even over and above what the congressional 
mandate was.
    If I might go back to your first question about the memo 
that was sent out, it was not a change--it had nothing to do 
with whether it was two hours at our land borders during 
orange, because there was different wait times if it was at a 
heightened alert level.
    As we implemented US-VISIT, we specifically looked at what 
happens if the system does not work right or it takes longer. 
And on the first initial phases of it, this memo was sent out. 
For example, we are not including in the regulation people who 
are older than 79. Well, I think that is a reasonable exclusion 
from those that we would have finger scans on. But if we saw 
excessive problems, we would reduce that to age 69.
    Now, I think that is a reasonable step in the initial 
phases as we implement US-VISIT. It has not been used. But if 
it was necessary, it would not be by a line inspector, it would 
be by a supervisor that would have to make that decision.
    And we have not had to use that. I do not expect we will 
have to use that. But I think it was a prudent step to take as 
we rolled this out in 150 airports on the first day.
    Mr. Turner. Well, I just want you know, I have talked--.
    Ms. Granger. Mr. Turner, your time has expired. We will 
have a second round.
    The chair now recognizes Representative Shadegg for five 
minutes.
    Mr. Shadegg. Thank you, Madam Chairman.
    I want to follow up on a question both by Mr. Cox and by 
Mr. Turner and have you clarify for me.
    I recognize that biometrics do a great job of ensuring that 
the person who showed up to obtain the visa at the consulate 
outside this country is the same person who then shows up at 
the port of entry coming into the country.
    But Mr. Cox asked I think what is the critical question and 
that is, what if that person, intent on deceit from the get-go, 
and they show up with the intent of using a false name to apply 
in the first place.
    Mr. Under Secretary, you indicated that they check at I 
think you call it--is that interagency border data system? Is 
that right? And is that checked when they show up at the port 
of entry? Or is that checked when they show and apply for the 
visa at the consulate outside the United States, I guess is my 
first question.
    And second question would be: Is that the only database 
that is checked, or are there other databases that are checked 
as well at that initial stage to try to find out if the person 
presenting himself or herself is who they claim to be?
    Ms. Harty. Thank you for the question, sir.
    With reference to what happens at a consular section 
overseas the consular officer runs what we call a CLASS 
namecheck, that is what we call our system. There are other 
systems of the government that feed into that.
    CLASS is built, and in fact the U.S. government's 
counterterrorism watch list at this point, is built on a system 
started by the State Department in 1987 called TIPOFF.
    Recently, over the last several months, TIPOFF's database 
has migrated over to TTIC and TSC.
    TIPOFF had 120,00 names in it. It is being augmented every 
day per Homeland Security Presidential Directive No. 6, so that 
all agencies are beginning to feed as TIPOFF did. But TIPOFF 
formed the very spine of the new single database that we are 
all working towards.
    The consular officers cannot, as they adjudicate a visa, 
hit the print key on a visa until they have run that namecheck, 
first and foremost.
    Now, with US-VISIT, what we have done in the 55 posts where 
we are already up and running is, we are adding to that, the 
biometric collection. So, in addition to running our CLASS 
namecheck, based on the TIPOFF watch list, we also now run the 
biometric namecheck in four posts, at this point: Riyadh, 
Jeddah, Sanaa and San Salvador.
    We are waiting until we get the namecheck back from the 
IDENT system, DHS's IDENT system, before we actually go ahead 
and issue the visa.
    We will, of course--it is brand new; this is a pilot--but 
we will be bringing each of those online in the days, weeks and 
months ahead.
    The time that it takes from the time that we ask IDENT, 
``What about this fingerprint? What do you know?'' and by the 
time we get an answer back, it has been about seven to eight 
minutes; again, not adding too much.
    Mr. Shadegg. I think you have just told me what you told 
Mr. Cox, which is that if they haven't encountered the system 
already and if they are not in our database as having an issue 
as to whoever they are, that person, they can get by the 
system.
    And I guess my question would be: How do we go beyond our 
own database to look at the individual? Is there a way that we 
coordinate with host countries to find out some verification 
that this person is who they say they are?
    Ms. Harty. Thank you, sir.
    One of the things that changed dramatically in the post-
September 11 world is our strong, strong emphasis on 
interviewing techniques and on using the visa interview as a 
genuine tool to spot people who might or might not be exactly 
what they say they are.
    So we have at the consular officer training at the Foreign 
Service Institute added additional courses on detecting 
deception, added additional courses taught by other agencies of 
the government who give us up-to-date information on trends out 
in the field of a counterterrorist nature.
    We have taken a detecting deception course and added it to 
the basic officer training course. We have also taken it on the 
road so that mid-grade and more senior officers can also get 
this training.
    In addition to that, several years ago we formed what is 
called a VISAS VIPER Committee meeting at post. That is where, 
on at least a monthly basis, all officers at an embassy in law 
enforcement--I am sorry.
    Mr. Shadegg. I am running out of time and I wanted to get 
in one more question, but go ahead.
    Mr. Hutchinson. There is layered protections from the 
interviews and to the checks that are done. But certainly, 
theoretically someone could come in with a clean record, with 
an alias name, and if they are not in the system before, if we 
don't have their fingerprints, the first time through it would 
not be a catch.
    Mr. Shadegg. I appreciate your candor on that. And I think 
you will never build a system where that cannot happen. I just 
wanted to know if they were working at it.
    Let me ask the last question: When I go home to Arizona and 
I describe all the work of your department and the efforts that 
are being made to deal with people that present themselves at a 
border checkpoint, or a port of entry, to tighten down and US-
VISIT and all these other efforts, they kind of tilt their 
heads and look at me as if to say, ``Congressman, you are 
crazy. Have you ever looked at the border?''
    What difference does it make if we do all these things at 
our ports of entry when, on the southern border of my state, 
there literally is not even a three-strand barbed wire fence 
for the majority of the border?
    And I guess I would be interested in how you would respond 
to that question from a constituent.
    Mr. Hutchinson. They are related. And obviously you have 
got to have two tracks going in the same direction. One is 
tightening it up at the ports of entry, which we are doing. 
That, in essence, could force illegal entrants to come across 
the land borders. And so, you have got to tighten that up as 
well. We are addressing that through technology in the same 
way, but they are related, and we have to do both.
    Mr. Shadegg. Thank you.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Pascrell for five 
minute.
    Mr. Pascrell. I have some quick questions, and then I have 
some ones that perhaps you can elaborate on, Mr. Secretary.
    Have we tested and come to the conclusion as the reason why 
we are concentrating on fingerprints in this biometric quest, 
here, has it proven to be more conclusive than facial 
identification, hand geometry, handwriting, retinal tests and 
voice? Is that the conclusion you came to?
    Mr. Hutchinson. The conclusion is that it is more widely 
accepted in the international community, and we have obviously 
the added feature with finger scans that you have databases of 
criminals and terrorists that are taken in that fashion. You 
don't have the same databases of retina scans, for example.
    Mr. Pascrell. Is it more accepted than it is accurate?
    Mr. Hutchinson. Well, I think it is both accepted and 
accurate.
    Mr. Pascrell. Okay, my next question is, if I may: 
Approximately how many photographs do we have of suspected 
terrorists that we can compare to the digital facial 
photographs we now take of foreign visitors, approximately?
    Mr. Hutchinson. I don't have that exact number for you.
    Mr. Pascrell. Could you get that to us, please?
    Mr. Hutchinson. I would be happy to.
    Mr. Pascrell. Is there a database of fingerprints that we 
have of suspected terror?
    Mr. Hutchinson. Yes.
    Mr. Pascrell. We do have that database?
    Mr. Hutchinson. Yes.
    Mr. Pascrell. You have that database?
    Mr. Hutchinson. Well, it is accessed through?
    Mr. Pascrell. No, I don't mean you personally, but your 
department?
    Mr. Hutchinson. Yes, absolutely.
    Mr. Pascrell. Okay, my next question is this: You referred 
to the history of security in terms of trying to see who is 
coming in and out of this country.
    I want to go back to 1998, in the Senate Judiciary 
Committee. In fact, a few people mention this in their 
testimony. And in that report to the Congress of the United 
States on border improvement and immigration, it is 
interesting. You go back to see, you know, where we have come 
in four years due to the tragedy of 2001.
    ``The committee is keenly aware that implementing an 
automated entry-exit control system has absolutely nothing to 
do with countering drug trafficking, halting the entry of 
terrorists into the United State or with any other illegal 
activity near the borders. An automated entry-exit control 
system will at best provide information only on those who have 
overstayed their visas.
    ``Even if a vast database of millions of visa overstayers 
could be developed, this database will in no way provide 
information as to which individuals might be engaging in other 
unlawful activity. It will accordingly provide no assistance in 
identifying terrorists, drug traffickers or other criminals.''
    I would like your brief comment on that, if I may.
    Mr. Hutchinson. Well, again, you point out that one of the 
original focuses was that you would be able to identify visa 
overstays to add integrity to our immigration system. As that 
was in 1998, that changed somewhat after the attack on America, 
and there was a renewed focus by Congress that not only is it 
important for the integrity, but also for security purposes.
    And so, there was additional features and requirements that 
were made and probably a little bit different perspective was 
added after that.
    Mr. Pascrell. And my final question is this?and I thank you 
for your candidness. We can go back over this again at another 
time. I think it is important enough.
    Once the visa holder is enrolled in US-VISIT, his or her 
arrival information will be stored in the automated fingerprint 
identification system, better known as IDENT. It is a biometric 
database. That is correct, isn't it?
    Mr. Hutchinson. That is correct. That is correct.
    Mr. Pascrell. Am I right in thinking that the information 
for applicants for admission under the US-VISIT with no 
criminal record are contained in the same database as 
individuals for whom DHS is on the lookout for? Is that 
accurate?
    Mr. Hutchinson. Well, they are contained in the same IDENT 
system, but there would be an individual file, really, for each 
individual traveler, and it is separated from the criminal 
databases that would be associated with that.
    Mr. Pascrell. Mr. Secretary, in conclusion, let me say 
this: I think that is unacceptable. I think to include within 
the same database of criminals or those that have been 
identified with criminal activity. All immigrants is an insult 
to every immigrant that comes into this country under this 
particular program.
    I would suggest through the chair that you examine that 
situation, separate these folks out, because they are not 
criminals. You know that just as well as I do.
    Ms. Granger. Thank you.
    Representative Dicks is now called on for eight minutes.
    Mr. Hutchinson. Madam Chairman, could I respond to this--.
    Ms. Granger. Yes, you may.
    Mr. Hutchinson. --very appropriate question by Mr. 
Pascrell?
    And I thank you for that comment. And we certainly would 
not want to do anything that would denigrate or be offensive to 
our immigrant population.
    I would just emphasize that, for example, IDENT has the FBI 
database as part of that. And there are separate databases 
within that, so it would be a separate system for those people 
that would be coming in, myself--or not myself--but any foreign 
visitor that would be traveling. That is held in there for 
facilitating their travel and the second time around.
    So I appreciate your point, and we certainly want to make 
that distinction.
    Ms. Granger. Thank you.
    Representative Dicks?
    Mr. Dicks. Thank you.
    The first increment of the US-VISIT program relies on two 
fingerprints, isn't that correct?
    Mr. Hutchinson. Yes.
    Mr. Dicks. One from each index finger for the purpose of 
checking that individual's identity against the various 
databases.
    As we have discussed before, two prints are not always 
reliable for finding a person's records in some of our 
databases. For example, the FBI's IAFIS system uses all ten 
prints and will often not return a match when only two prints 
are used.
    GAO and some of the biometric industry have said that more 
prints may be necessary for US-VISIT to work as well as it 
needs to.
    Now, you and I had this discussion, but to hear the 
discussion today, 600,000 people have come in and, through this 
system, used their two index fingers.
    Now, if we had done this right and had them do either eight 
or ten, we would have a much more reliable system. We are going 
to have to go to that at some point in order to make this thing 
work properly, as you and I have discussed--and I know there is 
very strong feeling, both in the House and Senate, that two 
fingers are inadequate.
    I would just like to have your comment here on the record 
for why we did it that way. I know we were trying to rush and 
do it, but now it looks to me like we are going to have to go 
back and redo this. And we missed the opportunity to get these 
600,000 people the first time.
    Mr. Hutchinson. Thank you.
    And the two fingerprints are sufficient for identification 
purposes, that you confirm their identity, which is the first 
responsibility. If there is an identity question, they are 
referred to secondary, where the multiple prints can be taken 
to have a more accurate check against the FBI databases, to 
make sure there is not any confusion.
    And so it is a limited purpose of identity with the two 
fingerprints.
    And the State Department is a key in this, that they have 
invested in the fingerprint scans that they are deploying as to 
whether down the road there has to be additional fingerprints 
that are added. But that is a question of our systems 
development, a question of resources with the State Department.
    But this is an immediate added security value for a very 
low-cost amount. I think it was like $1 million for these and 
all of our ports of entry. We were immediately able to get the 
security benefit, and then we will see where the system has to 
gravitate down the road.
    Mr. Dicks. Ambassador Harty, what do you think? I mean, 
would we be better off to do all ten or eight fingerprints at 
first and get this thing right?
    Ms. Harty. Sir, thank you for the question.
    I would like to agree with Under Secretary Hutchinson that 
in the first instance, we were in fact very much consumed with 
getting the identity right, identifying a traveler, getting to 
the issue of document fraud and making sure that the people who 
showed up at ports of entry were the people we had seen 
overseas.
    I am not an expert on this subject, but I know that there 
have been a number of studies done, and not all conclusive, 
that you can find a number of different entities out there, 
some who say eight or ten are better. Let me just say maybe 
that is not the case. I think what we have is a very strong 
desire at the beginning of the program to meet the 
congressional deadlines to get the identification in place.
    Mr. Dicks. I think the deadlines are somewhat more created 
by the administration. The secretary said, ``We will do it by a 
certain date.''
    I think we ought to make sure we are doing it right by a 
specific date. Because if we go to a two-finger system, and 
then we have to go back to a ten-finger system because we 
didn't get it right, that is a waste of a lot of money and 
effort, it seems to me. My view is we should have done it the 
more comprehensive way at first if there was any question about 
it.
    And the issue is that you have got the IAFIS database at 
the FBI that is a ten-finger system. So, you are not going to 
have this relationship, according to the experts that I talked 
to.
    I just wanted to bring that up, and hope you will take 
another look at it.
    Ms. Harty. Certainly, sir.
    Mr. Dicks. We have talked about the southern border. The 
northern border is of concern to me, being from Washington 
State.
    I noticed in the statistics that the CBP has assigned 9,539 
border agents to the southern border compared with 990 on the 
4,121-mile northern border. How do we explain the difference, 
here?
    Mr. Hutchinson. Well, we have added 1,000 agents to the 
northern border, which is 1,000 increase. And obviously the 
northern border has not been a focus prior to the security 
lessons that we learned from 9/11.
    So we are continuing to enhance that, but it is a challenge 
on both the northern and the southern border.
    Mr. Dicks. You know, I usually don't quote from The 
Washington Times, but The Washington Times, in December, did a 
very comprehensive article about the problems and challenges we 
face in Canada. One thing it said was that since 1995, at least 
15 persons identified to federal authorities as known 
terrorists have been caught crossing the border from Canada. 
Two in Blaine, in Washington State.
    And also that there are Al Qaida sleeper cells, even today, 
in Canada.
    Are we talking to the Canadians about trying to get them to 
strengthen their system? We may make this enormous effort here 
in the United States, but if these people can enter into 
Canada, be in sleeper cells, come across the border, that this 
may become--we have already seen with Ressam that this has 
happened once before.
    Thank goodness for a great agent who found this person up 
in Port Angeles in my district, or we may have had a major 
incident at the Los Angeles airport or in Seattle.
    What are we doing with the Canadians to try to get them to 
cooperate with us on this?
    Mr. Hutchinson. You are absolutely correct that there are 
vulnerabilities in the northern border that have to be 
addressed.
    We are working with the Canadian counterparts. We have our 
integrated border enforcement teams, which the Royal Canadian 
Mounted Police and our Border Patrol are working together. We 
have moved air assets to the northern border, including the 
building of new facilities to accommodate those air assets. We 
have put new technology there, surveillance equipment, sensors.
    It is a vast, open border. There is a tradition of openness 
there that we have had to take a much closer look at and 
enhance the security on since 9/11.
    We will continue to do that, but we are working closely 
with the Canadian government.
    Mr. Dicks. Are they doing a better job of trying to screen 
people--do what we are trying to do in terms of keeping these 
terrorists out of their country?
    Mr. Hutchinson. They are. We are wanting them to do some 
additional things, working with them. Obviously if you get to 
North America, whether it is Canada or the United States, and 
you have an open border, you can traverse back and forth.
    And so, we need to on the front end have a common policy on 
who gets into North America. That would enhance our security. 
And we are working with them and with the State Department to 
accomplish.
    Mr. Dicks. I urge you to keep that up.
    Now, let me ask you one more thing: When they go across the 
border, you have trucks, you have cars. I know if you slowed it 
down, you would have a backup for miles and miles and miles.
    What kind of equipment are we using to scan these trucks 
and cars? Do you know what we are using?
    Mr. Hutchinson. Each inspector has their personal radiation 
equipment. We also have non-intrusive inspection equipment, and 
then we have radiation portals for the larger vehicles that go 
through.
    So a variety of different technologies that will accomplish 
the inspection, both radiation detection as well as X-ray 
examination to detect any anomalies in the shipment.
    Mr. Dicks. Thank you, Madam Chairman.
    Ms. Granger. Thank you very much.
    I have no additional questions.
    I will call on Chairman Cox.
    Do you have additional questions?
    Mr. Cox. Madam Vice Chairman, I have a great many further 
questions for our panel. I know we have another panel. And I 
would yield to the vice chairwoman to excuse our witnesses, 
provided that we might have the opportunity to follow up with 
written questions.
    Ms. Granger. Thank you.
    Representative Turner, do you have additional questions?
    Five minutes.
    Mr. Turner. I just have one follow up.
    Mr. Secretary, you made the comment about the inspections 
going on at our land borders. You mentioned that we have 
radiation detection portals. You mentioned the hand-held 
devices.
    Where do we have radiation portals that you were referring 
to on our land borders?
    Mr. Hutchinson. Well, if you are looking at the cargo 
shipments, the trucks, we have portals in a whole host of 
places on the northern and the southern border. I would be 
happy to provide you with a precise list as to where they are.
    Mr. Turner. And what is the criteria for utilizing them?
    Mr. Hutchinson. Well, if, for example, a personal radiation 
detector triggered, indicating there was some radiation being 
admitted, then if it was a truck, it would be brought through 
for closer examination in the larger portal.
    In other places, where we have perhaps more equipment in 
place, they are automatically run through the portal.
    I was at a land point of entry on the northern border in 
which every truck vehicle was being passed through the 
radiation portal.
    Mr. Turner. Well, in regard to radiation portals, I know 
you have deployed some of those at seaports. And we don't yet 
have enough at our seaports to really screen all the cargo 
containers. And I was wondering if you have a plan and a cost 
estimate of what it is going to take to have radiation portals 
at all of our border crossings, including the seaports and the 
land crossings?
    Is this a goal of the department? Could you provide us with 
a number as to what it would cost to have that kind of 
capability?
    Mr. Hutchinson. It is a goal. And I would be happy to 
provide you with where they are deployed at the present time 
and the schedule this year for deploying additional portals at 
our land-and our sea-ports.
    Mr. Turner. Well, do you consider it an appropriate, 
pressing, and urgent need to have the capability at both 
seaports and land crossings, to be able to have sufficient 
radiation detection portals so that all cargo containers coming 
across the land borders and into our seaports could be screened 
for radiation?
    Mr. Hutchinson. I would underscore the word ``could be 
screened.'' It is important. And we consider it a high priority 
to make sure this equipment is deployed. Obviously, we are not 
deploying it in sufficient quantity, nor do I think we should, 
that every container coming through the seaport would go 
through that portal.
    Those that we identify for further inspection or at risk 
should go through there, and do go through there. And 
sufficient portals should be deployed for that purpose.
    Mr. Turner. How much money is requested in your most recent 
budget request for radiation portals?
    Mr. Hutchinson. The budget will be announced on I believe 
next Monday. And we will be able to provide that figure for 
2005.
    Mr. Turner. You won't give me a little advance briefing 
here, then?
    Mr. Hutchinson. No, but I will go back and look it up.
    Mr. Turner. Well, let me say this: I heard you state that 
you weren't--and I understand this is the department's 
position, that we do not need to screen all cargo containers 
for radiation. And I really think you ought to rethink that 
position.
    I have been told--and I would invite you to check it out--
that we could have sufficient radiation detection portals at 
all seaports, sufficient to allow all cargo containers coming 
in on ships to be run through them and checked for radiation 
for $75 million. Not a big price tag, if accurate.
    And if you go down to the port of Norfolk, you can see 
where they on their own, with their own money, have purchased 
sufficient radiation portals to check for radiation. And as you 
know, these hand-held devices that these folks have, they are 
not really so much for screening as for really measuring the 
dosage that they may be exposed to.
    So I would urge you to reconsider that and to look at your 
budget request and see if perhaps we couldn't get that taken 
care of.
    Are there deployed at any of our ports, particularly our 
land crossings--.
    Ms. Granger. Mr. Turner, you have gone over your five 
minutes.
    Mr. Turner. All right, I am sorry.
    I will ask you again.
    Mr. Hutchinson. Thank you for those comments. And we will 
continue to evaluate. As the technology improves, it might be 
more cost-effective, and we can do more.
    Ms. Granger. Thank you.
    The chair now recognizes Representative Shadegg for five 
minutes.
    Mr. Shadegg. Madam Chairman, I know you want to move on to 
the next panel, so I will try to be as brief as I can.
    Undersecretary Hutchinson, I know the deadline for the 50 
highest volume land borders is at the end of this year. As I 
understand it, your goal is to have contracts in place with the 
private sector by May 1 to meet that deadline, is that correct?
    Mr. Hutchinson. That's correct.
    Mr. Shadegg. I will just ask one question with two parts to 
it: One, can you briefly describe the challenges you face to 
implementing this program at those land borders? In my State of 
Arizona, we have a number that will fall into that category, 
but some are very high volume crossings. Nogales is a hub of 
commerce on the southern border of Arizona.
    What challenges do you face, number one?
    And number two, what are you doing to work with the 
community to give them advance knowledge and kind of prepare 
them for the shock of the new program, so that there is not a 
negative reaction?
    Mr. Hutchinson. Challenges and what we are doing to 
prepare.
    First of all, a good communication plan. We want to spend a 
lot of time on the border, working with the communities and 
bringing them in the process as we develop these solutions.
    And I hope that there is some level of confidence--the fact 
that we are trying to do this in the air and sea ports without 
backlogs will indicate we have the same intent on the land 
borders.
    This illustrates some of the vastness of the problem. We 
have the traveler population, air, sea and land, and you see 
the land categories which we will face on the borders, you have 
citizens, 120 million; permanent residents, 75 million; visa 
exempt, which are primarily Canadians, 52 million; visa waiver, 
1.8 million; regular visas, 4.5 million, but the border 
crossing card, 104 million. And you compare that to the 
airports and seaports, you are looking at 79 million versus 358 
million.
    So the challenge is multifold, compared to what we have 
just done.
    And with great respect to Congressman Turner who asked 
about the mitigation strategy, we almost have to have a 
mitigation strategy when it comes to land borders.
    You know, we cannot just simply clog it. And so, we have to 
implement this in a way that gives us a measure of security, 
that has some flexibility to it but still is consistent with 
the commerce that needs to flow through.
    That is our challenge. We are looking at new technology. 
First of all, in the 2004 spin plan, we are looking at having 
the same solution that we have at our airports at our land 
borders for regular visa holders that travel through.
    And so, they would go to secondary inspection, be enrolled 
in US-VISIT, just as they are now, but it doesn't clog the 
border. That's 4.5 million visitors.
    Visa waiver, obviously they go to our secondary inspection 
now as well.
    The big challenge is the border crossing card, which, if 
they are used as a visa, would go to secondary inspection, can 
be enrolled, but if they are just used for the crossing card 
purposes, you are looking at 104 million people going through.
    We are looking at R.F.-technology. We are looking at 
different technologies that can accomplish some objectives of 
what we want to do, consistent with the congressional mandate. 
We are looking forward to working with this committee to meet 
that challenge that we have.
    Mr. Shadegg. I wish you luck.
    Mr. Hutchinson. Thank you.
    Mr. Shadegg. I yield back, Madam Chairman.
    Ms. Granger. The Chair now recognizes Representative 
Sanchez for five minutes.
    Ms. Loretta Sanchez of California. Thank you, Madam Chair.
    I just have a couple of questions--more that I will put 
in--but I am really concerned about the accuracy and the lack 
of connectedness of the different databases that we are 
searching to find these people to check against them, to see if 
they are bad people or good people.
    I have been told that the databases contain a lot of 
errors, conflicting information. And I guess my question is to 
the policy or lack of policy that allows these problems to be 
addressed, the erroneous data to be changed.
    For example, let's say that I am mistaken for another 
Loretta Sanchez who has a warrant out for her arrest. And I go 
through the airport. And I have to sit down. I have to talk to 
the CBP officer. I prove to him that in fact I am the 
congresswoman that is Loretta Sanchez, not the fugitive. And he 
sees that.
    But there is no procedure in place right now from what I am 
told to be able to change that in the database.
    Which means that the next time I come to the airport, I get 
treated in the same way, I get pulled aside as the bad Loretta 
Sanchez. I have to sit down. I have to explain to this guy or 
lady that, you know, that is just not the case.
    So I guess my question goes to how are we integrating these 
databases? What kind of policies do we have to ensure accuracy 
and to eliminate mistaken identity problems, for example, 
because, you know, it is not only a waste of my time, but it is 
a waste of valuable resources in these officers on the front 
line.
    Ms. Harty. While I hesitate to speak for my colleague of 
the Terrorist Screening Center, I did sit with her two days ago 
at another hearing, so I would just like to give you in part 
her answer and in part my own.
    On the overseas side, we do often have that, as 
Undersecretary Hutchinson alluded to earlier, where there might 
be another person with your same name out there. We see that 
somewhat regularly. That is why we have a very strong emphasis 
on getting not only the name of the person, but a date and 
place of birth, so that we can make sure that we are talking 
about the right person.
    We have procedures at State to remove somebody from the 
system if in fact that information is erroneous.
    On the part of my colleague from TSC, she mentioned exactly 
the same thing, that one of the things of course they are very 
interested in is facilitating legitimate travel by legitimate 
people. That, in fact, she said, they do have a procedure and 
have employed it--they haven't been up and running very long, 
but have employed it on a number of occasions already, 
specifically to make sure that honest, decent people who are 
not the subject of a hit should not in fact have to fear 
traveling through a U.S. port of entry.
    You might want to add something to that, but that is, in 
fact, what I heard her say just the other day.
    Mr. Hutchinson. We have processes in place as well that 
someone who is mistakenly identified can be removed.
    But the problem you have expressed very well: If we have 
information--intelligence that is received--that Asa Hutchinson 
is planning a terrorist attack. And that is intelligence that 
we get, perhaps it is electronic, maybe it is a human source. 
And that is all we have. What do we do with that one name?
    Now, I think the public would expect that that name would 
be entered so we can be on the lookout for an Asa Hutchinson. 
But there is not a date of birth with it. There is not an 
address with it.
    And so, sometimes you have bits of information. Sometimes 
it is more limited. And so, we have--you are right--policy 
questions. But we also have some huge responsibilities when we 
have little bits of information to share it with the right 
people.
    Ms. Loretta Sanchez of California. You know, it really is a 
problem. And even when you have the date of birth, for example, 
because there is, in fact, another Lorena Sanchez that was born 
on the same day, that lives in the same city that I live in. 
So, you know, constantly confused.
    And so, if we do it there, I can just imagine doing it at 
the airport.
    But more importantly, I represent the largest Vietnamese 
population outside of Vietnam in the world. They all have the 
same name, practically. And I don't know how that happens. 
Maybe it was when everybody was being processed, it was easier 
to give them Tranh or Wen, rather than, you know, what their 
name was. Or maybe it is all the same family.
    But they have the same names over and over and over again. 
And this is one of the issues that they bring up to me.
    As well as a very large Arab-American community in my area, 
largest in California, that, you know, their names are 
butchered all over the place.
    So if it even looks close to something, they are being 
stopped at LAX or other airports.
    Mr. Hutchinson. And you are right. And so that is why we 
want to have identifying information for the passengers who fly 
that can distinguish them from just simply a name on a 
terrorist list. And that is why we are developing our CAPS II 
system, working with the airlines and the European Commission 
to get the passenger name record data that will eliminate--help 
reduce--the problem that you articulated.
    Ms. Loretta Sanchez of California. And the other problem, I 
would say, is just that the--just because one data base has the 
new Loretta Sanchez or don't get this Loretta Sanchez, it 
doesn't seem that a lot of the databases are also being updated 
at the same time.
    Thank you, Madam.
    Ms. Granger. Thank you very much. That concludes the 
testimony and questions for this panel. We thank both of our 
witnesses very much. And the second panel can come to the 
witness table now.
    We are expecting a vote, probably between 1:45 and 2:00, we 
understand.
    Let me clarify, for the record, there was a question from 
Mr. Dicks concerning the two prints in the IAFIS system that 
comes from the FBI. And when the two prints are made, they can 
still match with two points on the IAFIS system. If that is 
true, after that match is made, that there is an indication 
that there could be a match because there are only two prints 
compared to 10 prints, there still could be a match on the two 
prints.
    Thank you.
    I thank you for being here. We will now begin testimony 
from Mr. May, from the Air Transport Association; followed by 
Ms. Campbell Walker from the El Paso Foreign Trade Association; 
and then by Mr. Carlton with the International Biometrics 
Group.
    Mr. May, we have received your written testimony, and ask 
that you briefly summarize in five minutes your statement.

   STATEMENT OF JAMES MAY, PRESIDENT AND CEO, AIR TRANSPORT 
                          ASSOCIATION

    Mr. May. Thank you, Madam Chairman. And since over the 
years I have learned not to put you to sleep by trying to read, 
I will just do that very thing.
    Number one, we think the US-VISIT program is working well. 
It is something that we had the pleasure of doing a test based 
on at the Atlanta Hartsfield airport with Delta Air Lines, as 
you are well aware.
    We were very concerned that it would in the final analysis 
significantly delay the process of passengers coming into the 
United States. We were concerned that it would delay connecting 
flights and so forth.
    To date, it has worked well. The capture of the biometric 
information has worked well. We are looking at probably 10 to 
15 minutes on average on waits in there and 20 at the outside. 
There are certain longer periods of time, but for the most part 
the system is working well as it gets rolled out across the 
country, with 115-some odd points of capture.
    We have roughly 17.5 million passengers that we carry that 
are arguably subject to the US-VISIT program, so it has a real 
potential impact on us. So far, the entry program is working 
well.
    Exit, as you are well aware, is being tested at BWI. It is 
a far more challenging environment going out than it is coming 
in. To date, we are using DHS is using kiosks. They are set up 
inside the security perimeter.
    I think there are a couple of issues that we have raised 
with DHS on the workability of those projects. The first is, I 
think they need to do a little bit better job of signage. The 
second is that they probably need to think about having sort of 
an audio component to those kiosks, conceivable even multi-
lingual.
    I think they are using one employee per five right now, and 
they may have to kick that up a little bit along the way.
    The goal for us on the exit is to make sure, as was the 
case on the entrance, that we don't turn airline personnel into 
immigration agents, number one; number two, we don't have a 
system that ends up costing the airlines an additional millions 
of dollars in security costs which we can ill afford--we are 
already spending $3 billion a year on unreimbursed security 
costs; and to have it be a process that works through quickly, 
so as not to delay unduly our passengers and to have the 
facilitation process work well.
    To date, we are pleased with the cooperation we are getting 
from DHS and the State Department. We think the program is 
working well from our perspective. I am happy to answer any 
questions you may have.
    [The statement of Mr. May follows:]

                   Prepared Statement of James C. May

    Mr. Chairman and members of the Subcommittee, my name is James C. 
May and I am President and CEO of the Air Transport Association of 
America (ATA). ATA is the trade association for leading U.S. airlines. 
Our members transport over 95 percent of all the passenger and cargo 
traffic in the United States. Thank you for inviting me to appear 
before you today to discuss the United States' Visitor and Immigrant 
Status Indicator Technology Program--more commonly known as ``US-
VISIT''.
    Congress mandated the US-VISIT program in the Enhanced Border 
Security and Visa Reform Act of 2002. This statute established the 
requirement that all foreign national visa holders be photographed and 
fingerprinted upon arrival and prior to departure from the United 
States. The Department of Homeland Security's (DHS) broad Congressional 
mandate to create an integrated, automated entry/exit system, recording 
the arrival and departure of travelers is both ambitious and important. 
Because the airline industry transports 51 million international 
passengers each year, it is essential to our industry, and our 
passengers, that this program improve overall border management while 
further enhancing our Nation's security. We support DHS in its efforts 
to create and implement US-VISIT.
    While the airline industry is pleased to work with DHS and our 
national security leaders to participate in these programs, we believe 
it is critical that DHS adhere to the planned schedule for deploying 
US-VISIT at the northern and southern land borders. This is especially 
important since airline passengers make up only 4 percent of all U.S. 
entrants subject to US-VISIT requirements while land borders make up 37 
percent of such visitors. Until US-VISIT is deployed nationwide at all 
border crossings, the system will not be effective in enhancing our 
national security
    We compliment the Department of Homeland Security, and 
specifically, Undersecretary Hutchinson and the Office of Border and 
Transportation Security, the US-VISIT Program Office, and the Bureau of 
Customs and Border Protection (CBP), for working together to carefully 
and completely plan for a successful implementation. Their attention to 
careful planning, in full consultation with all interested parties has 
been first rate. We look forward to continuing this cooperative 
approach.
    First, I will offer some lessons learned and observations about the 
entry portion of US-VISIT. Second, I will address on-going concerns 
with the exit pilot program. Finally, I will briefly mention some 
overarching screening program concerns.
US-VISIT--ENTRY
    As you know, the pilot for entry was conducted at Atlanta's 
Hartsfield/Jackson International Airport, in partnership with Delta Air 
Lines. We believe it was an excellent opportunity to test the process 
both from the government and the industry perspective. The pilot 
allowed everyone involved to become familiar with the newly deployed 
equipment and to provide input at the implementation phase.
    In the short time that the US-VISIT entry process has been 
operational, the airlines have been very pleased with its smooth 
operation. Airlines believe that a key to the initial success of the 
US-VISIT entry process can be attributed to the increased federal 
inspectors associated with the program.
    We initially were wary of the decision to place the entry process 
at the primary immigration inspection stanchions due to concerns over 
staffing levels. Ensuring an adequate number of federal inspectors, 
whether legacy INS or legacy Customs, has been a longstanding and 
significant concern of the airline industry. If not adequately staffed, 
such placement in the current configuration of most airports could not 
accommodate the inevitable long lines due to the US-VISIT processing 
requirements. In addition, these long lines not only delay our 
customers and but also could possibly delay airport operations.
    This DHS worked with us to address this staffing level issue; 
therefore, we are satisfied that the US-VISIT entry process has not 
inhibited or lengthened the overall passenger processing times as we 
had feared.

US-VISIT--EXIT
    As with the entry process, we appreciate the open communications we 
have had, and are having, with DHS on the development of the exit 
portion of the program. As you are aware, a kiosk approach is being 
piloted at Baltimore/Washington International Airport (BWI). This 
approach versus other possibilities--for example, processing eligible 
US-VISIT passengers at the TSA checkpoint--remains an open question.
    Given the opportunity to evaluate the exit pilot thus far, we have 
some remaining issues we would like to see addressed. First, due to the 
voluntary nature of the current pilot, we are concerned that the 
underlying purpose of US-VISIT, monitoring both the entry and exit of 
foreign nationals will not be met. Without government enforcement, the 
airline industry could be put in a position of transporting an 
ineligible passenger to the United States only to have to absorb the 
expense of returning that passenger back to his originating airport.
    Second, at the BWI pilot, the kiosks are located immediately beyond 
the Transportation Security Administration's (TSA) checkpoint. US-VISIT 
has placed signage both within the TSA checkpoint and immediately 
beyond the checkpoint, directing passengers to the kiosks. We believe 
that the signage is insufficient. At the TSA checkpoint, passengers are 
too busy concentrating on keeping on eye on their belongings--coats, 
shoes, jewelry, etc. to notice the signage.
    Third, the kiosks are silent. Currently, the system relies on a 
touch screen with icons to direct the passenger through the process. 
From our observation, this is inadequate. More work remains to be done 
to make the process easily understood and user friendly, particularly 
for non-English speaking travelers.
    As we continue through this pilot program, we understand that the 
Office of Management and Budget has directed DHS to explore 
alternatives to the kiosk system in capturing the biometric data. The 
airline industry asks to participate in any discussions on this topic. 
As you are aware, ATA opposes any requirement that airline staff 
collect the biometric data, either at the check-in counters or at the 
departure gates. Airline personnel should not be used as quasi-
immigration officers.

OTHER SCREENING ISSUES
    We are aware that DHS is developing other passenger screening 
capabilities, most specifically the CAPPS II program that may be 
adapted to also readily identify US-VISIT exiting passengers. We would 
urge that, as these programs develop, consideration be given to 
combining screening and exit processing to better meet the needs of the 
traveling public and continue to enhance vital security needs. We 
believe that the nation's interests will best be served by a seamless, 
fully integrated approach to passenger processing and screening. When 
fully implemented the US-VISIT entry/exit program must be enforceable 
and integrated into any new technologies and programs under development 
at the DHS.
    In conclusion, I want to reiterate our support for the 
comprehensive and efficient implementation of the US-VISIT entry 
program. We look forward to working with both the Congress and the DHS 
to fine tune the processes and develop an exit policy that meets the 
requirements of the law, but does not discourage travel to the United 
States.
    Mr. Chairman, thank you again for inviting me to testify on a very 
important component to the nation's overall security policy. I will be 
happy to answer any questions that you may have.

    Ms. Granger. Ms. Campbell Walker?

STATEMENT OF KATHLEEN CAMPBELL WALKER, A MEMBER OF THE BOARD OF 
DIRECTORS OF THE EL PASO FOREIGN TRADE ASSOCIATION AND A MEMBER 
        OF THE AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Ms. Campbell Walker. Madam Chairperson and distinguished 
members of this subcommittee, thank you very much for the 
opportunity to be presenting testimony before you today.
    I am currently on the executive committee of the American 
Immigration Lawyers Association, an association of over 8,500 
lawyers representing thousands of individuals who are trying to 
comply with our immigration laws.
    And in addition to that, since 1985, I have been a member 
of the board of the El Paso Foreign Trade Association, now 
known as the foreign trade association, on which we worked for 
four years on establishing the first dedicated commuter lane in 
the State of Texas. And in addition to that, we also worked on 
the project, just recently implemented and introduced by 
Secretary Ridge, the new FAST lane, concerning commercial 
traffic.
    The history that I am trying to bring is one of cooperation 
and work with federal, state and local officials, trying to 
create realistic solutions when we are talking about where the 
rubber hits the road. And that is where I am down in El Paso 
for the past 18 years.
    I have got to say that we are extremely concerned that 
unless a deadline is pushed regarding implementation of the 50 
busiest land ports, which will include El Paso and many others 
in the State of Texas and elsewhere, that we will have total 
gridlock.
    And I find it interesting in the analysis of the success so 
far of US-VISIT. I would like to just make a few points. But I 
am trying to make constructive comments, because if we don't 
understand the reality of the process, we cannot give the 
process the attributes and enhancements that it needs to 
accomplish its objectives.
    So I hope that these comments are taken in that light.
    US-VISIT is supposed to be an exit and an entry system. 
Obviously, as of January 5th, we don't have the exit part. And 
if we did have the exit part, we would have a serious problem.
    On the entry segment, as well, the Ahern memo you 
referenced earlier is a logical memo, based on the realities 
that we have economic trade interdependence here, and our trade 
is paying for our security. So we have got to manage that 
balance.
    I think that it is an indicator that the memo was issued 
that indeed additional resources are necessary to properly 
implement. And that is all it states, a truism that needs to be 
addressed.
    From the perspective of land ports, for me the easiest way 
for me to take a quick snapshot of what we are dealing with is 
for hopefully those who haven't visited our land borders down 
South, we hope that you will come visit and be our guests.
    But on a different note, where do we stand right now on our 
land borders, at our land ports?
    First of all, we are not addressing that obvious point that 
was raised earlier in testimony, that we don't have control of 
our borders. We still have migration flows between our ports.
    That is an issue that hopefully we will address with 
comprehensive immigration reform legislation.
    But on a different note about what are we dealing with 
right now, we have pedestrians, a huge volume, coming through 
our ports. In addition to that, commercial vehicles and 
passengers vehicles.
    We don't even have a basis IBIS check that takes a few 
seconds being conducted on 100 percent of our pedestrians. 
There is a 40 percent minimum requirement.
    We don't have mandatory checks at all at that level being 
conducted at our passenger vehicle lanes. The reason is that 
they are lucky to have these mobile tech units in which they 
are able to access IBIS if they type it in.
    We don't have time to be able to actually get people 
through and indeed access that information on everybody with 
what we have in place right now.
    And we cannot get it there by December 31st.
    Another point is just flat infrastructure, land and people. 
We don't have a spot for exit control at all of our ports. And 
recently someone talked about they are going to buy 1,000 
scanners. And 1,000 scanners to scan these biometric documents, 
I am sorry, doesn't even begin to address the situation.
    At one point in time they were saying if we got one scanner 
a port, we would be doing great. Well, at one of our ports, we 
have like 10 passenger vehicle lanes, 10 pedestrian, and five 
or six commercial. So that is just at one port. How does one 
scanner deal with that issue?
    So what I am concerned about is, if we are going to make 
the system work, let's assess it realistically and give it the 
tools that it needs to be a success.
    And I am not going to sit here and denigrate the efforts 
made by the Department of Homeland Security and the Department 
of State. Laudable efforts. Amazing work so far.
    But there is a reality check that needs to be made before 
we end up lulling ourselves into a false sense of security. And 
I think that is the path we are going upon.
    As far as the biometric check issue, I hope that someone 
will ask me a really hard question later on, really about that 
IDENT point, because if you look at your normal inspector--and 
I have got to shut up very quickly, the normal inspector does 
not have access to something called CLAIMS 3 regarding 
immigration status. The normal inspector doesn't have access to 
the CCD database they were talking about on the primary 
inspection line.
    So I would just like those issues described and discussed 
later.
    Thank you for the opportunity.
    [The statement of Ms. Campbell Walker follows:]

             Prepared Statement of Kathleen Campbell Walker

    Mr. Chairman and distinguished Members of the Subcommittee, I am 
Kathleen Campbell Walker, Treasurer of the American Immigration Lawyers 
Association (AILA). I am honored to be here today representing two 
organizations, AILA and the Foreign Trade Association of the Paso del 
Norte region.
    AILA is the immigration bar association with more than 8,500 
members who practice immigration law. Founded in 1946, the association 
is a nonpartisan, nonprofit organization and is an affiliated 
organization of the American Bar Association (ABA). AILA members 
represent tens of thousands of: U.S. families who have applied for 
permanent residence for their spouses, children, and other close 
relatives to lawfully enter and reside in the United States; U.S. 
businesses, universities, colleges, and industries that sponsor highly 
skilled foreign professionals seeking to enter the United States on a 
temporary basis or, having proved the unavailability of U.S. workers 
when required, on a permanent basis; and healthcare workers, asylum 
seekers, often on a pro bono basis, as well as athletes, entertainers, 
exchange visitors, artists, and foreign students. AILA members have 
assisted in contributing ideas for increased port of entry inspection 
efficiencies and continue to work through their national liaison 
activities with federal agencies engaged in the administration and 
enforcement of our immigration laws to identify ways to improve 
adjudicative processes and procedures.
    The Foreign Trade Association of the Paso del Norte region was 
originally incorporated in 1985 as the El Paso Foreign Trade 
Association. The mission of the Foreign Trade Association is to enhance 
and advance bilateral trade in the Paso del Norte region, which 
includes El Paso, Texas, southern New Mexico, and the northern part of 
the State of Chihuahua in Mexico, which includes Ciudad Juarez. The 
Association's membership includes maquiladora executives and service 
industry leaders from both sides of the U.S.-Mexico border. The 
Association has a history of working with federal, state, and local 
officials on both sides of the border to implement projects for the 
improvement of cross-border trade and commerce. For example, the 
Association spearheaded a four-year project partially funded by the El 
Paso community to construct the first dedicated commuter lane in Texas 
using Secure Electronic Network for Travelers Rapid Inspection (SENTRI) 
technology. It also helped to implement the first FAST lane on the 
southern border for commercial traffic in the past few months.
    Both organizations appreciate the opportunity to testify today on 
``Integrity and Security at the Border: The US-VISIT Program.'' While 
our organizations differ in many respects, we both strongly hold the 
view that it is vitally important to enhance our nation's security in a 
way which balances our need for enhanced security with our economic 
dependence on the international and the cross-border flow of people and 
goods, which helps to pay for our national security.
    I am here today to testify on the US-VISIT program and to offer 
suggestions to help potentially ensure that this program works 
efficiently and effectively, so that we can achieve a viable inspection 
process and enhance security at our borders. Living in a post September 
11 environment demands that we develop new programs that balance a 
recognition of the fact that our nation is inextricably linked to the 
world around us with the need to protect ourselves from those who would 
do us harm. We all have much to learn from our past mistakes as well as 
our past successes. I hope this testimony contributes to a productive 
discussion.
    What is US-VISIT? The United States Visitor and Immigrant Status 
Indicator Technology program (US-VISIT) is the new automated entry/exit 
system that is being implemented at our nation's ports of entry. It is 
designed to collect and share information on foreign nationals 
traveling to the United States (including travel details and biometric 
identifiers), confirm identity, measure security risks, and assess the 
legitimacy of travel in an effort to determine who is welcome and who 
is not, and help speed traffic flow. The overall plan for the 
implementation of US-VISIT calls for the collection of personal data, 
photos and fingerprints, at U.S. consular offices abroad and at our 
ports of entry, as well as broad database and information sharing. The 
system also is intended to track changes in foreign nationals' 
immigration status and make updates and adjustments accordingly. 
Ultimately, the Department of Homeland Security (DHS) plans to make 
available information captured through US-VISIT at all ports of entry 
and throughout the entire immigration enforcement system.
    US-VISIT is the latest manifestation of an earlier program, Section 
110 of the Illegal Immigration Reform and Immigrant Responsibility Act 
of 1996 (P.L. 104-208) (IIRAIRA). The concept of an entry/exit system 
to monitor entries at and exits from our nation's ports of entry was 
first articulated in Section 110, which created an entry/exit system 
that would have applied to all non-U.S. citizens who entered or exited 
the United States at any port of entry to identify visa overstayers. 
Although subsequent laws altered both the deadline and the parameters 
of the Section 110 entry/exit program, the general framework of Section 
110 entry/exit remains the same today. [The Congressional deadline for 
the entry/exit system was delayed by P.L 105-259 to October 15, 1998. 
In P.L. 105-277, the deadline was pushed back to March 30, 2001, for 
land ports of entry and seaports. This law did not affect the deadline 
for implementation at airports.]
    The Data Management Improvement Act of 2000 (P.L. 106-215) (DMIA) 
amended Section 110 to require that the entry/exit system use data that 
already was being collected from foreign nationals and prohibited the 
Immigration and Naturalization Service (INS) from imposing additional 
entry or exit documentary or data collection requirements for purposes 
of the entry/exit system. The act mandated the development of a 
searchable centralized database and staggered the entry/exit 
implementation deadlines into three very difficult to achieve time 
frames as follows:

        <bullet> Airports and Seaports--December 31, 2003
        <bullet> Top 50 high traffic land border ports--December 31, 
        2004
        <bullet> Remaining implementation for all other ports--December 
        31, 2005

    While the system set forth by Section 110, and amended by the DMIA, 
must record entry and exit for foreign nationals without establishing 
additional documentary or data collection requirements for the purposes 
of the entry/exit system, the laws do not prohibit DHS from developing 
new documentary or data collection requirements to implement provisions 
contained in other laws. Certainly, the mandate of US-VISIT--to enroll 
applicants for visas and admission to the U.S. via the collection of 
two print fingerprints and a digitized photograph--is beyond current 
procedures. The potential remains for DHS to include within US-VISIT 
categories of foreign nationals now exempt from program participation, 
including legal permanent residents, Canadian citizens, and Visa Waiver 
Program participants.
    In the post-9/11 environment, Congress took another look at the 
Section 110 entry/exit system in the USA PATRIOT Act of 2001 (P.L. 107-
56) (PATRIOT Act). The law encouraged the development of the entry/exit 
system with ``all deliberate speed'' and as ``expeditiously as 
practicable,'' and established a taskforce made up of governmental and 
private industry representatives to review the establishment of an 
entry/exit system. The law also mandated that the entry/exit system use 
biometric technology and requires tamper-resistant documents readable 
at all ports of entry.
    With the passage of the Enhanced Border Security and Visa Entry 
Reform Act of 2002 (P.L. 107-173) (Enhanced Border Security Act), 
Congress addressed the entry/exit system as a program that balances 
security with the economic realities of our busy ports. To strike this 
balance, the act mandated that the entry/exit program utilize 
technologies that facilitate the efficient flow of commerce and travel, 
including interoperable data bases that aid in the determination of who 
should be allowed entry into the U.S. Congress here clearly recognized 
the need to balance improved border security with our nation's economic 
security as it relates to the flow of people and goods through our 
nation's ports of entry.

The First Phase of US-VISIT
    Testing for the first phase of the US-VISIT program's 
implementation at airports and seaports began in the Hartsfield 
International Airport in Atlanta during November 2003. DHS reported 
that during the pilot testing phase, over 140,000 individuals were 
enrolled in US-VISIT and 21 individuals were intercepted upon entry. 
DHS has not indicated whether these individuals would have been 
admitted to the U.S. if the typical pre-VISIT inspections process had 
been used.
    On January 5th, the first phase of US-VISIT became operational at 
14 seaports and 115 airports nationwide. DHS explained the five-day 
delay in implementation (the program was originally set to begin on 
December 31, 2003) as an effort to avoid disrupting holiday travel. 
This delay, however, was more than a magnanimous overture, because the 
first part of the year is traditionally a slow travel season. 
Implementing US-VISIT while travel is light has led to reports that US-
VISIT's procedures do not cause appreciable delays. US-VISIT, as 
currently implemented at our ports of entry, does not involve any 
biometric security check prior to admission. And, subsequent 
applications for admission by US-VISIT enrollees will only require a 
biometric check to verify the identity of the enrolled foreign 
national.
    US-VISIT currently is set-up so that nonimmigrant visa holders 
applying for admission to the U.S. through one of the US-VISIT 
designated airports or seaports will undergo the standard inspection 
process and simultaneously will be enrolled in the US-VISIT system. If 
these individuals leave through a port with US-VISIT exit capabilities 
(of which there currently is only one airport and one seaport), these 
travelers must comply with US-VISIT exit procedures upon their 
departure from the U.S. Unfortunately, such procedures are still 
sketchy at best and the consequences for failure to comply can be 
severe, according to the US-VISIT interim final implementing 
regulations published at 69 Fed. Reg. 467-481.

Enrollment at the Ports of Entry under US-VISIT
    During the first phase of US-VISIT's implementation, only 
nonimmigrant visa holders who enter the U.S. through an air or seaport 
that has US-VISIT capability will be enrolled in the program. The first 
time DHS enrolls a traveler into US-VISIT at a port, the individual's 
travel documents will be scanned, a digital photo and inkless 
fingerprints of both index fingers will be taken, and the individual's 
name will be checked against the Interagency Border Inspection Service 
(IBIS) database and the wants and warrants section of the National 
Crime Information Center (NCIC) database. Both of these checks are text 
(not biometric) checks. IBIS contains certain terrorist watch list 
information from the TIPOFF database maintained by the Department of 
State (DOS).
    The enrollment process is supposed to take about 10 to 15 seconds. 
The primary reason for the speed of this process is that the security 
check against the applicable biometric database, Automated Biometric 
Identification System (IDENT), occurs after the visa holder is admitted 
to the U.S. If DHS inspectors ran the IDENT checks during the 
admissions process, it would add about five minutes to every US-VISIT 
enrollment, thus generating such lengthy backlogs that the ports of 
entry would essentially shut down.
    The IDENT database, is a legacy INS database based on the same two 
index prints as US-VISIT as well as a digitized photograph. The system 
was created in 1994 and widely deployed from 1997 to 1998. It 
originally contained a recidivist database and a lookout database 
including all foreign nationals apprehended by the INS. The DOS also 
maintains such a biometric database of all Mexican laser visa holders 
(formerly known as border crossing cardholders). These laser visa 
holders all were vetted through an IDENT check. Except for in the US-
VISIT context, the IDENT checks at ports of entry currently always 
occur during secondary and not primary inspection, where the time 
required to process information through IDENT is less of a concern.
    Once the visa holder is enrolled in US-VISIT, his or her arrival 
information will be stored in the IDENT biometric database. Therefore, 
the information for applicants for admission under US-VISIT with no 
criminal record or apprehension record with legacy INS or DHS are 
contained in the same database as the individuals for whom DHS is on 
the lookout. Such proximity between two distinct classes of foreign 
nationals will lead to confusion as inspectors will have to determine 
which individuals in IDENT are inadmissible to the U.S. and which have 
merely been enrolled in US-VISIT.
    After visa holders enroll in US-VISIT, they still will have to 
provide fingerprints and have a digital photograph taken upon each 
application for entry to the U.S. Ideally, future enrollees will be 
able to swipe their biometric passport or visa, provide index 
fingerprints and photo, and be checked for identity against the US-
VISIT database without further delay. This system would rely on US-
VISIT to identify the enrollee and the usual text-based IBIS database 
check. Again, this procedure will not provide for a rapid biometric 
check against any criminal or other biometric watch list database.

Departure from the U.S. under US-VISIT
    Nonimmigrant visa holders are required to document their departure 
from the United States with US-VISIT only if they depart the U.S. 
through an air or seaport that has US-VISIT exit capability. Since 
January 5, 2004, US-VISIT only has exit capability at the Baltimore-
Washington International (BWI) airport in Baltimore, Maryland and at 
the Miami seaport. However, DHS plans to expand US-VISIT exit 
capabilities to other ports of entry throughout 2004. At the moment, 
the exit stations for US-VISIT are self-service kiosks that closely 
resemble automated teller machines (ATMs). DHS has indicated that the 
kiosks will be located within the secure area of air and seaports. The 
Department also has stated that attendants will be assigned to monitor 
the kiosk area and offer assistance. In addition, DHS has announced 
that during 2004, it will test various exit methods, possibly including 
a hand-held device that will permit DHS personnel to register the 
departure of nonimmigrant visa holders. One of the problems with such 
mobile units in the past has been lack of database connectivity. For 
example, at land ports, passenger vehicle lanes are usually not 
equipped with machine readable document scanners and mobile units with 
access to the TECS (Treasury Enforcement Communications System) 
database are used. Information has to be typed into the system and 
database access is limited. Upon departure, database review is again 
limited and not conducted against a criminal biometric database such as 
IDENT.
    DHS considers exit registration mandatory for visa holders who 
depart from an air or seaport with US-VISIT exit capability. According 
to DHS, entry/exit information is constantly updated, and if a visitor 
overstays his or her authorized period of stay, US-VISIT will record 
the failure to depart. However, prior experience with databases 
designed to display the status of a foreign national indicated that 
inspectors are not often given access to these resources. Legacy INS 
experimented with the CLAIMS III database, which indicated the 
immigration status of foreign nationals. Unfortunately, the use of that 
database was frustrated by the fact that it was often down and not 
accessible. U.S. Citizenship and Immigration Services also maintains an 
internet-based on-line case status inquiry system which is not hooked 
up to inspection lanes, and inspectors have a difficult time utilizing 
this resource.
    In addition to concerns about the usability of the US-VISIT 
database, there are serious concerns regarding the accuracy of the 
entry/exit information it contains. Inaccurate entry/exit data can have 
a serious impact on visa holders in a variety of ways since presence in 
or out of the U.S. is a critical issue for certain immigration benefits 
such as: eligibility in terms of overstays and removals; physical 
presence requirements for substantial presence determinations under our 
tax laws; legal permanent residence abandonment issues; time spent in 
the U.S. for naturalization purposes; etc.
    Statements made by the DHS indicate that the Department appreciates 
the potential negative effects of recording exit information before the 
exit systems are fully operational and is considering a grace period 
regarding exit requirements. However, there has not been any 
confirmation of whether such a grace period exists, or whether failure 
to exit properly will result in a case-by-case review similar to the 
review permitted under Special Registration/National Security Entry/
Exit Registration System (NSEERS).

U.S. Consulates' Role in US-VISIT
    Certain U.S. consulates have begun enrolling nonimmigrant and 
immigrant visa applicants into the US-VISIT system when processing the 
new biometric visa. Individuals enrolled at the consulates will still 
be ``visited'' upon their entry to the U.S., in that they will have 
their entry recorded via a biometric identity review. Currently, only 
certain consular posts are issuing biometric visas. However, the State 
Department is required to start issuing these visas at all 211 consular 
posts by October 26, 2004--an extremely ambitious deadline. As with 
port VISIT enrollment, two digital index finger prints and a photo are 
taken of visa applicants. Such biometric information, however, is 
checked against the IDENT database before visa issuance. Recently, at 
the U.S. Consulate in Vancouver, visa issuance times were increased 
from same day processing to 3-day processing due to the IDENT 
clearance. This delay is marking the end of same-day visa issuance and 
results in additional processing burdens on consular officers without 
the necessary staff increases to attend to such demands in a more 
timely manner. In addition, insufficient additional resources are 
apparently being allocated to address these database check delays at 
the source.
    This IDENT requirement subsumes the personal appearance waiver 
policy announced in 2003 by DOS that required interviews of applicants 
between the ages of 16 and 60. Note that the IDENT check done by DOS 
applies in both the nonimmigrant and immigrant visa application 
process. Currently, US-VISIT only applies to nonimmigrant visa holders.
    In addition to these delays, consulates in Visa Waiver countries 
will likely suffer from additional delays due to an increased number of 
visa applicants. A congressional mandate in the PATRIOT Act requires 
Visa Waiver countries to issue tamper-proof machine-readable passports 
(MRPs) that include biometric identifiers by October 26, 2004. 
Individuals without a biometric MRP will have to apply for a visa at a 
U.S. consulate and will be subject to US-VISIT enrollment at the post. 
Their admission will then be recorded under US-VISIT procedures at the 
port of entry.

    The Relationship between NSEERS and US-VISIT
    Special Registration/NSEERS at the ports of entry continues even 
after the launch of US-VISIT this January. Registration for NSEERS and 
enrollment for US-VISIT will continue to be separate processes until 
US-VISIT incorporates NSEERS. (Such incorporation is not anticipated 
until US-VISIT is fully developed.) Also, the two processes involve the 
intake of different levels of data. Thus, it is difficult to 
conceptualize an NSEERS process without a secondary inspection 
component, which is typically not involved in most US-VISIT admissions.
    Persons subjected to call-in or port of entry Special Registration 
still must register their departure via NSEERS and must leave the U.S. 
through a designated NSEERS port of departure. According to preliminary 
reports, if US-VISIT has an operational exit kiosk at this port, and an 
individual already has registered his or her departure at that airport 
via NSEERS, the visa holder is not obligated to document his departure 
with US-VISIT. Thus, someone subject to NSEERS departure control will 
not need to register departure via both methodologies. There is, 
however, no written confirmation of this procedure. Considering that 
those who fail to comply with departure control rules under NSEERS may 
be subject to inadmissibility under INA section 212(a)(3)(A)(ii), many 
foreign nationals subject to both US-VISIT and NSEERS exit requirements 
(as well as their counsel) are not clear on how to ensure that their 
compliance is well documented in both systems. A public information 
program is critical to help those wishing to comply to do so.

Expansion of US-VISIT to Land Ports of Entry
    Although DHS has not announced a timeframe for the implementation 
of new exit capabilities at our nation's airports and seaports, DHS 
plans on deploying biometric document readers to all air, sea, and land 
ports of entry by October 26, 2004. (Of course, the Mexican biometric 
laser visa for business and tourist admissions has been in existence 
for years, and yet such scanners have not been deployed to all ports.)
    Implementing US-VISIT at our land ports of entry must take into 
account the complex realities of these ports. For instance, after 
September 11, 2001, when port officers attempted to subject all 
applicants for admission to IBIS (text based) database reviews, the 
resulting delays led to a modification of the policy. Such checks were 
not conducted at passenger and commercial vehicle lanes due to 
infrastructure limitations.
    Unless Congress acts to delay the implementation of US-VISIT 
deadlines, DHS will be required to expand the entry/exit program to the 
top 50 high traffic land border ports by December 31, 2004 and to the 
remaining ports of entry by December 31, 2005. Expanding US-VISIT to 
land ports of entry raises a multitude of issues beyond those that 
arise at airports, and presents a host of infrastructure, staffing, and 
database challenges.
    Border communities depend on the cross border flow of goods and 
people for their economic survival. For example, in 2001, $22.7 billion 
in imports and $16.1 billion in exports passed through El Paso's 
international bridges, constituting 19 percent of total trade through 
southern U.S. Customs Districts. Local El Paso economists estimate that 
between 15 and 30 percent of El Paso's retail sales are derived from 
Mexican nationals. Just in time inventory management in cross-border 
manufacturing operations requires that Mexican and Canadian suppliers 
make their deliveries to the U.S. in predictable intervals. Delays in 
these cases can translate into disasters for these communities.
    A June 1998 Senate Judiciary Committee report offers a compelling 
example of the challenges faced at our land border ports of entry. The 
report cites information from Dan Stamper, President of the Detroit 
International Bridge Co. Mr. Stamper noted that the Ambassador Bridge 
handles approximately 30,000 vehicle crossings per day. He calculated 
that, ``assum[ing] the most efficient and remarkable entry and exit 
procedures in the world [that] will take only 30 seconds per vehicle, 
and making the equally optimistic assumption that only half of the 
vehicles have to go through procedures, that would amount to an extra 
3,750 minutes of additional processing time each day.'' As he sagely 
pointed out, ``There are only 1,440 minutes a day.'' Thus, the 
implementation of Section 110 would effectively close the border.
    Unique infrastructure concerns also arise. The DMIA Task Force's 
Second Annual Report to Congress notes that in fiscal year 2002, there 
were 358 million land border entry inspections of people and 11 million 
inspections of commercial vehicles. There are over 300 ports of entry 
to the U.S. The report further states that as to current port 
infrastructure: 64 ports have less than 25 percent of the required 
space; 40 ports have between 25 and 50 percent of the required space; 
13 ports have between 50 and 75 percent of the required space; and some 
existing ports lack ``any land for expansion.''
    In addition, the high cost involved in developing an appropriate 
infrastructure also must be recognized. Along with the physical exits, 
these ports need adequate lanes, technologies, and trained officials, 
all of which costs, according to experts, more than $10 billion 
dollars. Furthermore, in contrast to airport ports of entry, land ports 
must deal with pedestrians, passenger vehicle occupants, and commercial 
vehicle occupants. Our current admissions procedures at land ports 
sheds some light on the complex environment in which US-VISIT will 
supposedly be implemented.
    Pedestrians: Currently, most pedestrian admissions are not 
recorded. When randomly checked, pedestrians are checked against IBIS 
(text-based) and the person and document are ``eye-balled'' for a 
match. The current minimum mandated IBIS check is 40 percent. The 
inspector may ask about the purpose of entry, where the person is from, 
or why he or she has been outside the U.S. This process often takes 
less than 5 seconds.
    Occasionally, inspectors may check the person's visa against the 
DOS Consular Consolidated Database (CCD), which houses a copy of the 
visa the U.S. Consulate issued to that person. This additional check 
helps to target those who use other's documentation or fraudulent 
visas. Unfortunately, CCD access is not typically available in primary 
inspection. Currently, no review done at the primary inspection area 
verifies the identity of the person through a biometric check other 
than via the human eye.
    In order for a biometric check to be done, the person is taken to a 
secondary inspection area where two fingerprints and a photograph are 
taken. The person's biographical and biometric information is run 
through the IDENT database, which then determines if this individual 
has violated immigration status. If merited, some applicants for 
admission may also be checked against the Integrated Automated 
Fingerprint Identification System (IAFIS), which is maintained by the 
FBI. This database compares all ten fingerprints of the person against 
its records. The IDENT checks typically take 5 minutes or less, and the 
IAFIS checks can take 15 to 30 minutes or more depending on a variety 
of factors.
    Most foreign nationals are required to apply for an I-94 admission 
document and pay a $6 fee upon application for entry to the U.S. The 
procedures surrounding issuing the I-94 card often result in delays. 
For example, there are often wait times of 30 minutes or more to be 
interviewed to obtain the I-94. After the interview process, the 
foreign national must go a separate location to pay the $6 fee and 
receive the I-94. Too often, the official taking the fees is 
unavailable and applicants must wait for more than 15 minutes for an I-
94 admission document to be issued. Currently, there is no exit 
inspection for pedestrians and usually no space or personnel to perform 
such an inspection.
    Passenger Vehicle Occupants: Most passenger vehicle lane checks do 
not involve checking databases against the applicant's visa. Often, 
passenger vehicle inspectors will have access to Treasury Enforcement 
Communications System (TECS), which is a database managed by legacy 
Customs. It is possible to access IBIS via a mobile TECS unit, but the 
system is not amenable to scanning documents, so data must be typed in 
manually. In addition, to access CLAIMS III for immigration status 
information, the person must be sent to secondary inspection for 
further review. Therefore, if vehicle inspectors want to conduct 
further checks on applicants, the applicants for entry must park their 
car and walk in front of oncoming lanes of vehicles to get to the 
secondary inspection area.
    Exit lanes are usually not available to allow for exit inspection. 
This fact is confirmed in the DMIA Task Force's First and Second Annual 
Report to Congress. Obviously, in the passenger vehicle context, even 
fewer IBIS checks are conducted than of pedestrians.
    Commercial Vehicle Occupants: Commercial vehicle occupants 
basically go through the same process as passenger vehicle occupants. 
However, the commercial parking lot often is far away from the 
secondary inspection area and commercial vehicle occupants must be 
escorted to secondary by a port employee. Due to inadequate staffing, 
often no staff is available to perform this function and foreign 
nationals are often left waiting for long periods of time for further 
review.
    The DHS has indicated that enrollment in US-VISIT at land ports of 
entry would occur in secondary inspection. [What DHS terms ``secondary 
inspection'' in this context, is the point at which foreign nationals 
obtain the I-94 admission card.] In order to speed processing of 
automobile traffic at the land ports, DHS is investigating the use of a 
radio frequency (RF) technology, which would transmit biographical 
information to the inspections officer. This technology would be 
similar to the SENTRI or NEXUS commuter programs implemented along the 
southern and northern border, respectively. However, RF technology does 
not resolve identity--and security-related database issues without 
either pre-clearance review of the applicant or at least text-based 
checks, as in airports upon admission. As noted by Jeane J. 
Kirkpatrick, Director--Council on Foreign Relations Independent Task 
Force on Homeland Security Imperatives, in her March 12, 2003 testimony 
before the U.S. Senate Judiciary Subcommittee on Border Security, 
Citizenship, and Immigration, ``There will never be enough inspection 
resources and it would prove self-defeating to subject every person, 
conveyance, and cargo to the same inspection regime.'' She further 
notes that the, ``inspections processes at a port of entry must be an 
exercise in risk management.''
    DHS issued a request for proposal (RFP) on November 30, 2003 for 
US-VISIT, and is now considering three primary bidders: Accenture, CSC 
and Lockheed-Martin. Award of a contract is expected by May 31, 2004.

US-VISIT_A Tool to Enhance Our Security?
    Will US-VISIT help to enhance our security? While the jury is still 
out, serious questions need to be addressed as to the achievable 
mission of US-VISIT. A June 1998 Senate Judiciary Committee Report 
(Senate Judiciary Report 105<bullet>197 on S. 1360, Border Improvement 
and Immigration Act of 1998, June 1, 1998) makes the following apt 
comment:
        The Committee is keenly aware that implementing an automated 
        entry/exit control system has absolutely nothing to do with 
        countering drug trafficking, and halting the entry of 
        terrorists into the United States, or with any other illegal 
        activity near the borders. An automated entry/exit control 
        system will at best provide information only on those who have 
        overstayed their visas. Even if a vast database of millions of 
        visa overstayers could be developed, this database will in no 
        way provide information as to which individuals might be 
        engaging in other unlawful activity. It will accordingly 
        provide no assistance in identifying terrorists, drug 
        traffickers, or other criminals. (emphasis added)

    With regard to tracking visa overstayers, the report further 
states:

        Even if a list of names and passport numbers of visa 
        overstayers would be available, there would be no information 
        as to where the individuals could be located. Even if there was 
        information at the time of entry as to where an alien was 
        expecting to go in the United States, it cannot be expected 
        that 6 or more months later the alien would be at the same 
        location. Particularly, if an alien were intending to overstay, 
        it is likely that the alien would have provided only a 
        temporary or false location as to where the alien was intending 
        to go.
    AILA has previously testified that immigration can best contribute 
to our national security by enhancing our intelligence capacities. To 
that end, AILA strongly supported the Enhanced Border Security Act. The 
goal of this law is to make our borders the last line of defense. To 
that end, it includes the following provisions: authorizes increased 
funding for the DOS and INS, requires federal agencies to coordinate 
and share information needed to identify and intercept terrorists; 
encourages the use of new technologies by authorizing funds to improve 
technology and infrastructure at INS, the Customs Service, and DOS, 
targeting much of this effort at strengthening our nation's borders; 
mandates the transmittal of advance passenger lists; and implements a 
study to determine the feasibility of a North American Perimeter Safety 
Zone. (This study includes a review of the feasibility of expanding and 
developing pre-clearance and pre-inspections programs).
    Given this law's ambitious provisions, Congress needs to step up to 
the plate and provide the federal agencies impacted with the staffing 
and funding levels they need to implement this measure's provisions, as 
well as perform adequate oversight. It is simply unacceptable for 
Congress to pass this bill and not give the federal agencies the 
funding they need to do a good job. It is also unacceptable for the 
agencies not to implement the mandates of this law.

    Recommendations: Based on the above discussion and in order to 
implement feasible security objectives without seriously harming the 
international and cross border flow of trade and people, we submit the 
following recommendations:

Realistic Assessment of the US-VISIT Program's Capabilities
    1. Determine the limits of US-VISIT: Congress and the DHS must 
step-back and determine the program's true capabilities and assess the 
feasibility of every aspect of the program while US-VISIT is still in 
its infancy. The 1998 Senate report on the entry/exit program 
challenges the notion that an entry/exit system can be used as a tool 
to prevent terrorism. If that is true, Congress must determine it now 
rather than after billions of US tax dollars have been spent. If the 
mission of US-VISIT is instead to catch visa overstayers and those with 
a criminal record, the mission should be clarified. On the issue of 
national security, a false sense of security is a failure.
    2. Develop a comprehensive plan for US-VISIT: The Administration 
and Congress should use the above assessments to develop a 
comprehensive plan for US-VISIT that takes into account the achievable 
goals of the program, necessary funding levels, infrastructure needs, 
and appropriate deadlines.
    3. Do not use US-VISIT as a substitute for increasing our 
intelligence capacity: Security experts agree that our national 
security is best enhanced by increasing intelligence and database 
security checks performed outside the country. DHS should examine ways 
to expand the use of pre-inspection stations and authorize pre-
clearances for low-risk travelers. By clearing travelers before their 
voyage to the United States, inspectors will have more face time with 
applicants and could better scrutinize each applicant for entry. Such 
practices would reduce delays at the border and allow inspectors more 
time to do their job. Pre-clearances also would provide international 
travelers with a sense of certainty that they will be admitted into the 
U.S.
    4. Ensure US-VISIT receives the billions of dollars necessary for 
adequate implementation: Congress must be prepared to spend the money 
necessary to properly implement US-VISIT to achieve its mission. In 
addition, Congress must conduct continual oversight to determine if US-
VISIT objectives are being met due to the alleged security importance 
of the project. According to the DMIA Task Force's first report to 
Congress, the U.S. government needs to appropriate billions of dollars 
to purchase real estate, upgrade facilities, develop infrastructure and 
technological capabilities, and hire inspectors to manage the entry/
exit program. With a preliminary estimated price tag of billions of 
dollars, the $380 million appropriated in FY 2003 was grossly 
insufficient to fund even the beginnings of this system. Without 
sufficient funding, US-VISIT will not operate properly and will impede 
the flow of the people and trade essential to our economic well being.

Database Recommendations
    1. Make enforcement databases accurate: The concept of a watch list 
database is dependent on accurate information. There must be 
accountability to ensure accuracy. In addition, all public inquiries 
concerning enforcement-related database entries should be consolidated. 
The general public should be able to contact a central office to timely 
remove inaccurate information so as to avoid the continuation of 
injustices tied to the dissemination and provision of any inaccurate 
information.
    2. Increase the interoperability of database systems: DHS should 
prioritize its efforts to increase the interoperability of the database 
systems to give inspectors a more thorough and streamlined review of 
each applicant requesting entry into the U.S. Currently, the separate 
databases from the three immigration bureaus have not been fully 
integrated into US-VISIT. Due to this lack of information transfer, 
visitors who have applied for visa extensions might be detained for 
overstaying their visas, when in reality; they had maintained proper 
visa status. Having complete and correct information will make the 
difference between having a workable secure system or a discredited 
inefficient one.
    3. Increase funding and oversight for IDENT to ensure that it is 
efficient, reliable and accurate: Currently IDENT checks are being run 
at the time of US-VISIT enrollment at the U.S. Consulates (thereby 
delaying visa processing for each applicant by roughly three days in 
some cases) and are run at the ports of entry after the foreign 
national has entered the U.S. With the current IDENT processing times 
and infrastructure capacities at the ports of entry, it would be 
impossible to conduct IDENT checks upon admission without shutting down 
the borders. Congress and DHS must determine if IDENT can be modified 
so that checks can be done at the time of admission and then commit 
funding to making that happen. If it is not possible, Congress must 
understand that US-VISIT does not enhance our security checks through 
the use of a biometric security database check upon admission. Instead, 
US-VISIT runs a text-based security database check at the time of 
admission and creates a catalog of established identities for foreign 
nationals who have enrolled in the program.
    4. Develop a biometric US-VISIT database: Currently, the biometrics 
and biographical data of foreign nationals enrolled into US-VISIT is 
warehoused within the IDENT biometric database. By lumping US-VISIT 
enrollees in with criminals, we are sending the message that immigrants 
are criminals. Furthermore, commingling these two groups makes it more 
likely that errors will occur within the database and innocent 
travelers will be denied entry into the U.S.

Infrastructure & Staffing Needs
    1. Don't implement US-VISIT until an adequate infrastructure 
assessment is done and put into place: The procedures for port 
enrollment in VISIT versus consular post enrollment do not mirror one 
another from a security review perspective. The reason for this 
dichotomy is based on logistical limitations. Reassess the use of IDENT 
checks and consider applying them only to higher risk segments of the 
population. Currently, the only ``low-risk'' populations identified are 
those under 14 or over 79. This method of exemption appears overbroad. 
Exemption from the IDENT check and US-VISIT enrollment should be based 
on intelligence, not stereotypes.
    2. Realistically assess the staffing and infrastructure necessary 
to implement US-VISIT: Such an assessment would involve answering many 
questions including: How many ports have scanners, which read 
passports, laser visas, etc. at commercial, passenger vehicle and 
pedestrian lanes? What is the current level of overtime at the ports? 
What are the processing times for I-94, immigrant visa processing, and 
other adjudications before deciding the impact on our tourism and trade 
of US-VISIT requirements?
    3. Delay implementation at land border until an adequate 
infrastructure is in place: The Border Security Act requires that DHS 
not impede the flow of goods and people across our nation's borders. 
Considering that the U.S. has over 300 ports of entry and, in 2001, 
over 510 million people entered the U.S. (63 percent of whom were 
foreign nationals) and over $1.35 trillion in imports entered the U.S., 
the potential devastating effect of delay at the land ports of entry 
becomes clear. Furthermore, such delays would undermine the entire 
effort to maintain an efficient border, and efficiency is a vital 
component in increasing security.
    4. Clearly define what constitutes an exit and allow for 
flexibility in compliance with the exit requirements in the early 
stages of US-VISIT: At this time, the airport and seaport exit 
functions of US-VISIT are being piloted. DHS is testing an exit kiosk, 
but it has also indicated that it will test handheld exit devices. DHS 
must clearly define what constitutes an exit and ensure that the exit 
function is clearly marked and cannot be ignored by an oblivious 
foreign national. In addition, the government should clarify that the 
negative consequences of those failing to properly exit during the 
first few years of US-VISIT will only be applied to willful violators. 
At land ports the lack of infrastructure makes it necessary to think 
creatively about exit control (such as allowing frequent travelers to 
skip the exit requirements since their multiple entries will verify 
that they previously departed the U.S. in a timely fashion) or possibly 
abandon exit controls there all together unless funding is allocated to 
the infrastructure and personnel investment required.

Operational Assistance
    1. DHS must increase its outreach to the public concerning US-
VISIT: DHS must inform US-VISIT enrollees of the program's 
requirements, and information must be widely disseminated and presented 
in a timely manner. Without adequate public notice on how to comply 
with these new US-VISIT requirements, the program will not operate 
properly and will impede the flow of people who are essential to our 
economic well being.
    2. Give US-VISIT enrollees a receipt and issue regulations allowing 
leeway during the program's infancy: Without giving US-VISIT enrollees 
physical proof of their entry and exit into US-VISIT, enrollees will 
have no way to rebut system errors or to identify informational 
mistakes inputted into the system. Additionally, during US-VISIT's 
infancy, enrollees are facing much uncertainty regarding their 
responsibilities under this program. A grace period for exit control 
compliance and alternative methods by which visa holders may comply 
with exit control without penalty are necessary to ensure that innocent 
travelers are not unfairly penalized by US-VISIT.
    3. Limit the US-VISIT process for our Mexican neighbors who hold 
laser visas: Only require US-VISIT compliance for laser visa holders 
when they would need an I-94 for admission. Do not require these 
frequent travelers to enroll or be tracked by US-VISIT when they do not 
go beyond 25 miles from the border (75 miles in Arizona) or remain in 
the U.S. over 72 hours. The laser visa biometric database maintained by 
State should be integrated into the US-VISIT biometric database. This 
merger would update the US-VISIT database for all laser visa holders 
without subjecting each laser visa holder to an initial US-VISIT 
enrollment. Still apply random IBIS checks for security updates.

General Recommendations
    Our nation's ports of entry are complex environments into which US-
VISIT has been thrust. The following recommendations will help provide 
order and accountability to that complex environment, thereby creating 
a more stable foundation upon which US-VISIT can be built.
    1. Establish an immigration specialist position at the ports of 
entry: It is important that immigration specialists be designated and 
accessible to apply our immigration laws. For consistency and accurate 
applications of our complex immigration laws, the decisions of these 
specialists should be directed and coordinated by immigration counsel 
within the office of the DHS General Counsel. Such legal counsel must 
be coordinated with benefit-related adjudications housed in United 
States Citizenship and Immigration Services (USCIS) and enforcement 
policy and procedures applied by United States Immigration and Customs 
Enforcement (ICE).
    2. Don't conduct redundant security checks: Many border residents 
cross the international border several times per day. It is critical to 
integrate existing voluntary frequent traveler programs so that 
enrollment in one provides a uniform access process at all our ports of 
entry. There should be one consistent enrollment process for air, land, 
and sea admissions. The Application Support Centers in the U.S. could 
help facilitate the process for those already here to enroll in such 
programs by providing biometrics. The former U.S. Customs Service 
created the C-TPAT program, which is a joint government-business 
initiative to build cooperative relationships that strengthen overall 
supply chain and border security. Why not allow and encourage employees 
of qualifying employers to enroll in frequent traveler programs as 
well? In addition, the NEXUS and SENTRI programs should merge and 
become the same uniform process. Why not allow such enrollment 
eventually at consular posts overseas as well? These actions require 
major funding and staffing, and yet they improve security and reduce 
congestion at our ports.
    3. Access to counsel: Title 8 to the Code of Federal Regulations 
was modified to restrict access to counsel at ports of entry based on 
the law in existence at the time, which did not provide for expedited 
removal at ports of entry with no right to any administrative review. 
One of the bases cited for the ability to restrict such access was 
administrative remedy. When the law was changed to allow expedited 
removal from the U.S., no correction was made to the regulations. 
Legacy Customs has long allowed access to legal representation at ports 
of entry to deal with issues arising concerning the admission of goods. 
For example, the ability to contact a fines, penalties, and forfeitures 
officer to work on the release of goods held for some reason from 
import to the U.S. Such a practice should be extended to foreign 
nationals visiting our country. Just put yourself in their place 
applying for admission to a foreign country. Would a U.S. citizen want 
to be denied access to counsel or even an embassy representative due to 
some misunderstanding or error at a foreign port of entry? If the 
Golden Rule was ever needed, it is at our ports.
    4. Place cameras at the ports of entry: Cameras have been used 
successfully at many ports to record the behavior and statements of the 
applicant and the officer. Inspections supervisors have praised the 
tool from a personnel perspective and embassies and applicants for 
admission have benefited from the recordings of this silent and 
objective witness. In addition, in some cases, these cameras could also 
implement cutting edge facial recognition technology to assist 
inspectors. These cameras should be installed at least in all secondary 
inspection areas.
    5. Equal benefits and treatment and the development of a DHS 
culture: In order to ensure that CBP functions properly, it must 
develop its own unique culture in which immigration, agriculture, and 
customs functions are treated with equal respect. In addition, a 
continuing education component focusing on security and legal issues 
must be linked to pay increases and advancement to improve the quality 
of those guarding and applying the laws at our ports.
    6. Rethink the I-94 card: I-94 cards and I-94W cards for visa 
waiver applicants have never been secure documents, and there are a 
myriad of ways to make these documents both more secure and more 
efficiently distributed: issue I-94 cards with the approval notices for 
initial grants of nonimmigrant work related visas; for business visitor 
or tourists (B-1/B-2), tie the admission date stamped in the passport 
to a default admission period (such precedent already exists in the 90-
day admission period under the Visa Waiver Program, and the prior 
typical default admission period of six months for tourist admissions); 
allow business visitors and tourists to apply for their admission 
document via the internet before their travel and confirm identity upon 
admission. In addition to these possibilities for issuing the I-94 
card, fees for the card should never have to be collected by personnel. 
Instead, metro/subway type toll collection machines could be utilized, 
which would also result in decreased need for personnel oversight on 
collection issues.

    Ms. Granger. Mr. Carlton?

STATEMENT OF DENNIS CARLTON, DIRECTOR OF WASHINGTON OPERATIONS, 
               INTERNATIONAL BIOMETRIC GROUP, LLC

    Mr. Carlton. I would like to thank the committee for the 
opportunity to address you. I am Dennis Carlton. I am the 
director of Washington operations for International Biometric 
Group. On behalf of our company, I would like to talk to you 
today about biometrics in the U.S. border management system.
    Let me begin with a brief description of International 
Biometric Group, so you better understand who we are and our 
unique position in the world of biometrics.
    IBG provides independent consulting services to government 
and private industry customers interested in implementing 
biometric technologies. We take a practical, hands-on approach 
toward biometrics, having tested more than 50 different 
biometric solutions over the past five years, so we know how 
they are likely to perform in the real world.
    IBG holds to a strict vendor-neutral policy, which enables 
us to maintain close relationships with biometrics vendors 
while ensuring our clients receive accurate and independent 
advice on which biometric systems can best meet their needs.
    One year ago, IBG delivered a report to the White House 
Office of Science and Technology Policy entitled ``The Use of 
Biometric Technologies in the United States Visa Issuance and 
Border Entry-Exit Systems.'' I was the principal investigator 
and author of this report.
    In conducting research for this study, we visited several 
U.S. consulates around the world, as well as American sea, air 
and land ports of entry.
    The OSTP report is a no-holds-barred look at the practical 
challenges of implementing biometrics in the field, both at 
consulates and at ports of entry.
    IBG's report to the OSTP highlighted several issues related 
to integrating biometrics within US-VISIT that are worthy of 
re-emphasis before this committee. Biometrics should be 
implemented in a manner that augments, rather than replaces, 
existing border management I.T. systems. Biometrics alone 
cannot replace the professional judgment of experienced border 
management personnel.
    The system also must be designed with an eye toward 
continuing technology refreshment. The life cycle of biometric 
products turns over at least as fast as other I.T. components.
    The government must invest in continuing research and 
development into improving biometric products. In the past few 
years, there has been an explosion in new biometric 
technologies being introduced into the marketplace, many of 
which warrant the nurture of federal government.
    The success of any biometric solution depends in great 
measure on its stakeholders establishing realistic performance 
expectations for the system. And given its unprecedented scale 
and visibility, this will be especially true of US-VISIT.
    Stakeholders need to have practical expectations as to the 
performance of biometric technologies. The current generation 
of biometric systems is not 100 percent accurate, but 
biometrics don't need to be perfect in order to enhance border 
security.
    The mere presence of a device can positively link an 
individual with the documentation that they carry. And this 
will serve as a deterrent to many impostors.
    In addition, the system design must incorporate a 
comprehensive security and privacy architecture. Good security 
and privacy practices are not antithetical and can both be 
accommodated in US-VISIT. Biometrics themselves are privacy 
neutral. It is the way they are employed and the protections 
put in place to limit misuse that makes biometrics either 
privacy invasive or privacy protective.
    What is essential is that individuals are fully informed on 
how their biometric data is collected, used, shared and 
secured.
    The advent of US-VISIT and biometric technologies at U.S. 
ports of entry need not result in delay and inefficiency. There 
are several means for mitigating the impacts of these changes.
    First, border management solutions must be prepared to 
accommodate multiple forms of biometric technologies. Although 
the International Civil Aviation Organization has specified 
facial recognition as the universal biometric for securing 
machine-readable travel documentation, the U.S. will continue 
to leverage its investment in fingerprint databases to identify 
travelers who might pose a security threat.
    A universal biometric solution is not necessary in order to 
achieve a secure border management solution, so long as 
countries agree to provide one another with the ability to 
decode and match the specific biometric data associated with 
the travel document.
    Secondly, although the challenge of implementing biometric 
identification at land ports of entry is daunting, it is not 
insurmountable. IBG believes that portable fingerprint reading 
devices can be employed to match the index fingers of 
passengers in a vehicle with the travel documents that they 
carry.
    The capture of fingerprints must take place upstream from 
the primary inspection station, so that a biometric search can 
be completed before the vehicle reaches the primary inspection 
position. In this way, the biometric search does not impact the 
overall primary inspection time, and the primary inspector is 
not distracted from conducting a thorough assessment of the 
vehicle, its occupants and its contents.
    At exit points from the U.S., the government should provide 
a self-service kiosk type of solution that would allow an 
exiting U.S. citizen a means for self-enrollment of their 
travel-related documentation and biometrics.
    In exchange for taking the time to scan an identity 
document and provide a biometric sample, the citizen would be 
entitled to use a type of blue lane that would offer expedited 
processing upon their return to the U.S.
    And finally, we should expect that most problems associated 
with biometrically secured travel documents would be of an 
innocent or inadvertent nature, rather than a fraud attempt.
    The U.S. should provide travelers with a real-time problem 
resolution solution, such as a phone number or e-mail address, 
where they can immediately reach someone in an ombudsman-like 
role who can begin the process of resolving the travel 
documentation problem.
    I will finish my remarks here and answer your questions.
    [The statement of Mr. Carlton follows:]

                  Prepared Statement of Dennis Carlton

    My name is Dennis Carlton and I am the Director of Washington 
Operations for International Biometric Group of New York City. On 
behalf of our company, I'd like to thank the committee for the 
opportunity to talk to you about the technology called biometrics and 
some of the likely the issues associated with introducing biometrics 
into the border management system.
    Let me begin with a brief description of International Biometric 
Group so that you better understand who we are and our unique position 
in the world of biometrics. International Biometric Group, or IBG, 
provides independent consulting services to government and private 
industry customers interested in implementing biometric technologies. 
Our organization focuses on three primary functions: (1) evaluating and 
reporting on biometric products and vendors, as well as the markets in 
which they compete, (2) advising clients on how to implement biometric 
systems, and (3) integrating a wide range of biometric hardware and 
software to meet the security needs of our customers. We take a 
practical, hands-on approach toward biometrics. We have conducted 
extensive comparative performance testing of more than fifty different 
biometric solutions so that we know how they're likely to perform in 
the real world. IBG holds to a strict vendor-neutral policy, which 
enables us to maintain close relationships with biometrics vendors 
while ensuring that our clients receive accurate and independent advice 
on which biometric systems can best meet their needs.
    I'd like to take a moment to review some of the basics of 
biometrics. A technical definition of biometrics is the automated 
measurement of behavioral or physiological characteristics of a human 
being to determine or authenticate their identity. In other words, it's 
the use of computers to confirm who a person is by matching a behavior 
or a permanent physical characteristic with similar records in a 
database. Biometrics alone can't determine an individual's identity but 
they can effectively distinguish one person from another. There is a 
wide range of products in the market that can acquire and match a 
person's biometric data to perform a quick and accurate identification. 
With respect to border management, the U.S. has focused its attention 
on fingerprint matching and facial recognition biometrics, although 
other biometrics such as iris recognition, hand geometry, and speaker 
authentication technologies are also being assessed.
    One year ago, IBG delivered a report to the White House Office of 
Science and Technology Policy entitled ``Use of Biometric Technologies 
in the United States Visa Issuance and Border Entry/Exit Systems''. I 
was the principal investigator and author of this report, a summary of 
which has been included in the material provided to committee members. 
In conducting research for this study we visited several U.S. 
consulates around the world as well as American sea, air and land ports 
of entry. The OSTP sought a no-holds-barred look at the practical 
challenges of implementing biometrics in the field both at consulates 
and ports of entry--I like to think we accomplished that goal. From the 
OSTP research and our subsequent participation in several ongoing 
initiatives involving biometrics and international travel security, IBG 
has gained significant insight into the integration, performance, and 
workflow challenges associated with implementing biometrics within US-
VISIT and our border management system.
    IBG's report to the OSTP highlighted several issues related to 
integrating biometrics within US-VISIT worthy of reemphasis before this 
committee:

        <bullet> Biometrics should be implemented in a manner that 
        augments rather than replaces existing border management IT 
        systems. The fact that an individual matches the biometric 
        associated with a travel document does not ensure that the 
        individual qualifies for admission to the United States. 
        Biometrics alone cannot replace the professional judgment of 
        experienced border management personnel.
        <bullet> Since the current generation of biometric technologies 
        is not 100 percent accurate, a seamless exception handling 
        process must be incorporated throughout the design of the 
        system.
        <bullet> The system also must be designed with an eye toward 
        continuing technology refreshment. The lifecycle of biometric 
        products turns over at least as fast as other IT components--
        US-VISIT should be designed with seamless transitions to newer, 
        more accurate solutions in mind.
        <bullet> The government must invest in continuing research and 
        development into improving biometric products. The centennial 
        of the Wright Brothers first powered flight serves as a 
        reminder that significant innovations may come from unlikely 
        sources. In the past few years there has been an explosion of 
        new biometric technologies being introduced into the 
        marketplace, many of which warrant the nurture of the federal 
        government. In addition to financial support, the federal 
        government may need to approve regulatory and legislative 
        changes to authorize the development of databases that can be 
        used to test the effectiveness of new biometric solutions.
    The success of any biometric solution depends in great measure on 
its stakeholders establishing realistic performance expectations for 
the system; given its unprecedented scale and visibility, this will be 
especially true of the US-VISIT system. Among the key performance 
considerations are:

        <bullet> Stakeholders need to have practical expectations as to 
        the performance of biometric technologies. The current 
        generation of biometric systems is not 100 percent accurate but 
        biometrics don't need to be perfect in order to enhance border 
        security. The mere presence of a device that can positively 
        link an individual with the documentation they carry will serve 
        as a deterrent to many impostors. Border inspection personnel 
        use their professional judgment to resolve exception situations 
        every day; biometrics problems can be resolved in much the same 
        manner as any other identification document discrepancy.
        <bullet> The system design must incorporate a comprehensive 
        security and privacy architecture. Good security and privacy 
        practices are not antithetical and can both be accommodated in 
        US-VISIT. Biometrics themselves are privacy neutral--it's the 
        way they are employed, and the protections put in place to 
        limit misuse, that make biometrics either privacy-invasive or 
        privacy-protective. What is essential is that individuals are 
        fully informed on how their data is collected, used, shared, 
        and secured. For more information about biometrics and privacy 
        I commend to you an IBG-sponsored website dedicated exclusively 
        to the subject, www.BioPrivacy.org.
        <bullet> Reaching a consensus with our international partners 
        on privacy policy will be difficult because of significant 
        differences in our privacy expectations. In general, while 
        Americans often don't hesitate to provide personal data in 
        exchange for commercial benefits but frequently oppose sharing 
        such data with government, their counterparts in Europe and 
        Asia view cooperation with their government as a duty of 
        citizens in a civil society but don't feel similarly compelled 
        to provide personal data to commercial concerns. For the time 
        being, some parties have staked out extreme positions. 
        Compromise will mostly likely be achieved when views converge 
        toward a standard that defines a minimal exchange of a 
        traveler's personal or biometric data to effect efficient 
        commerce between governments.
    The advent of US-VISIT and biometric technologies will certainly 
alter the primary and secondary inspections processes at U.S. ports of 
entry but these changes need not result in delay and inefficiency. Some 
of the measures that can be taken to reduce the impacts caused by these 
changes include:

        <bullet> U.S. border management solutions must be designed to 
        accommodate multiple forms of biometric technologies. Although 
        the International Civil Aviation Organization has specified 
        that facial recognition is the universal biometric to secure 
        machine-readable travel documentation, the U.S. will continue 
        to leverage its investment in fingerprint databases to identify 
        travelers who might pose a security threat. A universal 
        biometric solution is not necessary in order to achieve a 
        secure border management solution so long as countries agree to 
        provide one another with the software necessary to decode and 
        match the specific biometric data associated with a travel 
        document--this approach would allow Visa Waiver Program 
        participating countries to confirm the identity of one 
        another's citizens. A travel document that is secured by 
        multiple forms of biometric technologies would significantly 
        complicate the job of a forger or impostor. Eventually the U.S. 
        will need to employ biometrics to secure the travel documents 
        it issues its own citizens or risk having a U.S. passport 
        become the document of choice for fraudsters or terrorists 
        seeking to avoid being exposed by biometric identification.
        <bullet> The challenge of implementing biometric identification 
        at land ports of entry is daunting but not insurmountable. IBG 
        believes that portable fingerprint reading devices can be 
        employed to capture images of the index fingers of all 
        passengers in a vehicle in order to authenticate them with the 
        travel documentation they carry and to check against watch 
        lists of undesirable individuals. The capture of fingerprints 
        must take place `upstream' from the primary inspection station 
        so that a biometric search can be conducted before the vehicle 
        reaches the primary inspection position. In this way, the 
        biometric search does not impact the overall primary inspection 
        time and the primary inspector is not distracted from 
        conducting a thorough assessment of the vehicle, its occupants, 
        and its contents.
        <bullet> At exit points or other U.S. government service 
        centers such as post offices, the government should provide a 
        self-service kiosk that will allow exiting U.S. citizens a 
        means for self-enrollment of their travel-related documentation 
        and biometrics. In exchange for taking the time to scan their 
        identity documentation (e.g., driver's license, passport, etc.) 
        and providing a biometric sample, the U.S. citizen could use a 
        `Blue Lane' that would offer expedited processing when 
        returning. The success of solutions like the SENTRI system on 
        the U.S.-Mexico border and the U.S.-Canadian cooperative 
        program called NEXUS shows that both U.S. and foreign citizens 
        are willing to provide personal and biometric data to the 
        government in exchange for the very tangible benefit of 
        expedited border crossing. If they become widely used, these 
        solutions could help make a dent in the rise in identity theft 
        crimes by making it much more difficult for an identity thief 
        to travel internationally on a stolen U.S. identity document.
        <bullet> We should expect that most problems associated with 
        biometrically secured travel documents would be of an innocent 
        or inadvertent nature rather than a fraud attempt. It won't be 
        a sufficient solution to just turn away at an airline counter 
        or border post a traveler who has a problem matching a 
        biometric sample with a travel document. The U.S. should 
        provide travelers with a real-time problem resolution 
        solution--a phone number or email address where they can 
        immediately reach someone in an ombudsman-like role who can 
        begin the process of resolving their travel documentation 
        problems.
    In summary, biometrics will play an increasingly important role in 
enhancing the integrity of U.S. border management systems. With clear 
guidelines and careful compliance with the rules of how, when, and 
where biometrics will be collected and employed, these tools can 
improve border security while at the same time protect the privacy and 
dignity of the legitimate traveler.
    I look forward to responding to the committee's questions.

    Ms. Granger. Thank you.
    We will now go to questions. We will adhere to the five-
minute rule, including my questions.
    I will start with Mr. Carlton first.
    You talked about the concern about mistaken or inadvertent 
biometric identity mismatches. How would you propose to best 
address those occurrences, especially from the perspective of 
safeguarding privacy?
    Mr. Carlton. Right now, the current border processes handle 
that on a daily basis. There was earlier discussion about 
common names--if a name of John Smith is entered into a text 
database, you get all kinds of John Smith responses back. Some 
of them may be wanted criminals. But it doesn't mean that you 
push the button to bring in the SWAT team immediately because 
there is a namecheck match.
    The same thing would happen with a biometric search. From 
the data I have heard so far from the folks at DHS, they have 
been able to clear false matches of their current system in 
about a minute--just over a minute right now. So they have 
actually been able to resolve problems very quickly, even when 
there is a biometric mismatch.
    Ms. Granger. Thank you.
    Ms. Campbell Walker, in your written testimony, you mention 
that travelers going through primary don't have their biometric 
data checked through IDENT prior to their admittance to the 
country. That is in your written testimony.
    But the panel that we had made it very clear that the US-
VISIT has provided primary inspectors with the new mission 
capabilities allowing them to do immediate IDENT verifications.
    Do you have an inside question about that?
    Ms. Campbell Walker. Thank you.
    Yes, I do, and thank you for the opportunity to address it, 
because it is a very--well, to me it is--a very complex issue 
in trying to figure out how to relay this information to the 
panel.
    The IDENT check pre-US-VISIT is a check of legacy INS 
database. And it is a database of recidivist people who were 
caught by Border Patrol and then brought back, trying to make 
sure that you had a record so if they came back again, you 
would know that they did this before, and then a look-out 
database.
    And what happens right now, is that if you are going to be 
checked in IDENT, at where we are, you go into secondary and 
they have an average of a three to five minute response time. 
That is a full IDENT check, where it is a biometric check 
against the full IDENT biometric database.
    My understanding is that that same full biometric database 
is being conducted by the Department of State in US-VISIT 
enrollment abroad at our consular post. And Ms. Harty just 
mentioned that it was seven to eight minute time frame for the 
Department of State.
    And now, let's compare it to the story about the enrollment 
process for US-VISIT at our ports of entry, and here is where I 
have a basic disconnect. Three to five minutes, seven to eight 
minutes, 15 seconds.
    When I asked the question to various port directors in 
different states, what I am being told is that, yes, there is 
an IDENT check, because, remember that when they are enrolled, 
they go into the US-VISIT database as a part of IDENT, so the 
identity is being confirmed. But the full IDENT check that we 
all know and respect is not able to be conducted in a timely 
manner, in 10 to 15 seconds.
    So there is a modified version of it that they run the data 
against, so that the time frame is shorter.
    So, yes, I see in some ways that we have got an identity 
check being conducted. But they are still basing the primary 
watch list on the text check, so it is not the same thing. We 
are not comparing it apple to an apple.
    Ms. Granger. Thank you.
    That is all the questions I have.
    They are going to the IDENT in the State Department, 
overseas, that is right. The question is the 15 seconds and 
what that--it is confirming the identity, is that right?
    We will have more information on that in the report.
    Ms. Sanchez?
    Ms. Loretta Sanchez of California. Thank you, Madam Chair.
    Ms. Walker, I have several questions for you.
    First of all, how would you characterize the US-VISIT 
program? What I mean by that, we conceived it to be an entry-
exit system, predominantly to catch people with overstayed 
visas, et cetera. Now it is more of a security tool.
    What do you think are its positives and its negatives as an 
immigration tool and as a security tool, given the years of 
experience you have had in El Paso in particular?
    Ms. Campbell Walker. From a positive perspective, it 
definitely--if you are able to confirm someone's identity 
timely, that is a positive thing. Definitely, if one is able to 
run theoretically these IBIS text-based checks. The litany of 
examples given by Undersecretary Hutchinson were very 
instructive, and also the examples regarding Assistant 
Secretary Harty.
    But the class check, when it was being done, before US-
VISIT, would have brought up these examples that we are talking 
about. Also the IBIS check would have brought up some of these 
examples that we are talking about, if they were in the 
database.
    The patina being placed on this scenario by US-VISIT is the 
possibility of identity verification, a great positive.
    But let's face the situation: Once they are admitted and 
they are in overstay, we don't have sufficient interior 
enforcement to deal with it as it stands, to be able to follow 
up on this.
    There are several facets of this that we need to address to 
make US-VISIT even have a possibility of success.
    From a terrorist perspective, I am sorry, I still think we 
have a very limited number of terrorist fingerprints that we 
can run against, and we are not able to do that quick biometric 
check against the full IDENT database now.
    And I wanted to address a very quick point that Madam 
Chair, Ms. Granger, mentioned earlier, on this IDENT issue and 
IAFIS. And I hope that our biometric expert will speak in a 
moment about that point.
    IDENT and IAFIS, they are not fully integrated. There have 
been several reports to that effect and the fact that we don't 
have sufficient funding to allow said integration. That is a 
critical component to eventually allow for further database 
review.
    Ms. Loretta Sanchez of California. Thank you.
    You know, looking at this Phase 1, it has been pretty 
successful, the implementation and the agencies getting this 
all up. I think it is a decent start of where we are.
    But I am really taking a look at the fact that we are 
strained with respect to personnel and the resources just to 
get that first phase. Now we are looking at Phase 2, Phase 3, 
we are talking about land borders. What are your concerns, 
knowing what you do, especially on the land border situation, 
at the enormity--I mean, what are the lessons learned or what 
do we have to watch out for, in particular with respect to 
resources, to get this implemented elsewhere?
    Ms. Campbell Walker. There is a great provision in the 
second annual report of the Data Management Improvement Act 
task force, report to the Congress, reflecting right now the 
challenges at land borders, just in infrastructure and physical 
facility alone.
    I will try to remember this off the top of my head, they 
indicate that there are several ports that have absolutely no 
additional infrastructure to allow for expansion. This is 
important if we are going to try to deal with exit at all and 
for that matter increase the level of staffing necessary to do 
these biometric checks of people coming in.
    They have a chart showing that maybe 60 of them only have a 
20 percent expansion capacity.
    And already I believe Jim Williams has been quoted in the 
paper indicating that he is concerned about the ability to 
implement US-VISIT timely at land borders.
    We don't have people for exit; we don't have land and 
infrastructure; we don't have scanners; we don't have--people 
right now, if you want to look at overtime that is being logged 
in and paid by the government right now, just implementing our 
current systems, it is out the window.
    Plus people are leaving in droves because of the level of 
stress they are put under and the demands placed upon them 
right now.
    These are incredibly difficult jobs these people are 
carrying out, and they need support. And we just don't have the 
capacity to do this in the time frame necessary.
    Ms. Loretta Sanchez of California. Only 5 percent of the 
people who are crossing our land borders actually are using 
some type of visa. I know when I cross and they just kind of 
look at me and they wave me on or what have you. I mean, what 
does that signify with respect to trying to really figure out 
who is coming in and who is going out under these phased 
implementations to the program?
    Ms. Campbell Walker. Well, let's face it, right now, I 
mean, U.S. citizens are one of the least well documented, and 
Mexican citizens are one of the best documented. Mexican 
citizens--those who have laser visas--have a document that has 
a biometric embedded in it with two prints and the digitized 
photograph that is the basis for US-VISIT going forward.
    We are not even able to merge that database with the IDENT 
database right now, so that we don't have to enroll Mexican 
citizens as they come across. The idea that every Mexican 
citizen, when right now it is less than 5 second coming in, is 
going to be two-printed and it is going to be 10 to 15 seconds, 
it is quick to see what we are going to deal with as far as 
time frames and backups on doing it.
    It makes sense to deal with risk management at this point. 
And why can't we go ahead and merge those databases and give 
some relief to at least our Mexican neighbors as we are doing 
to our Canadian neighbors to the north?
    Ms. Loretta Sanchez of California. Thank you.
    Ms. Granger. I now recognize Representative Turner for five 
minutes.
    Mr. Turner. Ms. Walker, I want to thank you for sounding 
the alarm for us, because I completely agree with you. I think 
we are ill-equipped and ill-prepared to be able to efficiently 
and effectively implement US-VISIT at our land borders. And I 
hope that this committee in a bipartisan way will call upon the 
Department of Homeland Security to do the necessary analysis to 
submit to the Congress what the needs are in terms of 
personnel, infrastructure, data integration, in order to be 
able to successfully implement US-VISIT at our land border 
crossings without creating a crisis.
    And it will be a crisis for many of our border communities 
if we fail to provide the necessary support. And to my 
knowledge, to date I have not seen--and I don't think the 
department has prepared--a plan that would lay out for us what 
the true cost of effective implementation of US-VISIT less than 
one year from now should be in order to carry it out in an 
effective way.
    And so, we have got to do that. As you said, it is a 
reality check.
    And I was interested, you made mention of the deployment of 
1,000 biometric scanners, and I don't know that you got to 
expand upon that, about how inadequate that actually is. But I 
would invite you to kind of talk about that, as one example of 
how far we have to go.
    Ms. Campbell Walker. Well, for me it is easiest just to 
take a home example, so if you will indulge me, let me just try 
to do that.
    One of our major ports of entry is the Bridge of the 
Americas. We have anywhere between four to six pedestrian lanes 
there and then we have the Paso del Norte Bridge, where there 
is maybe five to six pedestrian. And then you have maybe 10--
and they are trying to up it to 24 lanes--of passenger vehicle 
traffic. And then we have at just the one, Bridge of the 
Americas, and then there is the other 10 at the Paso del Norte 
Bridge.
    So there is no way that 1,000 is going to cut it. And so, 
right now, the only thing they have right now at a passenger 
vehicle lane is that I have a mobile text unit, which is that 
legacy Customs-based system in which I type in to hook into the 
IBIS check on someone.
    But you don't IBIS check everyone in a passenger vehicle 
lane.
    And in fact, post-9/11, what happened was that they pushed 
IBIS inspection percentages higher on pedestrians. So as our 
pedestrian lanes bumped back because of the slowdown, people 
got in cars.
    Well, it doesn't take a rocket scientist, if you are a 
really savvy terrorist, indeed if we are talking terrorism 
here, to say, well, okay, if get on wheels versus walk across, 
then, okay, the percentage is going to be less that I may get 
caught. It is just mindboggling.
    So what I am just hoping is that there is a realistic 
assessment of where we are. The questions need to be asked: How 
many lanes do you have? How much overtime do you have? How long 
does it take you to get the checks?
    Right now, in mobile text, what information can you 
get?which I am pretty clear about that right now. And how long 
is it going to take you and what is the implementation schedule 
necessary to be able to accomplish ``X'' goals?
    And I think we just had a recent GAO report stating that 
Department of Homeland Security doesn't know how much it is 
going to take to get some of these things done.
    So it is a logical response.
    It is a hard time frame to get this done. Heck, it has been 
going on for seven years, trying to figure out how to implement 
this. How are they supposed to do it in a matter of a few 
months?
    Mr. Turner. Thank you, Ms. Walker.
    Ms. Granger. The chair recognizes Mr. Dicks.
    Mr. Dicks. I want to compliment the panel on their 
testimony.
    Mr. Carlton, tell us about 10 fingers versus two fingers--
and I know you know the answer. Explain this. I think with the 
IDENT system and the IAFIS system there is an example of flat 
fingerprinting versus rolled. And because of the difference in 
the two, there was a 40 percent discrepancy. Is that not 
correct?
    Mr. Carlton. I don't have the exact data, but let me try 
and?
    Mr. Dicks. Explain it for us. I think it is important.
    Mr. Carlton. --discuss the general topic.
    Mr. Dicks. Right.
    Mr. Carlton. The issue with only capturing two flat fingers 
from everyone is going to become a problem later on down the 
road. As the size of the database gets bigger, the limited 
amount of data that can be acquired from the two fingerprints 
means that the system is going to start returning more and more 
false matches, because there just isn't sufficient data to find 
the matching record in the database.
    So the issue you raised earlier is, you are pushing out 
into the future a challenge of either re-enrolling everyone to 
get eight or 10 fingers or some interim policy there.
    But, yes, sir, eventually you are going to start running 
into problems there.
    Now, the data I have so far, that I heard just today from 
my DHS colleagues, is that the performance of the fingerprint 
systems they are using is actually very, very good. Their false 
match rate is significantly lower than they had expected. And 
that would be consistent with this initial rollout, when the 
database is relatively small. It is a problem that will be 
manifest later on.
    Mr. Dicks. Well, why not do it right from the start? I mean 
this idea that 600,000 people have come in, we have done it 
with two when we could have very easily done it with 10. How 
much longer does that take?
    Mr. Carlton. See, I think the challenge right now is, in 
part, that the technology is much better understood for the 
single finger matching, both the hardware and the process of 
using a single finger match. There is still work to be done in 
the human flow of work from the employee side and let's say the 
customer-client side in actually capturing all 10 fingerprints.
    So there is the human element of being able to use the 
technologies. It is just easier to use the flat finger, single 
finger capture right now.
    Mr. Dicks. Why were they doing it with flat fingers in one 
situation and then rolled fingers in the other, which causes 40 
percent discrepancy?
    Mr. Carlton. The distinction is the requirements for law 
enforcement versus a civil identification system. A law 
enforcement system is typically based on fingernail to 
fingernail roll of the fingerprint. And that is, as my 
colleague is here, reaching for cup, that often from a crime 
scene standpoint, it is not actually the flat part of the 
fingerprint that is left behind. And so for forensic research, 
you really need the whole fingerprint.
    The other thing you have to understand is those 
fingerprints that are captured in a rolled process, that takes 
a long time and almost always requires a human being to help 
guide the process of capturing those 10 fingers.
    That is going to be very complex for people in consulates 
overseas, because often they operate on the opposite side of a 
hardened wall and glass from the public that they are trying to 
serve, so you cannot actually even help someone if you wanted 
to roll fingerprints.
    So the practicality is, the capturing of fingerprints 
overseas is going to have to be flat fingers.
    Mr. Dicks. Okay.
    I just would mention in the GAO report, currently FBI IAFIS 
is only 40 percent accurate in matching their database of 
rolled fingerprints to the flat prints in the IDENT system. 
Does that make sense?
    Mr. Carlton. It is entirely possible, yes, sir.
    Mr. Dicks. So we have a problem here. The Appropriations 
Committee is certainly trying to take steps to push them to do 
the right thing here and at least to know that they have a 
problem.
    Thank you, Madam Chairman.
    Ms. Granger. Thank you.
    Mr. May, I appreciate your comments on the US-VISIT program 
and I am certainly pleased to hear about the cooperation 
between DHS and the private sector.
    You had a concern about airline personnel playing a role in 
collecting exit information from passengers. This is a little 
information sheet that has been prepared by Homeland Security. 
This is in English and Spanish and also visual. Do you think 
the airlines would be willing to hand out these small 
information cards to help people understand better?
    Mr. May. Madam Chairman, we do hand out cards of that sort 
in the one test area that exit is under way today. And so, I 
mean, there are a number of areas where we can be helpful to 
DHS in helping implement this program.
    What we are not interested in doing, I would like to re-
emphasize, is having the exit program executed, if you will, at 
the ticket counter or at the gate, which in effect turns my 
agent into immigration's agents. And that is a non-starter from 
our perspective.
    Ms. Granger. I understand.
    Ms. Sanchez, do you have further questions?
    Ms. Loretta Sanchez of California. I just wanted, very 
quickly, to ask Mr. May, you had some testimony about exit fees 
and charging some exit fees in order to pay for some of this. 
And I wondered if you had any comments you wanted to give to 
this committee?
    And lastly, Ms. Walker, I just wanted to make sure that the 
initial question that you wanted to pose from your beginning 
testimony about the IDENT system, if you had gotten everything 
out that you think this committee should know about.
    Mr. May. I think the key that this committee should know 
about is, first of all, the fee issue: The airlines industry, 
which already lost about $5 billion last year, is currently 
spending today, now, probably $3 billion annually to comply 
with federally mandated security measures.
    We believe very strongly that federal security is a 
function of the federal government, soup to nuts, start to 
finish. That is point one.
    Point two, vis-a-vis this exit program, we are concerned 
about making sure that you capture information. It is voluntary 
today. I agree with everything that has been said about the 
magnitude of the problem when you expand to a land-based 
environment, because you are only capturing a very, very small 
percentage of the total traffic when you look at airlines, for 
example.
    I think they are doing a great job of putting it in place 
for entry. They need to figure out how to better require people 
to do this on exit, because the other unfortunate byproduct is, 
you could sent somebody, when this becomes a regular part of 
the process, somebody didn't check out as they left the United 
States, they come back to the United States, they are 
inadmissible, to use a term of art I have learned, and at that 
point, we are responsible for returning them to their point of 
origin at our cost.
    And I am not exactly excited about the prospect of having 
thousands of people being returned to their point of origin, 
for any good reason. But if it is simply because they didn't go 
through that exit process, that is going to further complicate 
it.
    So I am not suggesting there are any issues here that DHS 
is not aware of. I am not suggesting that there aren't people 
of great faith that are working on all of these issues. But I 
think, as some of my colleagues on this panel have pointed out, 
the magnitude of the effort is huge and I am not sure fully 
understood by everybody to date.
    Ms. Campbell Walker. In trying to shed myself of all of my 
IDENT issues, just one more point. There was a comment 
regarding the eight prints, why didn't we do the 10 prints from 
the beginning, a very cogent response on that.
    In 2005, though, the Department of State has already 
indicated that they are planning on moving to eight prints as a 
part of their process. And a part of it is due to the fact that 
they expect the database to be so overloaded and unresponsive 
that they are going to have to do that and in addition to that 
provide additional documentation to help separate people.
    So that is already a part of the issue.
    But again, on the IDENT check, let us assume that they have 
done something incredible, and that is great, if they have 
managed to do a full IDENT check in 15 seconds, what a 
marvelous thing if that has been accomplished.
    But even if it has been accomplished, that 15 seconds, and 
doing that check for every single person trying to be admitted 
in a land border--because you cannot separate them out. There 
is no place to say U.S. citizens go here, legal permanent 
residents go here, those other people go here--will back us up 
so far into Mexico on the southern border that we might as well 
go back into negotiations regarding treaty acquisition of land, 
which I don't think President Fox is going to appreciate.
    So we need to really think this through before saying we 
have got to meet that December 31st deadline.
    Thank you.
    Ms. Granger. I appreciate both panels, your testimony, your 
attendance. The chair notes that some members may have 
additional questions for this panel which they may wish to 
submit in writing. Without objection, the hearing record will 
remain open for 10 days for members to submit written questions 
to these witnesses and to place their responses in the record.
    There being no further business, I again thank the 
subcommittee members and our witnesses today, and the hearing 
is now adjourned.
    [Whereupon, at 1:44 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                               --------__

                   Material Submitted for the Record

Questions and Responses of the Honorable Maura Harty, submitted by the 
                          Honorable Dave Camp

Question: Could you provide us with an implementation schedule for 
posts as to biometric visa processing in the nonimmigrant and immigrant 
visa context?
Answer: The implementation schedule is attached. The schedule indicates 
the post name, type of biometric installation, start and finish dates 
of the trip, and whether the post has gone live with biometrics. Each 
trip includes biometric installation as well as general training and 
hardware maintenance objectives. Before October 26, 2004 we will 
install and go live with biometrics at all nonimmigrant and immigrant 
visa issuing posts. As of March 10, 91 posts are processing biometric 
nonimmigrant visas, and one post is processing biometric immigrant 
visas.

                        CONSULAR AFFAIRS Biometric Installations Schedule for NIV and IV
----------------------------------------------------------------------------------------------------------------
                                                               Biometric
                         Post                               Implementation         Start    Finish     Comment
----------------------------------------------------------------------------------------------------------------
FRANKFURT............................................              2-print NIV    9/11/03   10/1/03    Completed
BRUSSELS.............................................              2-print NIV    9/17/03   9/30/03    Completed
SAN SALVADOR.........................................              2-print NIV    9/22/03   10/3/03    Completed
MONTREAL.............................................              2-print NIV    10/6/03   1022/03    Completed
CAIRO................................................              2-print NIV    10/8/03   1016/03    Completed
OTTAWA...............................................              2-print NIV   10/14/03   1022/03    Completed
KAMPALA..............................................              2-print NIV   10/15/03   1030/03    Completed
LAGOS................................................              2-print NIV   10/15/03   11/5/03    Completed
DOHA.................................................              2-print NIV   10/20/03   11/3/03    Completed
TALLINN..............................................              2-print NIV   10/20/03   11/3/03    Completed
RIGA.................................................              2-print NIV   10/22/03   11/6/03    Completed
HALIFAX..............................................              2-print NIV   10/24/03   11/7/03    Completed
VANCOUVER............................................              2-print NIV   10/24/03  11/10/03    Completed
ABU DHABI............................................              2-print NIV   10/27/03  11/10/03    Completed
FLORENCE.............................................              2-print NIV   10/27/03  11/14/03    Completed
BANGKOK..............................................              2-print NIV   10/29/03  11/21/03    Completed
COPENHAGEN...........................................              2-print NIV   10/31/03  11/14/03    Completed
RIYADH...............................................              2-print NIV    11/4/03  11/19/03    Completed
KUALA LUMPUR.........................................              2-print NIV    11/5/03  11/21/03    Completed
JERUSALEM............................................              2-print NIV    11/5/03  11/21/03    Completed
TEL AVIV.............................................              2-print NIV    11/5/03  11/28/03    Completed
ANKARA...............................................              2-print NIV    11/6/03  11/21/03    Completed
DUBAI................................................              2-print NIV   11/10/03  11/26/03    Completed
PORT LOUIS...........................................              2-print NIV   11/10/03  11/21/03    Completed
KUWAIT...............................................              2-print NIV   11/11/03  11/24/03    Completed
MAPUTO...............................................              2-print NIV   11/12/03  11/25/03    Completed
KOLONIA..............................................              2-print NIV   11/12/03  11/24/03    Completed
MASERU...............................................              2-print NIV   11/12/03  11/26/03    Completed
SAN JOSE.............................................              2-print NIV   11/12/03  11/26/03    Completed
DAMASCUS.............................................              2-print NIV   11/17/03   12/2/03    Completed
BILISI...............................................              2-print NIV   11/17/03   12/2/03    Completed
ORONTO...............................................              2-print NIV   11/19/03   12/9/03    Completed
CALGARY..............................................              2-print NIV   11/24/03   12/9/03    Completed
CHIANG MAl...........................................              2-print NIV   11/24/03   12/9/03    Completed
MOSCOW...............................................              2-print NIV   11/26/03  12/19/03    Completed
JEDDAH...............................................              2-print NIV    12/2/03  12/16/03    Completed
ASMARA...............................................              2-print NIV    12/3/03  12/16/03    Completed
B.S. BEGAWAN.........................................              2-print NIV    12/3/03  12/17/03    Completed
MUSCAT...............................................              2-print NIV    12/3/03  12/18/03    Completed
PANAMA CITY..........................................              2-print NIV    12/3/03  12/19/03    Completed
ISLAMABAD............................................              2-print NIV    12/3/03  12/19/03    Completed
ISTANBUL.............................................              2-print NIV    12/3/03  12/17/03    Completed
MINSK................................................              2-print NIV    12/3/03  12/16/03    Completed
TASHKENT.............................................              2-print NIV    12/4/03  12/19/03    Completed
AMMAN................................................              2-print NIV    12/5/03  12/23/03    Completed
CHISINAU.............................................              2-print NIV    12/8/03  12/19/03    Completed
KOROR................................................              2-print NIV    12/8/03  12/19/03    Completed
SANAA................................................              2-print NIV    12/8/03  12/24/03    Completed
QUEBEC...............................................              2-print NIV   12/11/03  12/23/03    Completed
BELIZE CITY..........................................              2-print NIV     1/5/04   1/16/04    Completed
BRATISLAVA...........................................              2-print NIV     1/7/04   1/23/04    Completed
WINDHOEK.............................................              2-print NIV     1/7/04   1/22/04    Completed
CAPE TOWN............................................              2-print NIV     1/7/04   1/20/04    Completed
BISHKEK..............................................              2-print NIV     1/8/04   1/16/04    Completed
SURABAYA.............................................              2-print NIV    1/14/04   1/28/04    Completed
YEKATERINBURG........................................              2-print NIV    1/14/04   1/29/04    Completed
DUBLIN...............................................              2-print NIV    1/14/04   1/27/04    Completed
MILAN................................................              2-print NIV    1/15/04   1/28/04    Completed
BAKU.................................................              2-print NIV    1/22/04    2/4/04    Completed
DURBAN...............................................              2-print NIV    1/22/04   1/30/04    Completed
MELBOURNE............................................              2-print NIV    1/22/04    2/4/04    Completed
RECIFE...............................................              2-print NIV    1/22/04    2/4/04    Completed
VALLETTA.............................................              2-print NIV    1/22/04    2/4/04    Completed
JAKARTA..............................................              2-print NIV    1/30/04   2/17/04    Completed
BANJUL...............................................              2-print NIV     2/2/04   2/13/04    Completed
HONG KONG............................................              2-print NIV     2/2/04   2/13/04    Completed
SAO PAULO............................................              2-print NIV     2/2/04   2/25/04    Completed
ST PETERSBURG........................................              2-print NIV     2/2/04   2/20/04    Completed
VLADIVOSTOK..........................................              2-print NIV     2/2/04    2/9/04    Completed
YAOUNDE..............................................              2-print NIV     2/4/04   2/19/04    Completed
ALMA TY..............................................              2-print NIV     2/4/04   2/17/04    Completed
JOHANNESBURG.........................................              2-print NIV     2/4/04   2/20/04    Completed
N'DJAMENA............................................              2-print NIV     2/6/04   2/18/04    Completed
PERTH................................................              2-print NIV     2/6/04   2/17/04    Completed
SUVA.................................................              2-print NIV     2/6/04   2/19/04    Completed
HAMIL TON............................................              2-print NIV    2/10/04   2/19/04    Completed
LUXEMBOURG...........................................              2-print NIV    2/11/04   2/27/04    Completed
PORT OF SPAIN........................................              2-print NIV    2/11/04    3/5/04    Completed
ASUNCION.............................................              2-print NIV    2/11/04   2/24/04    Completed
AUCKLAND.............................................              2-print NIV    2/11/04   2/27/04    Completed
CASABLANCA...........................................              2-print NIV    2/11/04   2/24/04    Completed
HONG KONG............................................               2-print IV    2/18/04   2/26/04    Completed
NIAMEY...............................................              2-print NIV    2/18/04    3/4/04    Completed
SYDNEY...............................................              2-print NIV    2/19/04    3/3/04    Completed
ASHGABAT.............................................              2-print NIV    2/25/04    3/9/04    Completed
NICOSIA..............................................              2-print NIV    2/25/04   3/10/04    Completed
SANTO DOMINGO........................................       2-print NIV and IV    2/25/04   3/16/04    Completed
MANAMA...............................................              2-print NIV     3/1/04   3/15/04    Completed
BEIRUT...............................................              2-print NIV     3/3/04   3/17/04    Completed
OUAGADOUGOU..........................................              2-print NIV     3/3/04   3/16/04    Completed
PHNOM PENH...........................................              2-print NIV     3/3/04   3/15/04    Completed
RANGOON..............................................              2-print NIV     3/3/04   3/16/04    Completed
HANOI................................................              2-print NIV     3/4/04   3/18/04    Completed
FRANKFURT............................................               2-print IV     3/9/04   3/17/04    Completed
BEIJING..............................................              2-print NIV    3/11/04    4/2/04
BRIDGETOWN...........................................       2-print NIV and IV    3/11/04    4/2/04
GABORONE.............................................              2-print NIV    3/15/04   3/30/04
ALGIERS..............................................       2-print NIV and IV    3/17/04   3/31/04
LJUBLJANA............................................              2-print NIV    3/17/04   3/31/04
NOUAKCHOTT...........................................              2-print NIV    3/17/04   3/31/04
SKOPJE...............................................       2-print NIV and IV    3/17/04   3/31/04
SAN SALVADOR.........................................               2-print IV    3/22/04    4/1/04
BAMAKO...............................................              2-print NIV    3/24/04    4/7/04
SARAJEVO.............................................              2-print NIV    3/24/04    4/9/04
YEREVAN..............................................              2-print NIV    3/24/04    4/8/04
PRAGUE...............................................       2-print NIV and IV    3/24/04    4/9/04
PRAIA................................................       2-print NIV and IV    3/29/04   4/12/04
ACCRA................................................       2-print NIV and IV    3/31/04   4/20/04
GUAYAQUIL............................................       2-print NIV and IV    3/31/04   4/16/04
QUITO................................................              2-print NIV    3/31/04   4/16/04
HO CHI MINH CITY.....................................       2-print NIV and IV     4/1/04   4/27/04
KIEV.................................................       2-print NIV and IV     4/7/04   4/21/04
DUBLIN...............................................               2-print IV     417/04   4/16/04
ISLAMABAD............................................               2-print IV     4/7/04  4/21/04
TEL AVIV.............................................               2-print IV    4/17/04   4/13/04
BELIZE CITY..........................................               2-print IV    4/12/04   4/20/04
MADRID...............................................       2-print NIV and IV    4/12/04    5/5/04
MSTERDAM.............................................       2-print NIV and IV    4/12/04   4/30/04
HELSINKI.............................................       2-print NIV and IV    4/13/04   4/26/04
JERUSALEM............................................               2-print IV    4/14/04   4/20/04
GUANGZHOU............................................       2-print NIV and IV    4/19/04    5/7/04
ANTANANARIVO.........................................       2-print NIV and IV    4/21/04    5/6/04
BANGKOK..............................................               2-print IV    4/21/04   4/30/04
LAGOS................................................               2-print IV    4/21/04   4/30/04
SINGAPORE............................................       2-print NIV and IV    4/21/04   15/6/04
RIO DE JANEIRO.......................................       2-print NIV and IV    4/22/04   5/20/04
ABU DHABI............................................               2-print IV    4/23/04    5/4/04
TUNIS................................................       2-print NIV and IV    4/26/04   5/12/04
ULAANBAATAR..........................................              2-print NIV    4/26/04    5/7/04
TEGUCIGALPA..........................................       2-print NIV and IV    4/28/04   5/14/04
BELFAST..............................................              2-print NIV    4/28/04   5/12/04
CARACAS..............................................       2-print NIV and IV    4/28/04   5/19/04
DOHA.................................................               2-print IV    4/28/04    5/4/04
LONDON...............................................               2-print IV    4/28/04   5/25/04
MANAMA...............................................               2-print IV     5/3/04   5/12/04
TBILISI..............................................               2-print IV     5/3/04   5/12/04
YAOUNDE..............................................               2-print IV     5/3/04   5/12/04
PORT MORESBY.........................................       2-print NIV and IV     5/4/04   5/18/04
BOGOTA...............................................       2-print NIV and IV     5/5/04   5/28/04
BUENOS AIRES.........................................       2-print NIV and IV     5/5/04   5/28/04
ALMA TV..............................................               2-print IV     5/5/04   5/11/04
SANAA................................................               2-print IV     5/6/04   5/13/04
COLOMBO..............................................       2-print NIV and IV     5/7/04   5/24/04
HARARE...............................................       2-print NIV and IV    5/10/04   5/24/04
SHANGHAI.............................................              2-print NIV    5/10/04   5/21/04
PARAMARIBO...........................................       2-print NIV and IV    5/11/04   5/26/04
JAKARTA..............................................               2-print IV    5/12/04   5/21/04
NAIROBI..............................................       2-print NIV and IV    5/12/04   5/28/04
NASSAU...............................................       2-print NIV and IV    5/12/04   5/28/04
LISBON...............................................       2-print NIV and IV    5/13/04    6/4/04
VIENTIANE............................................       2-print NIV and IV    5/13/04   5/28/04
CAIRO................................................               2-print IV    5/18/04   5/27/04
DAR ES SALAAM........................................       2-print NIV and IV    5/19/04    6/1/04
LOME.................................................       2-print NIV and IV    5/19/04    6/2/04
ZAGREB...............................................       2-print NIV and IV    5/19/04    6/3/04
CHENGDU..............................................              2-print NIV    5/20/04    6/4/04
KINGSTON.............................................       2-print NIV and IV    5/20/04   6/18/04
KUWAIT...............................................               2-print IV    5/24/04   6/11/04
NAPLES...............................................       2-print NIV and IV    5/24/04   6/16/04
JOHANNESBURG.........................................               2-print IV    5/26/04    6/4/04
STOCKHOLM............................................       2-print NIV and IV    5/26/04   6/10/04
BELGRADE.............................................       2-print NIV and IV    5/31/04   6/18/04
MONTEVIDEO...........................................       2-print NIV and IV    5/31/04   6/16/04
PANAMA CITY..........................................               2-print IV    5/31/04    6/9/04
ANKARA...............................................               2-print IV     6/1/04   6/11/04
ATHENS...............................................       2-print NIV and IV     6/2/04   6/25/04
BUCHAREST............................................       2-print NIV and IV     6/2/04   6/18/04
SANTIAGO.............................................       2-print NIV and IV     6/2/04   6/18/04
MAJURO...............................................              2-print NIV     6/2/04   6/16/04
BIDJAN...............................................       2-print NIV and IV     6/3/04   6/18/04
BRASILIA.............................................              2-print NIV     6/7/04   6/30/04
SOFIA................................................       2-print NIV and IV     6/7/04   6/24/04
LA PAZ...............................................       2-print NIV and IV     6/9/04   6/24/04
DDIS ABABA...........................................       2-print NIV and IV    6/10/04   6/30/04
SHENYANG.............................................              2-print NIV    6/10/04   6/23/04
BUDAPEST.............................................       2-print NIV and IV    6/16/04    7/2/04
DAMASCUS.............................................               2-print IV    6/16/04   6/25/04
LILONGWE.............................................       2-print NIV and IV    6/16/04   6/28/04
GUATEMALA CITY.......................................               2-print IV    6/16/04   6/22/04
MANAGUA..............................................               2-print IV    6/16/04   6/25/04
MANILA...............................................       2-print NIV and IV    6/16/04   7/13/04
KIGALI...............................................              2-print NIV    6/21/04    7/2/04
MONROVIA.............................................       2-print NIV and IV    6/21/04    7/6/04
TIRANA...............................................              2-print NIV    6/21/04    7/2/04
LUSAKA...............................................       2-print NIV and IV    6/23/04    7/7/04
CONAKRY..............................................              2-print NIV    6/23/04    7/7/04
GEORGETOWN...........................................       2-print NIV and IV    6/23/04   7/14/04
REYKJAVIK............................................       2-print NIV and IV    6/23/04    7/6/04
SAN JOSE.............................................               2-print IV    6/23/04    7/2/04
AMMAN................................................               2-print IV    6/28/04    7/7/04
LUANDA...............................................              2-print NIV    6/30/04   7/14/04
DAKAR................................................       2-print NIV and IV     7/7/04   7/22/04
MATAMOROS............................................              2-print NIV     7/7/04   7/30/04          BCC
TOKYO................................................       2-print NIV and IV     7/7/04   7/30/04
ASUNCION.............................................               2-print IV     7/7/04   7/13/04
MBABANE..............................................              2-print NIV     7/7/04   7/13/04
DJIBOUTI.............................................       2-print NIV and IV     7/8/04   7/23/04
HAVANA...............................................       2-print NIV and IV     7/8/04   7/30/04
SYDNEY...............................................               2-print IV     7/8/04   7/30/04
NOGALES CONS/TPF.....................................              2-print NIV    7/12/04   7/30/04          BCC
HAMILTON.............................................               2-print IV    7/14/04   7/20/04
MUMBAI...............................................       2-print NIV and IV    7/14/04    8/6/04
NEW DELHI............................................       2-print NIV and IV    7/14/04   7/30/04
AUCKLAND.............................................               2-print IV    7/14/04   7/23/04
BRUSSELS.............................................               2-print IV    7/14/04   7/23/04
PORT-AU-PRINCE.......................................       2-print NIV and IV    7/14/04    8/4/04
LIBREVILLE...........................................       2-print NIV and IV    7/15/04    8/2/04
CHENNAI..............................................       2-print NIV and IV    7/21/04    8/6/04
OSAKA-KOBE...........................................              2-print NIV    7/21/04    8/6/04
BAGHDAD..............................................              2-print NIV    7/26/04    8/6/04    Tentative
                                                                                                           dates
WARSAW...............................................       2-print NIV and IV    7/26/04   8/11/04
CALCUTTA.............................................       2-print NIV and IV    7/28/04   8/11/04
VANCOUVER............................................               2-print IV    7/28/04    8/3/04
MERIDA...............................................              2-print NIV     8/2/04   8/20/04          BCC
SEOUL................................................       2-print NIV and IV     8/2/04   8/20/04
KRAKOW...............................................              2-print NIV     8/2/04   8/17/04
OSLO.................................................       2-print NIV and IV     8/4/04   8/20/04
PARIS................................................       2-print NIV and IV     8/4/04   8/27/04
BANGUI...............................................              2-print NIV     8/4/04   8/20/04
LONDON...............................................              2-print NIV     8/4/04   8/17/04
MEXICO CITY..........................................              2-print NIV     8/4/04   8/24/04          BCC
MONTERREY............................................              2-print NIV     8/4/04   8/25/04         BCC
RANGOON..............................................               2-print IV     8/4/04   8/10/04
VILNIUS..............................................              2-print NIV     8/5/04   8/20/04
VIENNA...............................................       2-print NIV and IV    8/11/04   8/26/04
COTONOU..............................................               2-print IV    8/11/04   8/17/04
GUADALAJARA..........................................              2-print NIV    8/11/04    9/1/04          BCC
NUEVO LAREDO CONSITPF................................              2-print NIV    8/11/04   8/31/04          BCC
ROME.................................................       2-print NIV and IV    8/12/04   8/25/04
KATHMANDU............................................       2-print NIV and IV    8/16/04   8/27/04
PONTA DELGADA........................................       2-print NIV and IV    8/16/04    9/1/04          BCC
TIJUANA CONS.........................................              2-print NIV    8/16/04   8/20/04          BCC
NAHA.................................................              2-print NIV    8/18/04    9/2/04
KINSHASA.............................................               2-print IV    8/18/04   8/25/04
TIJUANA TPF..........................................              2-print NIV    8/23/04   8/27/04          BCC
COPENHAGEN...........................................               2-Print IV    8/25/04   9/10/04
MUSCAT...............................................               2-print IV    8/25/04    9/3/04
CASABLANCA...........................................               2-print IV    8/25/04    9/3/04
PHNOM PENH...........................................               2-print IV    8/25/04    9/1/04
IAIPEI...............................................       2-print NIV and IV    8/30/04   9/24/04
CIUDAD JUAREZ CONS...................................       2-print NIV and IV     9/1/04   9/21/04
HERMOSILLO...........................................              2-print NIV     9/1/04   9/17/04          BCC
DHAKA................................................               2-print IV     9/1/04    9/7/04
CIUDAD JUAREZ TPF....................................              2-print NIV     9/6/04   9/15/04          BCC
NIAMEY...............................................               2-print IV     9/8/04   9/17/04
OUAGADOUGOU..........................................               2-print IV     9/8/04   9/14/04
SUVA.................................................               2-print IV     9/8/04   9/17/04
MOSCOW...............................................               2-print IV    9/15/04   9/24/04
PORT OF SPAIN........................................               2-print IV    9/15/04   9/24/04
NICOSIA..............................................               2-print IV    9/17/04   9/28/04
MONTREAL.............................................               2-print IV    9/21/04   9/30/04
KUALA LUMPUR.........................................               2-print IV    9/22/04   10/1/04
----------------------------------------------------------------------------------------------------------------

Question: 2. At how many of these posts will you assign additional 
personnel to assist in this processing?
Answer: For Fiscal year 2004, The Bureau of Consular Affairs created 80 
additional overseas positions to meet both increased workload and 
overseas biometrics requirements. In addition, CA will have established 
186 new officer positions over a three-year period ending in fiscal 
year 2005 to replace consular associates as adjudicators.

Question: 3. Is there sufficient staffing in State Department consular 
offices to carry out the visa issuance process, including interviews, 
US-VISIT enrollment and relevant security checks without causing delays 
in the visa issuance process.
        a. If not, how many additional consular officers are necessary?
        b. Is there a need for additional facilities or a change in the 
        facility? If so, where and what facilities are required?
        c. What is the impact on customer service?
Answer: a. The Bureau of Consular Affairs recently created additional 
consular positions in order to compensate for the expanded workload 
brought about by enhanced security procedures and biometric collection. 
These positions will allow efficient visa processing in most cases with 
few significant delays.
        b. Many of our consular sections overseas operate without 
        adequate space. To ensure continued efficient and secure visa 
        processing, the State Department will require additional 
        funding for the construction of new overseas facilities with 
        sufficient consular workspace to meet existing demand and 
        growth.
        c. Without adequate secure consular workspace, it is not 
        possible to deploy sufficient numbers of additional staff in 
        future to meet increased demand for visa services. The result 
        will inevitably be longer wait times for visas, decreased 
        waiting room space for visa applicants and inconvenience to 
        business travelers, students and tourists.

Question: 4. Please provide the Committee with a list of consulates 
currently collecting biometric information and the types of data being 
collected, how the information is collected and the time required to 
collect the information.
Answer: The attachment indicates the consulates that are currently (as 
of March 10) collecting biometric information for nonimmigrant and 
immigrant visas. The biometrics collected are two index fingerprints 
and a digitized photo. We also collect biographic data such as name, 
gender, and birth date that must be associated with this biometric 
information.
    We collect biometric data during an in-person interview process at 
the consulate. The process begins by the applicant supplying biographic 
data and a photo. The biographic data is entered into a database and 
the photo is captured electronically and added to the applicant's 
record. The applicant's biographic information is sent to the CLASS 
database to determine whether a lookout exists.
    The applicant then goes to the interview window where a Foreign 
Service Officer (FSO) or a cleared and trained Eligible Family Member 
(EFM) verifies the photo image. Next, the applicant is directed to 
supply two index fingerprints using an electronic fingerprint scanner 
located on the other side of the window in full view of the FSO or EFM. 
The fingerprints and photo are then sent electronically to DHS' IDENT 
database to determine whether they match existing lookouts.
    An FSO then verifies the biographic data, and interviews the 
applicant. CLASS results are nearly always available before the 
interview begins.
    Following a review of IDE NT and CLASS records, the applicant's 
documentation, and the interview responses the FSO then decides whether 
to issue a vIsa.
    Based on field experience to date the time required to collect 
fingerprint data averages about 30 seconds per applicant.

                              Biometric Installations Completed as of 17 March 2004
----------------------------------------------------------------------------------------------------------------
                                                               Biometric
                         Post                               Implementation         Start    Finish     Comment
----------------------------------------------------------------------------------------------------------------
FRANKFURT............................................              2-print NIV    9/11/03   10/1/03    Completed
BRUSSELS.............................................              2-print NIV    9/17/03   9/30/03    Completed
SAN SALVADOR.........................................              2-print NIV    9/22/03   10/3/03    Completed
MONTREAL.............................................              2-print NIV    10/6/03  10/22/03    Completed
CAIRO................................................              2-print NIV    10/8/03  10/16/03    Completed
OTTAWA...............................................              2-print NIV   10/14/03  10/22/03    Completed
KAMPALA..............................................              2-print NIV   10/15/03  10/30/03    Completed
LAGOS................................................              2-print NIV   10/15/03   11/5/03    Completed
DOHA.................................................              2-print NIV   10/20/03   11/3/03    Completed
ITALLINN.............................................              2-print NIV   10/20/03   11/3103    Completed
RIGA.................................................              2-print NIV   10/22/03   11/6/03    Completed
HALIFAX..............................................              2-print NIV   10/24/03   11/7/03    Completed
ANCOUVER.............................................              2-print NIV   10/24/03  11/10/03    Completed
lA.BU DHABI..........................................              2-print NIV   10/27/03  11/10/03    Completed
FLORENCE.............................................              2-print NIV   10/27/03  11/14/03    Completed
BANGKOK..............................................              2-print NIV   10/29/03  11/21/03    Completed
COPENHAGEN...........................................              2-print NIV   10/31/03  11/14/03    Completed
RIYADH...............................................              2-print NIV    11/4/03  11/19/03    Completed
KUALA LUMPUR.........................................              2-print NIV    11/5/03  11/21/03    Completed
JERUSALEM............................................              2-print NIV    11/5/03  11/21/03    Completed
ITEL AVIV............................................              2-print NIV    11/5/03  11/28/03    Completed
lA.NKARA.............................................              2-print NIV    11/6/03  11/21/03    Completed
DUBAI................................................              2-print NIV   11/10/03  11/26/03    Completed
PORT LOUIS...........................................              2-print NIV   11/10/03  11/21/03    Completed
KUWAIT...............................................              2-print NIV   11/11/03  11/24/03    Completed
MAPUTO...............................................              2-print NIV   11/12/03  11/25/03    Completed
KOLONIA..............................................              2-print NIV   11/12/03  11/24/03    Completed
MASERU...............................................              2-print NIV   11/12/03  11/26/03    Completed
SAN JOSE.............................................              2-print NIV   11/12/03  11/26/03    Completed
DAMASCUS.............................................              2-print NIV   11/17/03   12/2/03    Completed
TBILISI..............................................              2-print NIV   11/17/03   12/2/03    Completed
TORONTO..............................................              2-print NIV   11/19/03   12/9/03    Completed
CALGARY..............................................              2-print NIV   11/24/03   12/9/03    Completed
CHIANG MAl...........................................              2-print NIV   11/24/03   12/9/03    Completed
MOSCOW...............................................              2-print NIV   11/26/03  12/19/03    Completed
JEDDAH...............................................              2-print NIV    12/2/03  12/16/03    Completed
ASMARA...............................................              2-print NIV    12/3/03  12/16/03    Completed
B.S. BEGAWAN.........................................              2-print NIV    12/3/03  12/17/03    Completed
MUSCAT...............................................              2-print NIV    12/3/03  12/18/03    Completed
PANAMA CITY..........................................              2-print NIV    12/3/03  12/19/03    Completed
ISLAMABAD............................................              2-print NIV    12/3/03  12/19/03    Completed
ISTANBUL.............................................              2-print NIV    12/3/03  12/17/03    Completed
MINSK................................................              2-print NIV    12/3/03  12/16/03    Completed
TASHKENT.............................................              2-print NIV    12/4/03  12/19/03    Completed
MMAN.................................................              2-print NIV    12/5/03  12/23/03    Completed
CHISINAU.............................................              2-print NIV    12/8/03  12/19/03    Completed
KOROR................................................              2-print NIV    12/8/03  12/19/03    Completed
SANAA................................................              2-print NIV    12/8/03  12/24/03    Completed
QUEBEC...............................................              2-print NIV   12/11/03  12/23/03    Completed
BELIZE CITY..........................................              2-print NIV     1/5/04   1/16/04    Completed
BRATISLAVA...........................................              2-print NIV     1/7/04   1/23/04    Completed
WINDHOEK.............................................              2-print NIV    1/7/04,   1/22/04    Completed
CAPE TOWN............................................              2-print NIV      1n/04   1/20/04    Completed
BISHKEK..............................................              2-print NIV     1/8/04   1/16/04    Completed
SURABAYA.............................................              2-print NIV    1/14/04   1/28/04    Completed
YEKA TERINBURG.......................................              2-print NIV    1/14/04   1/29/04    Completed
DUBLIN...............................................              2-print NIV    1/14/04   1/27/04    Completed
MILAN................................................              2-print NIV    1/15/04   1/28/04    Completed
BAKU.................................................              2-print NIV    1/22/04    2/4/04    Completed
DURBAN...............................................              2-print NIV    1/22/04   1/30/04    Completed
MELBOURNE............................................              2-print NIV    1/22/04    2/4/04    Completed
RECIFE...............................................              2-print NIV    1/22/04    2/4/04    Completed
VALLETTA.............................................              2-print NIV    1/22/04    2/4/04    Completed
JAKARTA..............................................              2-print NIV    1/30/04   2/17/04    Completed
BANJUL...............................................              2-print NIV     2/2/04   2/13/04    Completed
HONG KONG............................................              2-print NIV     2/2/04   2/13/04    Completed
SAO PAULO............................................              2-print NIV     2/2/04   2/25/04    Completed
ST PETERSBURG........................................              2-print NIV     2/2/04   2/20/04    Completed
VLADIVOSTOK..........................................              2-print NIV     2/2/04    2/9/04    Completed
YAOUNDE..............................................              2-print NIV     2/4/04   2/19/04    Completed
ALMA TY..............................................              2-print NIV     2/4/04   2/17/04    Completed
JOHANNESBURG.........................................              2-print NIV     2/4/04   2/20/04    Completed
N'DJAMENA............................................              2-print NIV     2/6/04   2/18/04    Completed
PERTH................................................              2-print NIV     2/6/04   2/17/04    Completed
SUVA.................................................              2-print NIV     2/6/04   2/19/04    Completed
HAMILTON.............................................              2-print NIV    2/10/04   2/19/04    Completed
LUXEMBOURG...........................................              2-print NIV    2/11/04   2/27/04    Completed
PORT OF SPAIN........................................              2-print NIV    2/11/04    3/5/04    Completed
ASUNCION.............................................              2-print NIV    2/11/04   2/24/04    Completed
AUCKLAND.............................................              2-print NIV    2/11/04   2/27/04    Completed
CASABLANCA...........................................              2-print NIV    2/11/04   2/24/04    Completed
HONG KONG............................................               2-print IV    2/18/04   2/26/04    Completed
NIAMEY...............................................              2-print NIV    2/18/04    3/4/04    Completed
SYDNEY...............................................              2-print NIV    2/19/04    3/3/04    Completed
ASHGABAT.............................................              2-print NIV    2/25/04    3/9/04    Completed
NICOSIA..............................................              2-print NIV    2/25/04   3/10/04    Completed
SANTO DOMINGO........................................       2-print NIV and IV    2/25/04   3/16/04    Completed
MANAMA...............................................              2-print NIV     3/1/04   3/15/04    Completed
BEIRUT...............................................              2-print NIV     3/3/04   3/17/04    Completed
BERN.................................................       2-print NIV and IV     3/3/04   3/19/04    Completed
OUAGADOUGOU..........................................              2-print NIV     3/3/04   3/16/04    Completed
PHNOM PENH...........................................              2-print NIV     3/3/04   3/15/04    Completed
RANGOON..............................................              2-print NIV     3/3/04   3/16/04    Completed
HANOI................................................              2-print NIV     3/4/04   3/18/04    Completed
FRANKFURT............................................               2-print IV     3/9/04   3/17/04    Completed
----------------------------------------------------------------------------------------------------------------

Question: 5. To date, how many fingerprints and photographs have been 
collected in consulates?
Answer: As of March 10 we had 34,748,844 NIV photographs and 8,137,267 
fingerprints in the Consular Consolidated Database. Of these 
fingerprints, 7,866,251 were collected from applicants in Mexico, 
primarily for Border Crossing Cards (BCCs), and 271,016 from applicants 
at posts where we began collecting fingerprints starting in September 
2003.

Question: 6. Are there any technical problems consulates encountered in 
implementing this technology?
Answer: We believe that all problems are being effectively addressed 
and that there are no major issues. As with any new system, areas for 
improvements and refinements have been identified. For example, the 
quality of some of the fingerprints captured by consulates had been 
identified as an issue by DHS. The Department is addressing this issue 
through improvements both in training and technology. Technical 
improvements include replacing the fingerprint scoring software, the 
software that determines the quality of the captured fingerprint, to 
use the same software that is being used by DHS. We believe that this 
will significantly reduce or eliminate the fingerprint quality problem. 
We are also making other modifications to the system to streamline the 
fingerprint capture process. Training is another significant issue, and 
we are taking steps to emphasize the fingerprint quality in our 
training, and developing detailed monitoring reports to identify posts 
that have low quality.
    Early in the startup process, the Department encountered several 
instances of communications/data exchange problems with DHS' systems. 
These problems appear to have been resolved by DHS and the current 
workload is being processed in an expeditious manner. As workload 
begins to increase as more consulates come on-line, the Department will 
continue to monitor the situation and coordinate resolution of any 
communications and/or data exchange problems with DHS.

Question: 7. What is the makeup of the State Department team 
implementing biometric equipment at consular posts? How much 
interaction and guidance does this team receive from US-VISIT in DHS?
Answer: Implementation ofbiometric equipment at all consular posts is 
done with the on-site assistance of a team of contractors supplemented 
by Foreign Service Officers and other State Department employees. The 
same contractor carrying out the installations also produces the 
software used for biometric collection.
    Interaction with DHS takes place daily, primarily regarding 
software development and data exchange. As installation teams identify 
problems and possible improvements, we discuss these with DHS to ensure 
that any changes we make will not interfere with the efficient 
operation of the IDENT database. As more posts are brought on-line, we 
also coordinate closely with DHS on data exchange issues to ensure 
IDENT response times remain within agreed limits.

Question: 8. Please advise us of which posts have stopped issuing same 
day visas either in the immigrant of nonimmigrant context due to this 
requirement. Please advise us if each post is experiencing a turn 
around time of seven to eight minutes for IDENT checks and of any time 
frames over or under this estimate.
Answer: Most posts have been able to continue same day visa issuance 
despite the new biometric requirements. CA is pleased with the 
performance of the IDENT check, and the majority of the responses are 
within our time budget. However we are still in the early stages of 
this project and are at less that 25 percent of the anticipated volume. 
We are monitoring this very closely and overall are cautiously 
optimistic.

Question: 9. Please provide us with any case examples of potential 
terrorists refused visas since January of 2004 under these procedures. 
In specific, please advise us of the number of visa refusals/denials 
under section 212(a)(3)(B) or 212(a)(3)(A)(ii).
Answer: So far there have been no examples of potential terrorists 
refused visas since January of 2004 because they were identified as 
potential terrorists under the new biometric procedures.
    From January 2001 through March 07, 2004, there were 18 visa 
applicants denied visas under Section 212(a)(3)(B) of the INA, and 12 
applicants denied under section 212(a)(3)(A)(ii). They were initially 
identified as potential terrorists by name-based terrorist watchlist 
information that is included in the visa lookout system known as CLASS.

Queston: 10. Will the state Department be able to meet the 
congressional deadline of issuance of biometric visas?
Answer: Yes, we will be able to meet the October 26, 2004 deadline.

Question: What action will the State Department take if Visa Waiver 
Program participants are unable to meet congressional deadlines for 
machine-readable and biometric passports?
Answer: By October 26, 2004, VWP countries must:
                        <bullet> Be producing machine readable 
                        passports (original deadline of 2003 waived by 
                        Secretary Powell and extended to October 2004);
                        <bullet> Have a ``program in place'' to produce 
                        biometric passports (mandated by Border 
                        Security Act);
                        <bullet> Be producing biometric 
                        passports(mandated by Border Security Act).
All VWP countries are now producing machine-readable passports. We 
expect that all but a few of the current VWP states will have a 
``program in place'' to produce biometric passports. However, it is 
unlikely that any government participating in the VWP program will be 
in large-scale production ofbiometric passports by the deadline. ICAO's 
decision to make facial recognition technology the standard passport 
biometric was not made until May 2003, leaving countries only 17 months 
to bring a biometric passport from design to production. While the VWP 
country governments share a commitment to make this change, many of 
them are encountering the same problems being experienced by the 
Department of State in our efforts to embed biometrics into the US 
passport. The need to resolve these significant technical problems to 
embed biometrics is the cause of these delays, not lack of will on the 
part of the VWP countries. Most governments are likely to reach full 
production of passports with embedded biometrics by late 2005 or early 
2006.
    The US has played a leadership role in ICAO. We have had repeated 
meetings with VWP representatives to educate VWP governments about the 
requirements and deadlines. In December Secretary Powell sent a 
diplomatic note to the VWP countries regarding the criteria for 
certification of a biometric passport program and noting that there was 
no waiver for the production deadline. We are still receiving responses 
from those countries.
    Travelers from VWP countries with passports issued on or after 
October 26, 2004 that do not contain biometrics will need visas to 
travel to the States. This means that the Department of State could be 
faced with an increase in demand of some 5.3 million visa applications 
in fiscal year 2005 and a somewhat smaller increase in fiscal year 2006 
as VWP countries come into compliance with the legislative requirement. 
We estimate that we will be able to process only a fraction of that 
additional workload with current resources and that the surge in 
applications will result in long processing backlogs.
    Secretary Powell and Secretary Ridge recently wrote Judiciary 
Committee Chairman Sensenbrenner to advocate the need for prompt action 
to get a legislative fix to the deadline and to advise him that they 
welcome the invitation to testify before the Committee on April 21 on 
the subject. If legislative relief does not occur, State has prepared 
aggressive contingency plans to mitigate partially the impact of the 
deadline. However, the Department will not be able to identify, and 
mobilize resources to meet 100 percent of the demand before the problem 
will be resolved by the production of biometric passports by the VWP 
nations. The economic costs to the U.S. economy could be substantial.

       Questions and Responses from the Honorable Asa Hutchinson

Question: 1. Will you be able to meet the DMIA statutory requirements 
to collect arrival and departure information at the top fifty land 
ports of entry by December 2004?
Answer: The US-VISIT strategy to meet the statutory guidelines of DMIA 
and other legislation is an incremental approach to implementation. On 
5 January 2004, DHS implemented the first phase to collect biographic 
arrival data and biometric data upon entry in the air/sea environments. 
This functionality was successfully expanded to capture arrival 
biographic and biometric information during US-VISIT processing in the 
passport control area in secondary of the 50 busiest land ports of 
entry by the DMIA mandated deadline of 31 December 2004. Please note, 
however, that the December 2004 deadlines imposed by DMIA require only 
the integration of arrival and departure information. To that end, US-
VISIT is currently conducting exit pilot projects at several 
international airports and will expand exit data collection 
capabilities at land ports via additional pilot programs beginning no 
later than July 31, 2005.

Question: 2. Please provide the Select Committee with an official list 
of ports of entry at which US-VISIT is operational and not operational. 
At ports where US-VISIT is not operational please provide a time line 
for full implementation of US-VISIT.
Answer: The following lists all air and sea ports of entry at which US-
VISIT is operational as of December 2004. On November 9, 2004, US-VISIT 
published a notice in the Federal Register (69 FR 64964) that lists the 
50 largest land ports of entry where biometric screening at entry was 
implemented by December 31, 2004. A copy of that notice is attached.
Airports
Agana, Guam (Agana International Airport)
Aguadilla, Puerto Rico (Rafael Hernandez Airport)
Albuquerque, New Mexico (Albuquerque International Airport)
Anchorage, Alaska (Anchorage International Airport)
Andrews Air Force Base, Maryland
Albany, New York (Albany International Airport)
Aruba (Pre-Flight Inspection)
Atlanta, Georgia (William B. Hartsfield International Airport)
Austin, Texas (Austin Bergstrom International Airport)
Baltimore, Maryland (Baltimore/Washington International Airport)
Bangor, Maine (Bangor International Airport)
Bellingham, Washington (Bellingham International Airport)
Boston, Massachusetts (General Edward Lawrence Logan International 
Airport)
Brownsville, Texas (Brownsville/South Padre Island Airport)
Buffalo, New York (Greater Buffalo International Airport)
Calgary, Canada (Pre-Flight Inspection)
Chantilly, Virginia (Washington Dulles International Airport)
Charleston, South Carolina (Charleston International Airport)
Charlotte, North Carolina (CharlottelDouglas International Airport)
Chicago, Illinois (Chicago Midway Airport)
Chicago, Illinois (Chicago O'Hare International Airport)
Cincinnati, Ohio (Cincinnati/Northern Kentucky International Airport)
Cleveland, Ohio (Cleveland Hopkins International Airport)
Columbus, Ohio (Rickenbacker International Airport)
Columbus, Ohio (Port Columbus International Airport)
Dallas/Fort Worth, Texas (Dallas/Fort Worth International Airport)
Del Rio, Texas (Del Rio International Airport)
Denver, Colorado (Denver International Airport)
Detroit, Michigan (Detroit Metropolitan Wayne County Airport)
Dover/Cheswold, Delaware (Delaware Airpark)
Dublin, Ireland (Pre-Flight Inspection)
Edmonton, Canada (Pre-Flight Inspection)
El Paso, Texas (El Paso International Airport)
Erie, Pennsylvania (Erie International Airport)
Fairbanks, Alaska (Fairbanks International Airport)
Fajardo, Puerto Rico (Diego Jimenez Torres Airport)
Fort Lauderdale, Florida (Fort Lauderdale Executive Airport)
Fort Lauderdale, Florida (Fort Lauderdale/Hollywood International 
Airport)
Fort Myers, Florida (Fort Myers International Airport)
Freeport, Bahamas (Pre-Flight Inspection)
Greenville, South Carolina (Donaldson Center Airport)
Hamilton, Bermuda (Pre-Flight Inspection)
Hartford/Springfield, Connecticut (Bradley International Airport)
Honolulu, Hawaii (Honolulu International Airport)
Houston, Texas (Houston International Airport)
Indianapolis, Indiana (Indianapolis International Airport)
International Falls, Minnesota (Falls International Airport)
Isla Grande, Puerto Rico (Isla Grande Airport)
Jacksonville, Florida (Jacksonville International Airport)
Juneau, Alaska (Juneau International Airport)
Kansas City, Kansas (Kansas City International Airport)
Kenmore, Washington (Kenmore Air Harbor)
Key West, Florida (Key West International Airport)
King County, Washington (King County International Airport)
Kona, Hawaii (Kona International Airport)
Laredo, Texas (Laredo International Airport and Laredo Private Airport)
Las Vegas, Nevada (McCarren International Airport)
Los Angeles, California (Los Angeles International Airport)
Manchester, New Hampshire (Manchester Airport)
Mayaguez, Puerto Rico (Eugenio Maria de Hostos Airport)
McAllen, Texas (McAllen Miller International Airport)
Memphis, Tennessee (Memphis International Airport)
Miami, Florida (Kendall/Tamiami Executive Airport)
Miami, Florida (Miami International Airport)
Milwaukee, Wisconsin (General Mitchell International Airport)
Minneapolis/St. Paul, Minnesota (Montreal, Canada (Pre-Flight 
Inspection)
Nashville, Tennessee (Nashville International Airport)
Nassau, Bahamas (Pre-Flight Inspection)
New Orleans, Louisiana (New Orleans International Airport)
New York, New York (John F. Kennedy International Airport)
Newark, New Jersey (Newark International Airport)
Norfolk, Virginia (Norfolk International Airport and Norfolk Naval Air 
Station)
Oakland, California (Metropolitan Oakland International Airport)
Ontario, California (Ontario International Airport)
Opa Locka/Miami, Florida (Opa Locka Airport)
Orlando, Florida (Orlando International Airport)
Orlando/Sanford, Florida (Orlando/Sanford Airport)
Ottawa, Canada (Pre-Flight Inspection)
Philadelphia, Pennsylvania (Philadelphia International Airport)
Phoenix, Arizona (Phoenix Sky Harbor International Airport)
Pittsburgh, Pennsylvania (Pittsburgh International Airport)
Ponce, Puerto Rico (Mercedita Airport)
Portland, Maine (Portland International Jetport Airport)
Portland, Oregon (Portland International Airport)
Portsmouth, New Hampshire (Pease International Tradeport Airport)
Providence, Rhode Island (Theodore Francis Green State Airport)
Raleigh/Durham, North Carolina (Raleigh/Durham International Airport)
Reno, Arizona (Reno/Tahoe International Airport)
Richmond, Virginia (Richmond International Airport)
Sacramento, California (Sacramento International Airport)
Salt Lake City, Utah (Salt Lake City International Airport)
San Antonio, Texas (San Antonio International Airport)
San Diego, California (San Diego International Airport)
San Francisco, California (San Francisco International Airport)
San Jose, California (San Jose International Airport)
San Juan, Puerto Rico (Luis Munoz Marin International Airport)
Sandusky, Ohio (Griffing Sandusky Airport)
Sarasota/Bradenton, Florida (Sarasota-Bradenton International Airport)
Seattle, Washington (Seattle/Tacoma International Airport)
Shannon, Ireland (Pre-Flight Inspection)
Spokane, Washington (Spokane International Airport)
St. Croix, Virgin Island (Alexander Hamilton International Airport)
St. Louis, Missouri (St. Louis International Airport)
St. Lucie, Florida (St. Lucie County International Airport)
St. Petersburg, Florida (St. Petersburg-Clearwater International 
Airport)
St. Thomas, Virgin Island (Cyril E. King International Airport)
Tampa, Florida (Tampa International Airport)
Teterboro, New Jersey (Teterboro Airport)
Toronto, Canada (Pre-Flight Inspection)
Tucson, Arizona (Tucson International Airport)
Vancouver, Canada (Pre-Flight Inspection)
Victoria, Canada (Pre-Flight Inspection)
West Palm Beach, Florida (Palm Beach International Airport)
Wilmington, North Carolina (Wilmington International Airport)
Winnipeg, Canada (Pre-Flight Inspection)
Yuma, Arizona (Yuma International Airport)
Seaports
Long Beach, California
Miami, Florida
New York City
Port Everglades, Florida
Port Canaveral, Florida
Port Canaveral, Florida (Terminal 10)
San Juan, Puerto Rico
San Pedro, California
Seattle, Washington (Cruise Terminal)
Seattle, Washington
Tampa, Florida (Terminal 3)
Tampa, Florida (Terminal 7)
Vancouver, Canada (Ballantyne Pier)
Vancouver, Canada (Canada Place)
Victoria, Canada (Pre Inspection)
West Palm Beach, Florida

3. We understand that entry and exit enhancements at land borders will 
be phased in throughout 2005 and 2006. Provide a description of what 
enhancements are planned at land borders, including whether 
enhancements are new construction or renovation of existing land border 
facilities.
Answer: By 31 December 2004, US-VISIT entry processing will be 
implemented at the 50 busiest land ports of entry and to all 165 land 
ports of entry (POEs) by 31 December 2005 in secondary inspection.
    Modification to entry and exit facilities is needed to accommodate 
the technology required to implement the US-VISIT process. These 
modifications may best be described as upgrades where new equipment, 
power, conduit, and data connectivity are required to support the 
mission. These upgrades will include facility renovations and 
alterations to support the technology integration that will occur as 
the processes and technologies mature. These enhancements are focused 
on providing functionality to interior locations (typically secondary, 
or passport control, areas). Following this initial operating 
capability, modification to vehicle entry and exit lanes will be needed 
to expedite legitimate travel and trade. In addition, US-VISIT will 
begin pilot programs at 5 ports of entry by July 31, 2005, utilizing 
radio frequency identification technology in order to document the 
exits and any subsequent re-entries of persons both on foot and in 
vehicles.
    The US-VISIT program does not anticipate that the implementation of 
the new process will result in additional delays at land borders, but 
is mindful of the concerns expressed by various individuals and 
organizations. The US-VISIT program has been meeting with various 
community groups along the border to discuss their concerns. The US-
VISIT program anticipates utilizing advanced technology to meet 
statutory requirements as we move into the future in order to 
facilitate travel.

Question: 4. In your testimony you stated that US-VISIT was ``linked'' 
to the Terrorist Screening Center. Please provide a detailed 
description of this ``link''. It is our understanding that while US-
VISIT uses data from the TSC which is resident in the NCIC, there is no 
actual real time link to the TSC as the TSC has not yet set up its own 
database. What is the eventual operational relationship you envision 
between US-VISIT and the TSC?
Answer: It is correct that any TSC biographic record in NCIC queries 
TECS for every traveler coming into country. TSC terrorist prints from 
FBI IAFIS are also available if the FBI has provided said prints via 
the link to IDENT. We note, however, that currently there does not 
exist a real time link to the TSC. Our technical team is currently 
working with the TSC in order to further refine our mutual data 
sharing.

    Question: 5. What checks are being conducted against passenger 
manifests for arriving passengers at air and seaports?
Answer: Prior to arrival, information on passengers (including name, 
date of birth, and document (passport/visa type and number) is checked 
using the TECS/IBIS system

Question: 5.1. Who conducts these checks and how long do they take?
Answer: The TECS/IBIS checks are performed after departure from the 
foreign port and prior to arrival at the U.S. port of entry by the 
Customs and Border Protection (CBP) passenger analysis units located at 
each port of entry. The exact time needed to conduct these checks will 
depend upon the number of passengers, the number of officers to perform 
the checks, and the results of each check. However, since they are 
performed after departure and prior to arrival, they have no effect on 
passenger wait times. If a potential hit is made, the traveler will be 
flagged for further review. This same protocol is followed for 
passengers arriving on cruise ships.

Question: 5.2. What specific checks do these include?
Answer: TECS/IBIS contains data derived from a variety of sources. 
These include, but are not limited to, the following:
        -- DHS immigration lookout data--NAILS;
        -- Department of State terrorist and visa refusal data (CLASS 
        and TIPOFF);
        -- DHS alien detention and removal information (DACS);
        -- Drug Enforcement Administration (DEA) data; and
        -- Provides a conduit to the FBI's wants and warrants and 
        criminal information database (NCIC).

Question: 5.3. What specific databases, systems and watch lists does 
IBIS interface or integrate?
Answer: See the answer for Q01537(2) above.

Question: 6. What checks are being conducted against passenger 
manifests for arriving passengers at air and seaports?
Answer: See answer to Q01537.

7. We understand that the self-service, automatic kiosks allowing a 
departing foreign visitor to automatically register their departure by 
scanning their visa and capturing a fingerprint. In scanning the visa, 
we understand that the proposed system will only read the information 
on the visa that is within the machine-readable zone. This is despite 
the fact that Congress has appropriated funds to increase the security 
of the U.S. visa by impeding security features (ink, laminate. etc.) so 
as to make the visa more tamper resistant.

Question: 7.1. Is it indeed the case that the kiosks are not yet 
scanning and authenticating the special security features that are 
imbedded in the U.S. visa?
Answer: At this time, yes. However, the scan of a U.S. nonimmigrant 
visa is for the collection of biographic information in order to 
provide a specific identifier to the biometric also collected at the 
kiosk. The machine-readable zone of a visa or a passport can be used. 
The biometric and biographic information from exit are then matched to 
the information collected at entry, confirming the identity of the 
individual.

Question: 7.2. If the kiosks are not scanning and authenticating the 
special security features, does the Department plan to eventually do 
so? If so, when?
Answer: There are no specific plans to incorporate authentication of 
the U.S. nonimmigrant visa into the exit process, as the use of the 
visa for departure is only needed to speed up the biometric matching of 
a person's identity to the biographic and biometric information 
collected during entry. DHS confirms the identity of the visa holder 
against government held records, through the biometric match of the 
individual.

Question: 8. What are the current alternatives for exit control being 
considered at air and seaports?
Question 8.1. What is the schedule for such exit controls being put in 
place at our air and seaports beyond the current one air and one sea 
port?
Answer: A pilot test of alternative exit biometric collection devices 
began in the summer of 2004 at 15 locations (13 air and 2 seaports) and 
will continue until the end of March 2005. Once the device(s) is 
selected, deployment to the remaining departure locations will be 
completed. DHS anticipates that, depending on the receipt of funding 
and necessary approvals, this deployment will be completed in 2005.

Question: 8.2. What are the staffing and infrastructure needs for such 
implementation?
Answer: The staffing and infrastructure needs will be assessed as part 
of the pilot evaluation. Depending on the device or devices chosen, the 
needs may vary.

Question: 8.3. What database checks will occur upon exit in this 
system?
Answer: As with the entry process, checks will be made against systems 
in the US-VISIT environment. These include the Automated Biometric 
Identification System (IDENT), a fingerprint biometric database and 
against extracts provided through the FBI's Integrated Automated 
Fingerprint Identification System (IF AIS). (Note however that the 
IFAIS checks are currently not run in real time.) Additionally, the 
information will be transmitted to the Arrival Departure Information 
System (AD IS) to confirm the exit of an individual.

Question: 8.4. How will the public be educated on the measures to take 
to comply with this system?
Answer: The US-VISIT program has a robust outreach effort in place to 
educate visitors and explain US-VISIT procedures for both entry and 
exit. In addition to providing information to our international 
stakeholders in the travel and tourism industry and the business 
community, we are working with the media in the visa waiver countries 
to have them help us educate foreign visitors. We have provided 
information to our colleagues in the Department of State Consular 
Affairs Offices overseas so that they, too, can explain the required 
exit process.
    We have also produced print materials. When foreign visitors arrive 
in the United States, they receive a card (exit card) that explains the 
requirement to check out upon departing the country. When the visitor 
leaves the country, he or she goes to the airline ticket counter to 
check in for the flight and the ticket agent hands him or her an exit 
card that explains the process and directs the traveler to an exit 
station to check out. There will be directional signs visible to lead 
the way once a visitor is through the Transportation Security 
Administration (TSA) security check point, and educational signs will 
be located near the exit stations to explain what to do to check out. 
And finally, an announcement will be made at the departure gates to 
remind visitors to check out before boarding the plane.

Question: 8.5. What efforts have you made so far for this public 
information campaign?
Answer: The public education campaign for exit has been coordinated 
with stakeholders through speaking events, e-mails, trade shows, and 
meetings. We have provided these valuable stakeholders with the 
information they need to tell their customers what to expect when they 
arrive in and depart from the United States. We have produced exit 
cards, educational signs, and directional signs.
    Additionally, the entry and exit requirements are incorporated into 
the general US-VISIT materials, which include brochures, airport 
signage, and on-board handouts in multiple languages; in-flight videos 
in 15 languages; and public service announcements (PSA) being aired in 
airport lounges.
    Finally, a growing group of more than 500 stakeholders receive US-
VISIT information on a regular basis through our e-newsletter.

Question: 8.6. Has a policy been established to determine penalties for 
those who are determined to have violated the terms of their visa 
through US-VISIT?
Answer: An alien who fails to comply with the departure requirements 
may be found in violation of the terms of his or her admission, parole, 
or other immigration status. This rule states that an alien who is 
covered by the requirements to provide biometrics on departure at new 8 
CFR 215.8 may be found to have overstayed the period of his or her last 
admission if the available evidence indicates that he or she did not 
leave the United States when required to do so. A determination that 
the alien previously overstayed may result in a finding of 
inadmissibility for accruing prior unlawful presence in the United 
States under section 212(a)(9) of the INA, provided that the accrued 
unlawful time and other prerequisites of that statute are met, or that 
the alien is otherwise ineligible for a visa or other authorization to 
reenter the United States. An overstay finding could also trigger 
consequences for a nonimmigrant visa holder under section 222(g) of the 
INA. If the person is deemed to have overstayed his authorized period 
of admission, his visa (including a multiple entry visa) would be 
deemed void under section 222(g). Section 222(g) further states that 
where a visa is void because the alien overstayed, he or she is 
ineligible to be readmitted to the United States as a nonimmigrant 
except on another visa issued in the consular office located in the 
country of the alien's nationality, or where there is no DOS office in 
the country, in such other consular office as the Secretary of State 
shall specify. The requirement of obtaining a new visa from the 
consular office in the country of the alien's nationality may be waived 
where extraordinary circumstances are found. 8 U.S.C. 1202(g). The 
Department intends to focus its enforcement of departure requirements 
in this rule on cases where the alien willfully and unreasonably fails 
to comply with this regulation. The rule provides that an alien's 
failure to follow the departure procedures may be considered by an 
immigration or consular officer in making a discretionary decision on 
whether to approve or deny the alien's application for a future 
immigration benefit. The rule does not, however, state that an alien's 
failure to comply with departure procedures in every instance will 
necessarily result in a denial of a future visa, admission or other 
immigration benefit. For example, no alien will be penalized for 
failing to provide biometrics on departure where the Department has not 
yet implemented the departure facilities or procedures at the specific 
port where the person chooses to depart. There may well be instances 
where a consular officer or inspector, in his or her discretion and 
after reviewing the totality of the circumstances, determines that an 
alien's previous failure to comply with the departure procedures does 
not result in a finding of inadmissibility or the denial of an 
immigration benefit.

Question: 9. Is any integration or discussion going on with TSA to 
possibly coordinate the Exit component with their plans to use 
electronic boarding passes during security checks? Is it possible to 
unite this process with the US-VISIT Exit to ensure that visa holders 
are ``checked-out?''
Answer: US-VISIT is collaborating among multiple government agencies, 
notably among the components of the Department of Homeland Security 
(DHS) and the Departments of State, Justice, Commerce, and 
Transportation to take positive steps toward greater information 
sharing. These partnerships are leveraging resources to improve data 
availability to all agencies. Specifically, DHS is looking for ways to 
partner with TSA to meet joint objectives and analyze current business 
processes.
    The award of the prime integration contract to the Smart Border 
Alliance will allow the US-VISIT program to look at all aspects of a 
traveler's entry and exit process and determine integration points from 
operational and technical positions, which could include TSA's 
processes. TSA is an integral partner in the ongoing exit evaluations.

10. Ms. Harty testified that IDENT checks at the consulate were taking 
seven to eight minutes. A 001 Department of Justice Office of the 
Inspector General IG report indicates that an IDENT check takes an 
average of two minutes. US-VISIT enrollment takes ten to fifteen 
seconds. The US-VISIT office has indicated that certain biometric 
checks are conducted of US-VISIT enrollees after admission.

    10.1. Please advise what improvement has been made on the IDENT 
checks at ports of entry to allow a full IDENT check to occur in ten to 
fifteen seconds.
Answer: The IDENT system is designed to be flexible and scalable. It is 
tuned to provide different response times for different operational 
requirements. For example, the system is sized to provide full lookout 
checks against a fingerprint database for every traveler entering an 
air and sea port of entry within 10 seconds. (In fact, the actual 
response time is nearer 5 seconds). Because the time constraints at the 
consular posts are different, IDENT is tuned to provide a response 
against the lookout database and the US-VISIT (all individuals 
enrolled) database in less than 15 minutes. Finally, IDENT is tuned to 
check newly enrolled individuals within a set period of time after 
admission. For future admissions, the individual is checked ``one to 
one'' against a previously established unique record. At this time, we 
do not believe it is necessary or feasible to run new enrollments 
against all IDENT records, including those previously enrolled, within 
the primary inspection process.

    10.2. Please clarify the nature of the actual check if a less than 
full IDENT biometric check is conducted at enrollment.
Answer: Upon enrollment into US-VISIT, resulting either from a 
Department of State visa application or at a port of entry, a full 
check is performed against the lookout database and the US-VISIT 
database of enrolled travelers. When the individual arrives at the port 
of entry, her/his identity is confirmed against a previously enrolled 
identity, and a full lookout check is performed.

10.3. What actual portion of the IDENT database is checked within this 
ten to fifteen second period?
Answer: Please note that it is the time it takes to collect the two 
index prints from a traveler that is 10 to 15 seconds. This action is 
performed anytime IDENT is queried, regardless of which business 
process is being performed. Once the fingers are scanned, the IDENT 
system will return a one-to-one match instantaneously, and a lookout 
check in less than 10 seconds at primary.

Question: 11. A May 2003 report the Department of Justice Office of the 
Inspector general indicated that the IDENT and IAFIS integration was 
``at least two years behind schedule'' and that staff focused on the 
integration were redirected to the NSEERS project. What is the current 
status of IDENT and IAFIS integration? What is needed to expedite the 
integration?
Answer: DHS has begun the deployment of the integrated IDENT/IAFIS 
workstations. This provides for rapid identification of individuals 
with outstanding criminal warrants through electronic comparison of 
ten-print digital finger scans against a vast nationwide database of 
previously captured fingerprints. The newly advanced capability allows 
simultaneously search the FBI's fingerprint database--the Integrated 
Automated Fingerprint Identification System (IAFIS)--and DHS's 
Automated Biometric Identification System (IDENT). As of September 
2004, integrated IDENT/IAFIS terminals with ten-print biometric 
identification technology was operational in every U.S. Customs and 
Border Protection (CBP) Border Patrol station throughout the country. 
This deployment was completed months ahead of schedule, and was 
expanded to include secondary inspection locations at all 115 air and 
sea ports of entry and the 50 busiest land ports of entry. The 
secondary inspection air, sea, and land port deployment was completed 
in November 2004.
    In addition, in FY 2005 appropriations language, Congress directed 
the US-VISIT Program Office to report on the status of achieving real 
time interoperability between IDENT and IAFIS, including steps DHS will 
take to integrate IAFIS into IDENT, funds needed, and a time table for 
full integration. While the integrated workstations will permit a 
simultaneous search of IAFIS and IDENT, they will not allow local, 
state and other IAFIS users to access DHS repositories. The language 
also directs DHS to address recommendations in the Department of 
Justice Inspector General report. US-VISIT expects to submit this 
report in spring 2005.

    The current biometrics being used at selected air and sea ports of 
entry call for two fingerprints and a photograph of the foreign 
national. While the Administration has maintained that it is currently 
in ``increment one'' in a four stage process and it may likely move 
towards using a ten-print system, will using two-prints impact the 
agency's ability to capture individuals who are listed in the Federal 
Bureau of Investigation's database, which uses ten-prints?
Answer: US-VISIT is currently able to perform checks against FBI 
provided data utilizing the two fingerscan system. This ability has 
already resulted in the identification of individuals, who were wanted 
or had past criminal violations. As of 1/26/2005, approximately 2,300 
persons have been flagged at ports of entry as having a hit against a 
lookout system. Note however that the presence of a hit does not 
automatically render the person ineligible for admission. The 
Department of State has also flagged over 5,000 persons as hits when 
the individuals were applying for a nonimmigrant visa oversea.
    Although there was some early concern about false positives in a 
two-print scenario, a recent National Institute of Standards and 
Technology (NIST) study of the US-VISIT IDENT system showed that the 
false positive or False Acceptance Rate (FAR) appears to rise in a 
consistent manner with the rise in the size of the fingerprint 
database. This has been born out empirically. The FAR has proved to be 
measurable and consistent. To deal with this, US-VISIT has developed 
processes to efficiently manage the false positives as they occur. For 
example, of the roughly 35,000 travelers who are processed through the 
US-VISIT IDENT system every day, about 30 of travelers are identified 
with a false positive against the lookout list and are sent to 
secondary. The average time for a fingerprint examiner to clear a 
lookout false positive is about three and a half minutes.
    The NIST report cited here (C. L. Wilson, M.D. Garris, C.I. Watson. 
Matching performance for the US-VISIT IDENT system using flat 
fingerprints. NISTIR 7110) provides the justification for the 
statements give about FAR. The answer neglects to cite the results from 
another NIST report (R.A. Hicklin, H. Korves, B. Ulery, M. Zoepfl, M. 
Bone, P. Grother, R. Micheals, S. Otto, C. Watson. Fingerprint Vendor 
Technology Evaluation (FpVTE) 2003. NISTIR 7123) which clearly found 
that increasing the number of fingerprints used in matching from two to 
eight would substantially improve TAR (True Accept Rate) and 
substantially reduce FRR (False Reject Rate).
    The performance of the US-VISIT IDENT system is monitored very 
closely. As the FAR rises with the size of the database, the US-VISIT 
program office will make the necessary adjustments in the numbers of 
fingerprint examiners and in the technology (which mayor may not 
include adding additional fingers) to manage this.
    The current two-print capture provides the ability to match against 
appropriate records that are maintained by the FBI and provided daily 
to US-VISIT. This is done on a routine basis. There is no difficulty 
matching the two prints collected by US-VISIT against the 10 prints 
provided by the FBI.

12. Please advise us of when and if you anticipate that an accurate 
Integrated Automated Fingerprint Identification System (IAFIS) check 
could be conducted at time of US-VISIT enrollment.
Answer: 12. At this time there are no plans to conduct such a check. 
Checking every traveler against all the fingerprints available is not 
operationally feasible, both because of the time it takes to capture 10 
prints and the time it takes for the FBI to respond to the queries. The 
capture of two prints takes between 10 to 15 seconds. Results are 
returned to an inspector within two to 10 seconds - well within the 
current time it takes to do an inspection. Even in a controlled 
environment with a willing subject, experience has shown that the 
capture time for taking 10 prints is anywhere from six to 10 minutes. 
Currently, the results take two to 10 minutes. DHS modeling has shown 
that even a few seconds can have a catastrophic effect upon wait times.
    The answer that ``capture time for taking 10 prints is anywhere 
from six to 10 minutes'' would be correct for ten rolled fingerprints. 
NIST has never recommended the capture of rolled fingerprint as part of 
the US-VISIT system. The NIST recommendation is ``To perform background 
identifications, ten plain image impressions should be used for 
enrollment and retention.'' The collection often plain impressions has 
been demonstrated at NIST in approximately 20 seconds. Pilot tests by 
the Department of State in Mexico have collected ten plain impressions 
in one minute or less. Collection of ten plain prints does not require 
physical contact with the operator of the collection system.

    Question: 12.1. What are the current rates of false positives in 
this scenario?
Answer: According to the National Institutes of Standards and 
Technology (NIST) both two prints and 10 prints have a very high degree 
of accuracy. Both have a True Acceptance Rate (TAR) of over 95 percent 
(a measure of false negative). The US-VISIT IDENT system has TAR of 96 
percent. What this means in practical terms is that if an individual 
wishes to enter the country under a new name using a fraudulent 
document, she/he would have to pass the Department of State visa 
issuance and pre-entry processes, including checks against lookout 
databases, the normal inspections process, and then that person would 
only have a 3.5 percent chance of avoiding identification through 
biometric means. (Overseas, a person would first be measured against 
TAR as part of the DOS nonimmigrant visa issuance process, then again 
when applying for admission to the United States.)
    The NIST report cited here (C.L. Wilson, M.D. Garris, C.I. Watson. 
Matching performance for the US-VISIT IDENT system using flat 
fingerprints. NISTIR 7110) provides the justification for the 
statements give about TAR of 96 percent. As with question 11, the 
answer neglects to cite the results from another NIST report (R.A. 
Hicklin, H. Korves, B. Ulery, M. Zoepfl, M. Bone, P. Grother, R. 
Micheals, S. Otto, C. Watson. Fingerprint Vendor Technology Evaluation 
(FpVTE) 2003. NISTIR 7123) which clearly found that increasing the 
number of fingerprints used in matching from two to eight would 
substantially improve TAR and reduce the chance of avoiding 
identification through biometric means.
    False positives or the False Acceptance Rates (FAR) for the US-
VISIT IDENT system have proved to be measurable and consistent. To deal 
with this issue, US-VISIT has developed processes to efficiently manage 
the false positives as they occur. For example, of the roughly 35,000 
travelers who are processed through the US-VISIT IDENT system every 
day, about 30 of them are false positives against the lookout list and 
are sent to secondary. On the rare occasion that there is a false 
positive, the average time for a fingerprint examiner to clear a 
lookout false positive is only 3 minutes and 40 seconds. And as already 
noted in answer to question 1548, the expanded deployment of the IDENT/
IAFIS program to all secondary inspection and Border Parole stations 
allows our agents to simultaneously search both these data bases in 
instances where we suspect that people are attempting to enter the 
United States illegally.

Question: 12.2. What is the current timeline and cost for such 
integration?
Answer: As there is no operational need, and because the cost would 
prove prohibitive (in systems, facilities, and personnel), there is no 
plan to perform 10-print IAFIS checks for US-VISIT. However, NIST 
cannot comment on the projected cost of this integration but NIST 
studies of both the IDENT and IAFIS systems show that this integration 
would reduce the chance of avoiding identification through biometric 
means.
Question: 14. How can inaccurate data in databases which US-VISIT is 
interfacing and integrating be collected by a member of the public 
subject to such errors?

Question: 14.1. Will you consider a contact through which such 
corrections could be made?
Question: 14.2. Has there been any thought to establishing a contact 
point at all field operation offices to correct erroneous admission 
documents issued at ports of entry?
Answer: US-VISIT has established a redress process, giving travelers 
processed through US-VISIT a fast and easy way to have their US-VISIT 
records accessed and checked for accuracy, relevancy, timeliness, or 
completeness. The first stage in the process occurs at the primary 
inspection lane at the port of entry and provides immediate data 
correction by the U.S. Customs and Border Protection (CBP) officer. The 
CBP officer can correct the traveler's name, date of birth, flight 
information, and country-specific document number and document type 
errors. Biometric errors are sent to US-VISIT for correction.Travelers 
no longer at the POE can contact the US-VISIT privacy officer, who has 
set a goal of processing redress requests within 20 business days. With 
almost six million travelers processed through US-VISIT, only 33 
individuals have contacted the Privacy Officer about their records. The 
US-VISIT redress process is available at www.dhs/us-visit.gov and the 
US-VISIT privacy officer can be contacted by telephone, fax or a new 
email address at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="275254514e544e5357554e5146445e67434f540940485109">[email&#160;protected]</a>

Question: 15. How is CLAIMS III being accessed during US-VISIT?
Answer: DHS has created an interface between CLAIMS 3 and a component 
of the US-VISIT environment. This ensures that information about 
pending immigration benefit applications, approved or denied, is 
available to make determinations about whether someone is lawfully in 
the country or has overstayed her/his admission.

Question: 16. Will Mexican biometric border crossing card holders be 
subject to enrollment in US-VISIT?
Answer: Mexican nationals who present a Form DSP-150, B-1/B-2 visa and 
border crossing card (BCC) upon arrival in, or departure from, the 
United States, and who are not required to be issued a Form 1-94 
Arrival Departure Record at the time of admission, are exempt from the 
US-VISIT biometric data collection requirements. This means that 
Mexican nationals who will travel beyond 25 miles of the border (75 
miles if admitted in Arizona) or who will remain longer than 30 days 
are subject to the US-VISIT biometric data requirements. This exemption 
may change when the Department explores a longterm solution to record 
the entry and exit of visitors crossing our land ports of entry.

Question: 17. Is it possible to integrate data that the State 
Department has on biometric border crossing card users into the US-
VISIT database?
Answer: Yes. We have included this task in the FY 2005 US-VISIT 
Expenditure Plan.

Question: 18. How many land ports of entry have scanners to read 
biometric passports and visas?
Answer: All ports of entry have optical character recognition (OCR) 
scanners to read machine-readable passports, visas, and other travel 
documents. In addition, 51 land border ports of entry have scanners to 
read the optical memory stripe of border crossing cards and alien 
registration cards. While the standards governing biometric passports 
have been developed, issues surrounding global interoperability, 
durability, skimming, and eavesdropping on personal data are in the 
process of being resolved. The Department of Homeland Security in 
conjunction with US-VISIT, ICAO, NIST, ISO, and others, tested chips 
and readers for e-passports/visas in July 2004 at the National 
Biometrics Security Project Laboratory in Morgantown, West Virginia. 
This was followed by a mock test at BWI airport in November 2004. Based 
on the findings of these tests, plans are now being developed for a 
live test, most likely at Los Angeles International Airport in June 
2005.

Question: 19. How many inspection lanes (passenger, mass transit, 
commercial, pedestrian) currently exist at our land ports at each 
crossing? Please provide a list of this data?
Answer: There are 165 land ports of entry, of which there are 490 
inbound primary noncommercial lanes, 176 primary commercial lanes, and 
118 primary pedestrian lanes. Attached is a spreadsheet with a 
breakdown by port of entry.

20. How many of the above inspection lanes have the capacity to take 
fingerprints, which will be read against any portion of IDENT or any 
other biometric database? Please advise of which ones have this 
capacity.
Answer: This function is not performed at primary lanes, but at all 165 
land ports, this function can be performed in secondary inspection in 
support of primary/enforcement activities.

21. We understand that the State Department has refused to collect the 
Student and Exchange Visitor Information System (SEVIS) fee on behalf 
of the Department of Homeland Security (DHS).

Question: 21.1. Have negotiations continued with the State Department 
on fee collection?
Answer: The Department of State (DoS) and DHS have been working on fee 
collection methods. Specifically, DHS proposed a pilot project to have 
DoS collect the fee for DHS in China and India, where access to credit 
cards and local postal services may be limited. Both the Under 
Secretary for Border and Transportation Security, Asa Hutchinson and 
Assistant Secretary for Consular Affairs, Maura Harty agreed to 
investigate the viability of the proposal. The proposal suggested 
leveraging the DoS relationship with local financial institutions to 
establish a collection process in China and to use the same collection 
process as the visa fee for the SEVIS fee at the embassies and 
consulates in India. This collection process would include allowing the 
student or exchange visitor to pay in local currency. DHS and DoS have 
formed a working group to evaluate this option and identify points of 
concern for further consideration. Discussions are ongoing on this 
issue.

Question: 21.2. Because the proposed rule has no convenient way in 
which to pay the SEVIS fee, what has DHS done in order to make this 
easier for the student?
Answer: There is, in fact, a convenient way to pay the SEVIS fee. SEVIS 
fee payment statistics illustrate that the students and exchange 
visitors are not having problems paying the fee. Of the SEVIS fees 
collected to date, 96 percent have been made via credit card. The 
Student Exchange Visitor Program (SEVP) established several fee payment 
options that were available beginning on September 1 for fee 
collection. Students and exchange visitors have the option to pay with 
a check by mail, with a credit card or debit card via the Internet, or 
by third-party payment, such as through batch payment whereby sponsors 
pay for an entire group of individuals, or where the student selects a 
friend or relative to pay the fee on his or her behalf. SEVP continued 
to review alternate payment methods that would allow the student or 
exchange visitor to pay in local currency. Through no additional cost 
to the program, on November 1 SEVP instituted a new fee payment option 
with Western Union. This payment method allows applicants to pay the 
fee in local currency in over 130 countries where Western Union offers 
their QuickPay<SUP>TM</SUP> option. SEVP's relationship with the DoS 
Office of Consular Affairs--who quickly alerted overseas Posts to 
accept Western Union receipts as proof of payment--made this option 
possible. These payment methods are working well. However, when 
problems with fee payment do arise, SEVP has established the SEVIS fee 
Case Resolution Unit (CRU) to provide individual assistance. SEVP is 
aware of fee payment problems in Nigeria and Ghana, but those cases 
only represent approximately 1 percent of the total student/exchange 
visitor population. Western Union is expected to expand to Nigeria, 
resolving fee payment problems there by the end of 2005. SEVP is 
committed to ensuring that all students and exchange visitors are able 
to pay the fee, and will resolve these cases individually.

Question: 21.3. Why isn't DHS collecting this fee once a foreign 
student enters into the United States and has access to a United States 
bank? Would this be a viable option for DHS?
Answer: Congress mandated that the SEVIS fee be paid prior to visa 
issuance. The Illegal Immigration Reform and Immigrant Responsibility 
Act of 1996 (IIRIRA) requires the collection of information relating to 
nonimmigrant foreign students and exchange visitors and provides for 
the collection of the required fee to defray the costs. The initial 
1999 proposed fee rule required that educational institutions and 
exchange visitor program sponsors collect the fee, based upon then-
existing law, and mandated that the fee be collected prior to visa 
issuance. Congress subsequently amended the law to permit DHS to 
collect the fee directly from the F-l, F-3, J-l, M-l, or M-3 
nonimmigrants, but did not change the requirement that the fee be 
collected prior to visa issuance. Based upon these amendments to the 
law, the Final Rule provided for fee collection by DHS and required 
that proof of payment be presented during the visa application process, 
as was intended by Congress. SEVP recognizes that fee payment prior to 
visa issuance can be a hardship for those students and exchange 
visitors who are denied a visa; therefore, SEVP established a policy to 
honor the initial fee payment for those students and exchange visitors 
who re-apply for a visa within a period of 12 months.

Question: 21.4. If this requires a change in the law would DHS be 
receptive to a legislative fix?
Answer: In principle, DHS does not object to exploring the possibility 
of changing the law to allow for fee payment after the nonimmigrant 
enters the United States. However such change may generate unique and 
unforeseen problems for fee collection and processing, such as how to 
guarantee fee payment. This issue would need to be fully analyzed to 
determine the impacts on the program. If the student or exchange 
visitor is given the option to pay the fee upon entry to the United 
States, currently there is no mechanism that would enforce the payment 
requirement.

Question: 21.5. Is it true that the SEVIS fee has been lowered for a 
group of students (summer work travel/au pairs) to $35.00, and not any 
other group that may spend a limited amount of time in the United 
States such as a student participating in a six week Intensive English 
Program?
Answer: Yes. Congress specified that the fee be reduced for only three 
categories of exchange visitors (Camp Counselors, Summer-work/Travel, 
and Au Pairs). Further, IIRIRA section 641 provides that an alien 
seeking J-l status to participate in an exchange visitor program that 
is sponsored by the Federal government is exempt from paying a fee. DHS 
has clarified that those potential J-1 exchange visitors exempt from 
the fee as participants in a Federal government sponsored exchange 
visitor program are those participating in an exchange visitor program 
with a program identification designator prefix of G-l, G-2, or G-3. 
Some comments received on the proposed fee rule suggested that other 
students and exchange visitors should be exempt from the fee. 
Similarly, a number of comments suggested that the fee for other 
programs be reduced below $100 to mirror the reduction that Congress 
expressly provided to certain J-l participants, including lower fees 
for short-term English language programs, for all English language 
programs, for some or all short-term programs, for commuter students, 
and for secondary school students. As noted in the Final Rule, Congress 
specifically exempted from the SEVIS fee only J-l nonimmigrants who are 
participating in an exchange visitor program sponsored by the Federal 
government, and explicitly reduced it only for certain other J-l 
nonimmigrants. DHS interpreted the Congressional mandate such that no 
other groups of nonimmigrants should be exempt from the SEVIS fee or 
have a reduced SEVIS fee based upon the principle of expressio unius 
est exclusion alterius: when one or more things of a class are 
expressly mentioned, others of the same class are necessarily excluded.

Question: 21.6. Is this $100 fee not a disincentive for short-term 
study abroad in the United States when other countries not only have 
much less stringent visa requirements, less denial rates but also much 
lower fees?
Answer: A number of comments received on the proposed rule suggested 
that the fee would deter participation of foreign students and exchange 
visitors in United States programs. However, the statistical evidence 
on the number of foreign students and exchange visitors recorded in 
SEVIS does not support the argument that the $100 fee is a disincentive 
to study in the United States. Between 2003 and 2004, SEVIS has seen a 
slight increase in the number of students and exchange visitors in the 
United States. The SEVIS fee was implemented on September 1, 2004. If 
it were a disincentive to students and exchange visitors we would 
potentially see a decline in the number of students and exchange 
visitors coming to the United States. Additionally, compared with the 
overall cost of a U.S. education or participation in an exchange 
visitor program, the SEVIS fee does not significantly increase the 
financial burden on foreign students and exchange visitor program 
participants. It is possible, however, that the fee might deter the 
participation of students and exchange visitors with the most limited 
resources, particularly those from the least developed countries. While 
DHS acknowledges this reality, the statute mandating the implementation 
of the fee allows for no specific fee reductions, exemptions, or 
delayed payments based upon a nonimmigrant's available resources or the 
infrastructure limitations of his or her country. Further, intending F, 
M, and J nonimmigrants are required by DHS and DoS regulations to 
provide evidence of sufficient financial resources to support 
themselves throughout their program. When considering the average cost 
of a temporary stay in the United States, including all related program 
costs, DHS does not believe that the SEVIS fee presents a burden 
sufficient to act as a deterrent to F, M, or J program participation. 
DHS notes that many schools and exchange visitor program sponsors, as 
well as other interested third party organizations (such as advocacy 
groups), already make special efforts to assist these nonimmigrants. 
DHS commends and encourages this assistance and, to facilitate such 
assistance, DHS will accept fee payments from third parties.

Question: 21.7. Why has this not been implemented for all short term 
study groups, and not just the summer work-study group?
Answer: Same answer as in Question 5 (QO1562).

Question: 21.8. Could a blanket rule of three months study or less be 
implemented for reducing the fee to $35?
Answer: DHS does not believe that this is a viable option, for two 
reasons. First, Congress mandated that SEVP be a fully fee-funded 
program and that the SEVIS fee be collected specifically to defray the 
costs associated with the program. Reducing the fee for a significant 
number of nonimmigrants would force DHS to increase the fee amount for 
other nonimmigrants in order to offset the reduction. Second, costs for 
administration of the program and the processing of non immigrants 
occur mostly up-front in the process and do not vary based on the 
length of time that the nonimmigrant is in the United States. 
Consequently, it is appropriate to spread the cost of the program as 
equally as possible among all of the participants.

Question: 22. What is the current make up of the US-VISIT staff? Is 
current staffing sufficient to manage, implement and oversee the US-
VISIT program?
Answer: The current staffing level for US-VISIT is 115 federal 
positions. Weare currently in process of hiring up to the 115 
positions.

Question: 23. We understand that US-VISIT may collect a different 
biometric for future use. Is this correct and which type ofbiometric 
does DHS expects to use in the long term.
Answer: Currently, US-VISIT uses fingerscans and digital photographs. 
Other biometrics are being assessed, not only by US-VISIT but also by 
other DHS components, for potential use.

Question: 24. Who will have access to US-VISIT biometric information?
Answer: By collecting the appropriate biographic, biometric, and other 
immigration related information at the first contact with an 
individual, and sharing the information in a timely manner with 
appropriate decision makers, those charged with ensuring the integrity 
of our immigration system can make better decisions. These decision 
makers include consular officials from the Department of State, Customs 
and Border Protection officers, Immigration and Customs Enforcement 
agents, and U.S. Citizenship and Immigration Services officers from the 
Department of Homeland Security.
    This critical information on foreign nationals must be shared, , 
with other law enforcement and intelligence agencies as they, too, bear 
responsibility for protecting our country. This information is shared 
appropriately with law enforcement and intelligence agencIes.

Question: 25. Will information be removed from US-VISIT when an 
individual becomes a US-citizen? How will removal of that information 
be accomplished?
Answer: US-VISIT currently retains the information collected for a 
defined duration (100 years for ADIS and 75 years for IDENT), even if 
the individual later becomes a United States citizen. However, as US-
VISIT matures and decisions are made regarding whether the existing 
systems will be integrated, modernized, and/or retired, the data 
retention periods for US-VISIT data will be reviewed and adjusted to 
reflect the redefined needs of the Department. One of US-VISIT's 
primary goals is to safeguard the personal information that is being 
collected in a way that is responsible and respectful of privacy 
concerns. The Department is achieving this goal by implementing a 
comprehensive privacy program that ensures personal information is 
protected from misuse and improper disclosure, and is destroyed when no 
longer needed for its stated purpose. DHS is committed to updating the 
US-VISIT database when a person becomes a U.S. citizen. DHS is 
currently working with USCIS.''

Question: 26. What has DHS done to promote information and educate 
travelers about US-VISIT? I agree that we need to keep track of who is 
coming into our country, but I am not sure that US-VISIT program will 
help us significantly in our effort to keep terrorists out of the 
country. When do you estimate that US-VISIT will be deemed ``in place 
and fully functional?'' Can you enlighten me on the benefits that we 
can expect in our war against terrorism when US-VISIT is ``in place and 
fully functional?'' (Jackson-Lee)
Answer: US-VISIT has a robust outreach effort in place to educate 
visitors and to explain US-VISIT procedures for both entry and exit. In 
addition to providing information to international stakeholders in the 
travel and tourism industry and the business community, US-VISIT 
personnel are working with the media in visa waiver countries to 
educate foreign visitors. Information has been provided to the 
Department of State Consular Affairs offices overseas so that they can 
explain the required exit process as well. The campaign has identified 
the basic points of contact (touch points) to help ensure that foreign 
visitors are fully aware of US- VISIT's goals and procedures. The 
continuum begins overseas, with outreach to media and stakeholders, and 
collaboration with the State Department and visa-issuing posts. The 
outreach touch points continue through the journey to the U.S., arrival 
at the port of entry, and departure. Campaign materials are itemized 
and described below.
    US-VISIT is enhancing the integrity of all aspects of immigration 
and border management processes while also providing a significant law 
enforcement benefit. The system has already begun to demonstrate its 
value as a law enforcement and national security tool. For example, 
through September 30, 2004:

        <bullet> The system validated the identity and the 
        authenticated documents of 1,931,550 aliens.
        <bullet> Matches against biometric watch list records at entry 
        resulted in 333 adverse actions, including matches for 
        individuals convicted of rape, drug trafficking, manslaughter, 
        federal prison escape, visa fraud and immigration violations.
        <bullet> Recurrent biometric checks after entry identified 104 
        individuals who committed crimes, most notably rape, or 
        otherwise violated their immigration status, generating leads 
        to Immigration and Customs Enforcement (ICE) for possible 
        removal from the United States.

Question: 27. It will be enormously expensive to establish and fully 
implement US-VISIT. What security measures would you recommend if 
Congress provided the Department of Homeland Security with a matching 
amount of money to use for other purposes?(Jackson-Lee)
Answer: The Administration is convinced that the money spent on US-
VISIT is an extremely important investment in our nation's security. 
Congress should continue its support of US-VISIT. US-VISIT remains a 
top priority for DHS because it enhances security for our citizens and 
visitors while facilitating legitimate travel and trade across the 
borders. DHS deployed the first increment on time and within budget. 
During FY 2003, US-VISIT continued to make progress in achieving its 
mission by maintaining an aggressive implementation schedule. As a 
result, the US-VISIT program is reaching out to stakeholders in an 
organized fashion, complying with capital investment planning 
guidelines, and managing day-to-day activities in a controlled and 
effective manner.

Question: 28. If US-VISIT had been ``in place and fully functional'' 
when the 9-11 terrorists entered the United States, would it have made 
any difference? Why or on what basis? (Jackson-Lee)
Answer: It is always difficult to predict what might have happened. 
However, the USVISIT system, when fully implemented, will provide a 
comprehensive picture of most foreign nationals, and will be able to 
identify those who--like three of the September 11 th hijackers--have 
overstayed the terms of their visas. In addition, US-VISIT has already 
enhanced the integrity of the immigration system by identifying 
imposters. To the extent that this acts as a deterrent for others who 
may intend harm to our citizens and visitors, US-VISIT may have already 
dissuaded terrorists from exploiting our system.

                                        Attachment for answer to Q01556:
----------------------------------------------------------------------------------------------------------------
                                                                       ENTRY--
 Count   LOCY--NEW                     LPOE NAME                        Non--     Entry--Commercial    Entry--
                                                                      Commercial                      Pedestrian
----------------------------------------------------------------------------------------------------------------
      1         SLU San Luis.......................................            5               1               2
      2       AND   Andrade........................................            2               0               2
      3       DOU   Douglas........................................            7               0               2
      4          LUKLukeville......................................            3               0               1
      5       MAP   Marisposa--Nogales West........................            4               2               1
      6       NAC   Naco...........................................            2               1               1
      7       NOG   Nogales East...................................            6               0               6
      8       SAS   Sasabe.........................................            1               0               1
      9       PNH   Pittsburg......................................            2               0               0
     10       ABG   Alburg.........................................            1               0               0
     11       ABS   Alburg Springs.................................            1               0               0
     12       BEB   Beebe Plain....................................            1               0               0
     13       BEE   Beecher Falls..................................            2               1               0
     14       CNA   Canaan.........................................            1               1               0
     15       DER   Derby Line BS--1-91............................            4               1               0
     16         DLV Derby Line BS--Rte. 5..........................            2               0               0
     17       ERC   East Richford--Richford Rte 105................            2               0               0
     18       HIG   Highgate Springs...............................            5               1               0
     19       MOR   Morses Line--Franklin..........................            1               0               0
     20       NRN   Norton.........................................            2               1               0
     21       NRT   North Troy.....................................            1               0               0
     22       PIV   Pinnacle Road--Richford........................            2               0               0
     23      DRIF   Richford Rte 139...............................            2               0               0
     24       WBE   West Berkshire.................................            2               0               0
     25       BUR   Burke--Jamisons Line...........................            1               0               0
     26       CHM   Champlain......................................            7               3               0
     27       CHT   Chateaugay.....................................            2               0               0
     28       CHU   Churubusco.....................................            1               0               0
     29       CNN   Cannon Corners.................................            1               0               0
     30       FTC   Fort Covington.................................            2               0               0
     31       MAS   Massena........................................            4               1               0
     32       MOO   Mooers.........................................            2               0               0
     33       OGD   Ogdensburg.....................................            3               0               0
     34       OVE   Overton Corners................................            4               0               0
     35       ROU   Rouses Point--St. Johns Hwy....................            3               0               0
     36       TRO   Trout River....................................            3               0               0
     37       EPI   Eastport.......................................            3               1               0
     38        PTL  Porthill.......................................            2               1               0
     39       BWA   Boundary.......................................            1               0               0
     40        DVL  Danville.......................................            1               0               0
     41       FER   Curlew--Ferry..................................            1               0               1
     42       FWA   Frontier.......................................            1               0               0
     43          LAULaurier........................................            2               0               0
     44       MET   Metaline Falls.................................            2               0               0
     45       NIG   Nighthawk......................................            1               0               1
     46       ORO   Oroville.......................................            2               0               0
     47       ROO   Roosville......................................            2               1               0
     48       OTM   Otay Mesa--San Diego...........................           13               6               6
     49       SYS   San Ysidro--San Diego..........................           24               0              16
     50       TEC   Tecate.........................................            2               1               1
     51       VAS   Virginia Avenue--San Diego.....................            0               0               0
     52       BBM   B&M--Brownsville...............................            4               2               2
     53       BRO   Gateway--Brownsville...........................            5               4               4
     54        FAL  Falcon Heights.................................            1               0               1
     55       HID   Hidalgo........................................           11               1               4
     56          LOILos Indios.....................................            4               4               2
     57          LSELos Ebanos.....................................            1               0               1
     58       PGR   Progreso.......................................            4               2               2
     59       PHR   Pharr..........................................            4               4               1
     60       RIO   Rio Grande City................................            3               3               1
     61       ROM   Roma...........................................            4               1               1
     62       VIB   Los Tomates--Brownsville.......................            4               4               2
     63       PRE   Presidio.......................................            3               2               1
     64          LARLaredo AF--Convent Street......................            4               0               3
     65          LCBLaredo--Columbia...............................            4               3               1
     66          LLBLaredo-Lincoln--Juarez.........................           12               0               0
     67          LWTWorld Trade Bridge--Laredo IV..................            0               8               1
     68       BWM   Bridgewater....................................            1               0               1
     69       CAM   Calais--Milltown...............................            1               0               0
     70         CLS Calais--Ferry Point............................            2               1               0
     71       COB   Coburn Gore....................................            2               1               0
     72       EAS   Easton.........................................            1               0               0
     73       EPT   Eastport.......................................            1               0               0
     74       EST   St. Francis--Est Court.........................            1               1               2
     75       FOR   Forest City....................................            1               0               1
     76       FTF   Fort Fairfield.................................            2               1               0
     77       FTK   Fort Kent......................................            2               1               0
     78        HML  Hamlin.........................................            1               0               0
     79       HTM   Houlton........................................            6               2               0
     80       JKM   Jackman........................................            2               1               0
     81          LlMLimestone......................................            1               1               0
     82          LUBLubec..........................................            2               0               0
     83       MAD   Madawaska......................................            1               1               1
     84       MTC   Monticello.....................................            1               0               1
     85       ORI   Orient.........................................            1               0               1
     86       SPA   St. Francis--St. Pamphille.....................            1               1               2
     87        SRL  Jackman--St. Aurelie...........................            1               0               0
     88       STD   St. Francis--Daaquam...........................            1               1               0
     89       VCB   Vanceboro......................................            2               0               0
     90       VNB   Van Buren......................................            2               1               0
     91       CHF   Chief Mountain.................................            2               1               0
     92         DLB Del Bonita.....................................            1               1               0
     93       GOA   Goat Haunt.....................................            0               0               1
     94       MGM   Morgan.........................................            1               1               0
     95       OPH   Opheim.........................................            1               1               0
     96       PIE   Piegan.........................................            2               1               0
     97       RAY   Raymond........................................            1               1               0
     98       SCO   Scobey.........................................            1               1               0
     99       SWE   Sweetgrass.....................................            2               1               0
    100       WCM   Willow Creek...................................            1               0               0
    101       WHI   Whitetail......................................            1               1               0
    102       WHM   Wild Horse.....................................            1               1               0
    103       WHT   Whitlash.......................................            1               1               0
    104       AMB   Ambrose........................................            3               1               0
    105       ANT   Antler.........................................            1               1               0
    106       BAU   Baudette.......................................            2               1               0
     07       CRA   Crane lake.....................................            1               1               0
    108       CRY   Carbury........................................            1               1               0
    109       DNS   Dunseith.......................................            2               1               0
    110       ElY   Ely............................................            1               0               0
    111       FRT   Fortuna........................................            1               1               0
    112       GPM   Grand Portage..................................            2               1               0
    113       HNN   Hannah.........................................            1               1               0
    114       HNS   Hansboro.......................................            1               1               0
    115       INT   International Falls............................            2               1               1
    116          LANLancaster......................................            1               1               0
    117       MAl   Maida..........................................            1               1               0
    118       NEC   Neche..........................................            1               1               0
    119       NOO   Noonan.........................................            1               1               0
    120       NOY   Noyes..........................................            2               1               0
    121       NRG   Northgate......................................            1               1               0
    122       PEM   Pembina........................................            6               3               0
    123       PIN   Pine Creek--Roseau.............................            1               1               0
    124       POR   Portal.........................................            1               3               0
    125       ROS   Roseau.........................................            1               2               0
    126       SAR   Sarles.........................................            1               1               0
    127       SHR   Sherwood.......................................            1               1               0
    128       SJO   St. John.......................................            3               2               0
    129       WAl   Walhalla.......................................            1               1               0
    130       WAR   Warroad........................................            1               1               0
    131       WHO   Westhope.......................................            1               1               1
    132       ANP   Antelope Wells.................................            1               0               0
    133       BOA   Bridge of the Americas (BOTA) El Paso..........           10               4               4
    134        COL  Columbus.......................................            2               1               1
    135       FAB   Fabens.........................................            2               0               1
    136       FTH   Fort Hancock...................................            1               0               1
    137       PDN   Paso Del Norte--El Paso........................           10               0               8
    138        SEL  Stanton Street Bridge..........................            3               0               0
    139       STR   Santa Teresa...................................            2               2               1
    140       YSl   Ysleta--El Paso................................           12               6               4
    141       TUR   Turner.........................................            1               2               0
    142       CAl   Calexico.......................................           10               0               4
    143       IVP   Calexico East--Imperial Valley.................            8               3               2
    144       DCB   Detroit Ambassador Bridge......................           10               7               0
    145       DCT   Detroit Tunnel.................................            9               0               0
    146       PHU   Port Huron--Blue Water Bridge..................            8               6               0
    147       SSM   Sault Ste. Marie...............................            2               1               1
    148       ADT   Amistad Dam....................................            1               0               0
    149         DLR Del Rio........................................            4               2               1
    150       EGP   Eagle Pass.....................................            5               0               1
    151       FDE   Eagle Pass II..................................            6               2               1
    152          LEWLewiston-Queenston Bridge......................            7               3               0
    153       PBB   Peace Bridge--Buffalo..........................            7               4               1
    154       RAI   Rainbow Bridge--Niagara Falls..................           19               0               4
    155        WHL  Whirlpool Rapids----Niagara Falls..............            3               0               1
    156       THO   Alexandria Bay--Thousand Island................            6               2               0
    157         ALC Alcan..........................................            2               1               0
    158       DAC   Haines--Dalton Cache...........................            1               1               0
    159       SKA   Skagway........................................            1               1               0
    160         BLA Peace Arch--Blaine.............................            7               1               0
    161          LYNLynden.........................................            3               2               0
    162       PHY   Pacific Highway--Blaine........................            6               3               0
    163       SUM   Sumas..........................................            4               2               0
    164       PTR   Point Roberts..................................            4               1               1
    165       PKC   Poker Creek....................................            1               0               1
                   ---------------------------------------------------------------------------------------------
                    Total..........................................          490             176             118
----------------------------------------------------------------------------------------------------------------

   Air Transport Association of America. Inc. Responses to Questions

Question: 1. The US-VISIT Program is an extensive border management 
system that requires participation and cooperation from a wide variety 
of stakeholders. How has the Air Transport Association participated in 
the discussions leading up to the implementation of phase one of US-
VISIT?
Answer: ATA has participated extensively in discussions with DHS 
leading up to the implementation of phase one of US-VISIT. ATA's 
involvement dates back to working with and providing input to legacy-
INS staff on the original ``entry/exit'' program. Coordination has 
continued with the creation of the Department of Homeland Security and 
the announcement of US-VISIT in early 2003. US-VISIT staff have availed 
themselves to ATA and our carriers for advice and to answer questions. 
During the Atlanta pilot, US-VISIT staff conducted weekly conference 
calls with stakeholders. In addition, US. VISIT worked very closely 
with Delta Air Lines and ATA for the Entry pilot that was conducted at 
Atlanta's Hartsfield/Jackson International Airport late last fall. ATA 
continues to work with US-VISIT on the Exit phase. Coordination on the 
Exit phase includes bi-monthly conference calls to discuss.

Question: 2. In an effort to better prepare passengers for Exit 
requirements, would airlines be willing to hand-out the small 
information card with a passenger's boarding pass?
Answer: Yes, ATA carriers would be willing to assist the government in 
whatever means possible to better prepare passengers for the Exit 
requirements. We would ask that an adequate, ongoing supply of the 
information card be provided to the carriers at the full expense of the 
government. The information cards also need to be printed in multiple 
languages to better serve our passengers.

Question: 3. What are your recommendations for additional public 
outreach and education for US-VISIT?
Answer: US-VISIT has done an effective job of putting together a public 
outreach and education effort for US-VISIT. Their efforts have included 
updating U.S. government websites (DHS, CBP, ICE, and the State 
Department) to include information on US-VISIT; working with the State 
Department to provide the embassies and consulates abroad the necessary 
materials and information; issuing press releases and providing 
material to the news media.
    ATA recommends that DHS consider creating a link on their homepage 
specifically for US-VISIT that could have timely updates on entry/exit; 
the where's, what's and how's of the program; Exit locations (both 
cities and airports); and user friendly airport maps detailing the 
location's of the Exit kiosks and how to use them. There could also be 
information directed to passengers who are coming to the United States 
about what to expect when they go to U.S. embassies and consulates for 
their visas.
    ATA also recommends that US-VISIT consider posting signs at 
departure gates in foreign airports informing passengers what to expect 
upon arrival into the United States. We would hope that DHS would work 
with foreign governments and/or the foreign airport authorities to 
provide signage as a customer service notification.

Question: 4. Has ATA membership noticed additional passenger wait times 
during immigration and customs processing due to new US-VISIT data 
collection?
Answer: ATA member airlines have not noticed significant increases in 
wait times during immigration and customs processing due to new US-
VISIT data collection. We have been impressed with the coordination 
between US-VISIT and Customs and Border Protection (CBP) to ensure a 
careful and successful implementation of phase one. However, we will 
continue to monitor the issue as we move into the summer peak travel 
season which begins in April. Adequate levels of CBP inspectors on the 
primary lines are paramount to avoiding long lines in the FIS 
facilities which delay our passengers and could cause disruptions for 
airport operations.

Question: 5. Current Federal law requires that by October 26, 2004, all 
Visa Waiver Program (VWP) countries must have capabilities to produce 
biometric passports in order to remain in the program. Concern has been 
expressed that many of the 27 VWP countries will be able to meet this 
deadline. Has ATA done any studies looking into the impact this 
deadline may have on the travel industry?
Answer: No, ATA has not done any specific studies on how the October 
26, 2004, deadline will affect the travel industry. However, in 2003, 
ATA was a strong advocate for delaying the October 1, 2003, requirement 
for all Visa Waiver Program travelers to have a valid Machine Readable 
Passport (MRP) for visa-free entry into the U.S. ATA was concerned that 
insufficient preparatory work had been completed and that serious 
disruptions of the processing of visitors into the United States could 
occur. As you know, Secretary Powell exercised his waiver authority and 
extended the deadline to October 26, 2004--which now coincides with the 
requirement for VWP countries to begin producing biometric passports.
    Many of the same issues surrounding the October 1, 2003, 
requirement for MRPs also apply to the upcoming October 26th date. 
State Department Assistant Secretary Maura Harty has testified several 
times that most VWP countries will not be capable of issuing passports 
with biometrics by the deadline. Premature implementation of the 
requirement will cause a great deal of confusion for the traveling 
public and will contribute to a world-view that travel to the United 
States is an unpleasant hassle. That will greatly discourage travel to 
the United States, which will significantly harm the national economy 
as well as the airline and travel and tourism industry.

              Additional Material Submitted for the Record

   Questions and Responses of Dennis A. Carlton, Director Washington 
                Operations International Biometric Group

    Question: 1. The current biometrics being used at selected air and 
sea ports of entry call for two fingerprints and a photograph of the 
foreign national. While the Administration has maintained that it is 
currently in ``increment one'' in a four stage process and it may 
likely move towards using a ten-print system, will using two-prints 
impact the agency's ability to capture individuals who are listed in 
the Federal Bureau of Investigation's database, which uses ten prints?
    Answer: In the near term, the Department of Homeland Security's 
decision to capture and match the flat impressions of the two index 
fingers of foreign nationals seems a practical compromise. To comply 
with the aggressive deadlines imposed by federal legislation and to 
achieve the programmatic milestones set by the Secretary of Homeland 
Security, the US-VISIT Program Office chose to implement technologies 
the department had successfully deployed in the recent past. Since it 
is an extension of the existing IDENT system, the two flat finger 
capture/matching solution being employed in US-VISIT Increment One is 
fully compatible with the two-print database format of IDENT. However, 
this means that the two flat fingers captured for US-VISIT will be 
subject to the same matching accuracy and throughput infirmities when 
searching against the rolled fingerprints contained in the Department 
of Justice's Integrated Automated Fingerprint Identification System 
(IAFIS) as all other two-finger inquiries sent from IDENT.
    Studies have shown that matching flat fingerprints against a 
database comprised of rolled fingerprints is not as accurate as 
matching rolled prints against rolled prints. The `disconnect' between 
rolled and flat prints is not likely to be resolved by US-VISIT--
forensics specialists will continue to prefer the additional data 
available from rolled prints while civil government applications like 
US-VISIT will use flat prints because they are much easier to capture.
    Over the longer term, as the US-VISIT database grows to comprise 
tens of millions of records, two fingers will not provide sufficiently 
unique data to consistently return only one matching database record. 
As a consequence, queries are likely to begin returning several 
potential matching records, necessitating additional research to 
distinguish true from false matches. IBG and others in the biometrics 
industry believe that at least four or more fingers will need to be 
captured from each subject in order to maintain adequate matching 
accuracy and throughput. Individuals originally enrolled with just two 
fingerprints will need to be reenrolled using four or more fingers; 
this reenrollment could be accomplished when an individual appears for 
a visa renewal.

    Question: 2. You characterized the challenge of implementing 
biometric identifier at land ports of entry as ``daunting,'' yet 
surmountable. Could you elaborate on how this challenge could be 
overcome, both at the ports and ``upstream,'' keeping in mind that the 
largest ports are extremely busy, handling millions of entrants year-
round?
    Answer: The key to successfully implementing biometric 
identification at land ports of entry is to provide multiple means by 
which travelers can be `pre-identified' before they reach the point of 
primary inspection. IBG believes the vast majority of travelers will 
readily cooperate with `pre-identification' programs so long as the 
enrollment process is considered reasonable and the enrolled traveler 
is provided expedited transit across the border. For instance, at the 
Peace Arch port of entry in Blaine, Washington almost 25% of annual 
border crossings are by enrollees in the joint U.S.-Canadian NEXUS 
alternative inspection program. Though NEXUS program participants must 
submit to an extensive background investigation by both American and 
Canadian customs and immigration authorities, their reward is being 
able to cross the border using a dedicated lane that can reduce what 
sometimes can be an hour+ wait in regular lanes to just a few minutes.
    Travelers should have several options for identifying themselves 
prior to reaching the land port primary inspection point. Biometric 
matching need not and, in fact, should not be performed for the first 
time at the point of inspection--the inspecting officer must not be 
distracted from conducting a thorough evaluation of the demeanor and 
behavior of the traveler. In pedestrian lanes, biometrics could be 
matched through a combination of active (fingerprint capture) and 
passive (facial image capture) methods as travelers pass through pre-
inspection choke points. In vehicle lanes, fingerprint samples could be 
captured prior to the inspection position, using portable devices that 
can both read data from travel documents and match fingerprints from 
inside the vehicle.
    U.S. citizens could be encouraged to register their travel 
documents (e.g., their drivers license, passport, or other form of ID) 
and biometric samples prior to their departure at kiosks located at the 
land ports and other government offices, such as post offices, 
throughout the border region. Upon their return to the U.S., registered 
travelers would be afforded the privilege of using expedited processing 
lanes.
    Question: 3. Based on what you have observed, to what extent has 
the US-VISIT program office given consideration to overcoming the 
challenge of implementing a biometric identifier at land ports of 
entry?
    Answer: The US-VISIT program office has evaluated several 
alternatives for employing biometrics at land ports of entry. The 
Departments of State and Homeland Security have accumulated extensive 
experience capturing and matching biometrics as part of the Border 
Crossing Card enrollment process. This past year, DHS conducted a pilot 
program to assess the practical issues associated with matching the 
biometric data recorded on the BCC with a live biometric sample 
provided by the cardholder. In addition, DHS has been acquiring 
biometric samples from and conducting background investigations of 
thousands of NEXUS and SENTRI cardholders. Biometric identification 
procedures will have to be both flexible and creative in order to 
accommodate the wide range of port configurations and environmental 
conditions at U.S. land ports of entry.
    Question: 4. How do you propose to best address the inevitable 
occurrences of ``mistaken'' or inadvertent biometric identity 
mismatches, especially from the perspective of safeguarding privacy?
    Answer: Experience acquired from Increment One of the US-VISIT 
program has shown that DHS already has implemented effective methods 
for quickly resolving biometric identity mismatches. As part of the 
Increment One technology upgrades at the primary inspection positions, 
inspection personnel now have access to significantly more traveler-
related data from both DHS and DOS databases. For instance, primary 
inspectors can now access records from the Department of State's 
Consolidated Consular Database to review the information upon which the 
DOS Foreign Service Officer adjudicated a visa application. When a 
biometric mismatch occurs, an inspector has real-time access to text 
data that can be used to quickly determine that the traveler's 
documentation doesn't match the record returned by the biometric 
search. Initial indications have shown that biometric mismatches have 
occurred at a rate far lower than had been predicted and that the 
primary inspector has resolved mismatch errors and sent the traveler on 
their way in an average of about one minute. Thus, travelers are 
subjected to minimal inconvenience and their privacy and dignity are 
protected.

  Prepared Statement of Edward K. Pultorak, Senior CBP Officer, NTEU 
            Chapter 111--Lose Angeles International Airport

    Chairman Camp, Ranking Member Sanchez, distinguished members of the 
Subcommittee; I would like to thank the subcommittee for the 
opportunity to testify on one of the Bureau of Customs and Border 
Protection's (CBP) newest programs--The U.S. Visitor and Immigrant 
Status Indicator Technology U.S. VISIT) program.
    I am proud to have been part of Customs for over 32 years. In 1971, 
I started with Customs as one of the original sky marshals. In my 
capacity as a sky marshal I flew over 1 million miles on TWA Airlines 
over the course of three years. In 1974, I became a United States 
Customs Inspector at JFK International Airport in New York until 1976 
when I then began working Customs pre-clearance in Bermuda for six 
years. In 1983, I started working as a Customs Inspector at Los Angeles 
International Airport (LAX) where I have worked during the past 21 
years. In addition to my job as a Senior legacy Customs Inspector and 
now Senior CBP Officer, I have been an employee representative for 
NTEU, proudly representing over 400 Customs personnel at LAX for over 
10 years.

              U.S. VISIT PROGRAM AND CBP OFFICER TRAINING:

    The Immigration and Naturalization Service Data Management 
Improvement Act of 2000 (DMIA) P.L. 106-215 mandated the creation of an 
entry/exit system for non-U.S. citizens into and out of the United 
States that would record all arrival and departure information of every 
alien who crosses the U.S. border. This system is now known as U.S. 
VISIT.
    While the official roll out of the U.S. VISIT program is only 3 
weeks old, I would like to bring the subcommittee's attention a few 
concerns that legacy Customs and INS inspectors, such as my self, would 
like the subcommittee to be aware of with regard to the implementation 
and future use of the U.S. VISIT program.
    On January 5, 2004 the U.S. VISIT program was introduced at 115 
U.S. international airports and at 14 seaports of entry across the 
country, including my port of entry, Los Angeles International Airport 
(LAX), one of three busiest international airports in the country with 
approximately 8 million international passengers annually.
    As has been stated by previous members on the panel, the U.S. VISIT 
program is intended to process visitors holding visas as they enter the 
United States. The U.S. VISIT technology uses scanning equipment to 
collect ``biometric identifiers,'' such as fingerprints, in an inkless 
process, along with a digital photograph of the visitor. Together with 
the standard information gathered from a visitor about their identity 
and travel, the program is intended to verify the visitor's identity 
and compliance with visa and immigration policies. All data obtained 
from the visitor is then stored as part of the visitor's travel record. 
At exit points, visitors will check out at kiosks by scanning their 
visa or passport and repeating the simple inkless fingerprinting 
process. The exit confirmation will be added to the visitor's travel 
records to ensure compliance. It is my understanding that the U.S VISIT 
program will be expanded to include the 50 busiest land ports of entry 
by December 31, 2004, and all U.S. ports of entry by December 31, 2005.
    As the subcommittee is aware, on September 2, 2003, Secretary Tom 
Ridge announced the creation of a new CBP officer position and the 
``One Face at the Border'' initiative. Under this plan, a new position, 
the Customs and Border Protection (CBP) Officer would combine the 
duties of legacy inspectors from Customs, INS and APHIS into a single 
front- line border security position at the 307 official ports-of-entry 
across the United States.
    As some of my fellow Customs inspectors have testified at previous 
hearings, I and the legacy Customs employees I work with believe that 
combining the border protection responsibilities that were held by 
three highly-skilled specialists into a single front line inspector 
position continues to raise some serious concerns. Each of the job 
responsibilities from the three legacy inspection agencies is highly 
specialized and distinct. By utilizing one employee to perform all 
primary and secondary inspection function programs, including the new 
US-VISIT program, the agency is diluting the expertise that has made 
the United States border inspection personnel second to none.
    Prior to the creation of the CBP officer position, legacy Customs 
inspectors received 9 to 12 weeks of intensive basic training on 
Customs Service rules and regulations alone. Under the new CBP officer 
training guidelines legacy inspectors, such as myself, will be 
transitioning into the new CBP officer position in the spring of this 
year by way of classroom training, CD-ROM computer teaching and on-the-
job training for programs such as US-VISIT. While the new training will 
lead to a broader knowledge of the INS rules and regulations of entry 
for passengers entering the United States, there remains a concern 
among the employees I represent as to whether it will provide the 
specialized expertise necessary to ensure the successful accomplishment 
of the other traditional legacy Customs and INS anti-terrorism missions 
that are now part of the Department of Homeland Security.
    Currently, legacy Customs and INS inspectors are ``cross-trained'' 
as to the most basic Customs and INS procedures for entry into the U.S. 
for passengers and goods. Traditionally, if a legacy Customs inspector 
was faced with a complicated visa entry situation at an airport or land 
border primary inspection station they had the ability to send the 
passenger to a more intensive secondary inspection where an experienced 
legacy INS inspector could make a determination as to the validity of a 
particular visa. It remains unclear as to whether experts in visa 
issues or other specific Customs and INS border protection matters will 
continue to be available for secondary inspection once the full 
implementation of the CBP officer training is completed for all legacy 
Customs personnel and new CBP Officers. I feel strongly that specific 
expertise must be maintained, especially in light of the ramping up of 
the US-VISIT program to all 317 official ports of entry by the end of 
2005.
    With the recent introduction of the U.S. VISIT program the issue of 
staffing continues to be a concern. For example, at a number of 
airports across the country since the introduction of U.S. VISIT, 
legacy Customs inspectors who are highly trained in cargo inspection 
have been pulled from their current anti-terrorism cargo and passenger 
assignments to assist legacy INS inspectors by processing only low risk 
U.S. citizens and green card holders at airport immigration processing 
stations in order to maintain an acceptable flow of passengers in the 
international terminals. The CBP officers I represent hope that 
Congress will continue to provide additional CBP Officer staffing to 
enable legacy CBP Officers such as myself the ability to continue 
working in our areas of expertise to continue our traditional missions 
of facilitating legitimate trade and preventing terrorism.
    Other issues of concern that have been raised by both the legacy 
Customs and INS personnel that I work with involve the current 
exemption of international travelers from countries who are part of the 
Visa Waiver Program (VWP) and how it relates to the U.S. VISIT program. 
In addition, there are also concerns about the use of only selected 
databases by the U.S. VISIT program.
    Currently, the U.S. VISIT program applies only to foreign visitors 
seeking admission on non-immigrant visas but does not apply to visitors 
seeking admission from Canada and Mexico or countries participating in 
the Visa Waiver Program (VWP), or lawful permanent residents (green 
card holders). Also at this time, the U.S. VISIT program will not apply 
to foreign visitors seeking entry at land border ports of entry where 
over 81 percent of international passengers are processed. Currently, 
only 19 percent of international passengers are processed at air and 
sea ports of entry.
    The fact that travelers from 27 countries who participate in the 
VWP and travelers entering through Canada and Mexico are currently 
exempt from U.S. VISIT should raise serious concerns with the members 
of this subcommittee. Future terrorists with no criminal or terrorism 
history could possibly exploit the waiver program that currently 
exempts such countries as Austria, Belgium, France, Germany, Italy, 
Japan, Singapore, Spain and the United Kingdom to name a few.
    In addition, front line legacy Customs and INS inspectors I have 
talked with have serious concerns with regard to the lack of federal 
watch list and criminal databases currently being used by the U.S. 
VISIT program. It in my understanding that currently the U.S. VISIT 
program uses the traditional Customs (TECS), INS and TSA databases, but 
does not fully utilize other terrorist and criminal watch lists 
maintained by other federal agencies such as the State Department and 
U.S. Marshal's Service. The success or failure of entry/exit programs, 
such as U.S. VISIT, rely entirely on the quality of information 
available to the DHS personnel using it. If U.S. VISIT is to be truly 
successful as a terrorist fighting tool the DHS must lead the effort to 
consolidate and standardize the federal government's watch list 
structures and sharing policies to enable front line CBP Officers to 
successfully accomplish their anti-terrorism missions.
    The men and women I work with, as well as the thousands of other 
CBP Officers across the country are deeply committed to their mission 
of protecting our borders from terrorism. In order to do that, we must 
continue to provide these men and women with the resources they need to 
effectively do their job. Again, I want to thank the subcommittee for 
the opportunity to share my thoughts on the very important issues 
concerning the CBP's U.S. VISIT program. I would be happy to answer any 
questions that subcommittee members may have.

   Prepared Statement of J. Clark Robinson, President International 
             Association of Amusement Parks and Attractions

    As president of the International Association of Amusement Parks 
and Attractions, and on behalf the board of directors and our general 
membership, I appreciate the opportunity to submit testimony for the 
hearing record on this very important subject.

Introduction
    Founded in 1918, the International Association of Amusement Parks 
and Attractions (IAAPA) is the largest international trade association 
for permanently situated amusement facilities worldwide. Headquartered 
in Alexandria, VA, IAAPA represents over 5,000 member companies from 
more than 85 countries, including virtually all multi-park companies 
such as Disney, Universal, Busch Entertainment, Paramount and Six 
Flags. Our membership includes amusement/theme parks, waterparks, 
amusement manufacturers and suppliers, family entertainment centers, 
arcades, zoos, aquariums, museums, and miniature golf venues.
    According to Amusement Business magazine and other industry 
analysts, America's 600-plus parks and attractions hosted approximately 
322 million visitors in 2003, generating over $10 billion in revenue. 
An annual compilation of the world's ``Most Visited Amusement/Theme 
Parks'' indicated that the United States had 16 of the top 25 most 
attended parks globally during the past year. American amusement 
facilities take great pride in their commitment to providing quality 
family entertainment to visitors from our own country and countries 
around the world.

The Need for Safe, Open Borders
    The amusement industry supports enhanced border security measures, 
understanding that seamlessly safe travel helps to bolster consumer 
confidence in our product. However, the industry is concerned about the 
implementation schedule of security measures and the adverse impact it 
might have on travel by foreign visitors.
    Since 9/11, the travel and tourism industry has seen significant 
decreases in international travel to the United States. Over a two-year 
period following September 11, 2001, international travel to the U.S. 
declined twenty percent, resulting in a loss of $15 billion in visitor 
spending. Over 300,000 jobs in the travel industry were lost as a 
product of the decrease in international travel.
    While the need to enhance physical safety is paramount, the United 
States must also be vigilant in ensuring enhanced economic security 
during that process. As a result, the amusement industry, in 
conjunction with the entire United States travel industry, cannot 
support the current congressionally mandated deadline of October 26, 
2004 for Visa Waiver Program (VWP) countries to begin issuance of 
biometric passports to their citizens. We request that VWP countries be 
provided extra time to phase in these new, more secure documents.

Amusement Industry Supports Biometric Passports, Phase-In Needed
    Both the United States and the international theme park community 
support implementation of a biometric passport program for Visa Waiver 
countries. Biometric identification will undoubtedly enhance security 
by allowing more vigorous screening of visitors. The further 
development and issuance of machine-readable, tamper-resistant, 
biometric passports will reduce the number of fraudulent and suspicious 
passports used to gain illegal entry into this country.
    While illegal entry must be prohibited, legitimate travel into the 
United States must be permitted to continue without significant 
disruption. The State Department's Bureau of Consular Affairs has 
indicated that VWP governments will be unable to meet the legislatively 
mandated deadline to issue biometric passports. It is currently 
believed that at best, only three of the twenty-seven Visa Waiver 
countries will be able to meet this deadline, and that none of the 
larger countries (United Kingdom, Japan, Germany, France, Italy or 
Spain) will be able to issue biometric passports by October 26, 2004. 
Officials have indicated that these VWP governments will not be capable 
of producing biometric passports until late 2005 or 2006.
    Visa Waiver travelers with non-biometric passports issued on or 
after October 26, 2004 will be required to obtain a visa for travel to 
the United States. As governments in Visa Waiver countries will be 
unable to issue passports with biometric identifiers, the demand for 
nonimmigrant visas for travel to the United States will overload the 
processing abilities of U.S. consulates overseas. The State Department 
has indicated that the demand for non-immigrant visas would at least 
double, leaving them unable to process requests in a timely manner.
    We fear that these requirements will serve as a disincentive for 
tourist travel to the United States. The biometric passport deadline 
for Visa Waiver countries will create an actual barrier for some 
international travelers and a perceived barrier for others. Fewer 
international visitors to the U.S. will result in less spending and job 
loss in the amusement industry across the country.
    We suggest that at least a one-year extension of the October 26, 
2004 deadline for biometric passports be considered to allow Visa 
Waiver countries the necessary time to begin issuing biometric 
passports to their citizens. Extension of this deadline would give VWP 
governments the opportunity to complete development of these more 
secure documents while maintaining the flow of Visa Waiver travelers to 
the United States.

Conclusion
    As U.S. theme parks are just now beginning to recover from the 
events of the last two years, another barrier to inbound travel would 
be detrimental to the industry. In 2002, Visa Waiver travelers spent 
approximately $38 billion in the United States. Over 10 million 
international visitors traveled to the United States from VWP countries 
last year. Congress has recently recognized the importance of 
international inbound travel, appropriating millions of dollars last 
year to the Department of Commerce to establish programs that will 
promote travel to the United States in foreign markets.
    Extending the biometric passport deadline for Visa Waiver travelers 
by at least one year would allow the seamless flow of legitimate travel 
into the United States to continue, while providing VWP governments 
with the opportunity to successfully meet and comply with requirements 
mandated by the Border Security Act. Homeland security must be defined 
as more than a mere protection of the physical. The implementation of 
security measures must account for the economic health of the nation as 
well.
    I thank you again for the opportunity to submit this testimony for 
the official record.

    Prepared Statement of The Travel Industry Association of America

    The Travel Industry Association of America (TIA) submits the 
following comments for the record.
    TIA is the national, non-profit organization representing all 
components of the $528 billion U.S. travel and tourism industry. TIA's 
mission is to represent the whole of the travel industry to promote and 
facilitate increased travel to and within the United States. Our more 
than 2,000 member organizations represent every segment of the industry 
throughout the country.
    International business and leisure travel to the U.S. is a vital 
component of our national economy. In 2002, over 42 million 
international visitors generated $83.5 billion in expenditures, $12 
billion in federal, state and local tax revenue, and accounted for one 
million jobs nationwide. International travel and tourism to the U.S. 
is a service export, and in 2002, generated a positive balance of trade 
of $5.5 billion.
    International visitation has continually declined over the past 
three years. Overseas travel to the U.S. was down 31.8 percent in 2003 
compared to 2000 levels. This decline has drastically reduced the flow 
of tax revenue to all levels of government and reduced our 
international balance of trade. Since 2000, the loss of international 
travel to the US. has cost our economy $15.3 billion in expenditures.
    The decline in travel is due to a variety of reasons, including 
fear of travel because of terrorism, a downturn in the global economy 
and confusion over new US. visa and border security procedures. While 
some of the causes are beyond the reach of an individual country, 
actions by the U.S. government can either enhance or harm our nation's 
ability to attract increased international travel to the U.S. and 
create more jobs and economic opportunities for states and cities 
across the country. For this reason, the US-VISIT program must be 
implemented with traveler facilitation as one of its primary goals. 
Otherwise, international travelers might not wish to return to the 
U.S., or may be deterred from visiting in the first place.
    TIA supports the US-VISIT program as envisioned for airports and 
seaports. TIA believes that the program meets the Department of 
Homeland Security's dual missions of protecting the nation's security 
and economy. By developing a system that verifies the identity of 
travelers quickly and efficiently, US-VISIT adds to the protection of 
the homeland while ensuring the continuous flow of legitimate 
international travelers entering and exiting the country.
    However, TIA does have several concerns about the implementation of 
the US-VISIT program. Congress should seriously consider these issues 
as the program moves forward.

Postpone Deadline for Biometrics Passports
    The Enhanced Border Security and Visa Entry Reform Act of 2002 
introduced a new security element to traveler documentation: biometric 
identifiers. Capturing a person's biometric and using it as part of the 
entry process will allow inspection officials to know the person before 
them is the same person to whom the passport or visa was issued. 
Biometrics are just now being incorporated into newly-issued U.S. 
visas. They will also be required in all new passports issued by the 27 
countries participating in the Visa Waiver Program beginning on October 
26, 2004.
    TIA supports the use of biometrics in travel documents. However, 
most of the Visa Waiver Program countries will not be ready to issue 
these newer biometric passports until late 2005 at the earliest. 
Missing the deadline would mean that many tourist and business 
travelers from those countries would have to obtain visas for entry 
into the U.S. The State Department estimates that as many as 5 million 
VWP travelers would be affected by this deadline.
    Forcing Visa Waiver Program travelers to get visas will deal a 
crippling blow to an already ailing travel industry. Approximately two-
thirds of all overseas (excluding Canadian and Mexican) business and 
leisure travelers, or nearly 13.5 million visitors, enter the U.S. 
under the Visa Waiver Program. Overseas travel to our nation is already 
down 32 percent over the past three years. Additional losses will send 
even more workers from the travel and tourism industry to the 
unemployment line. It is unrealistic to expect travelers accustomed to 
visa-free travel to spend the money and time to obtain a U.S. visa to 
visit our country. Especially when these travelers have many other 
appealing intemationa1 destinations that are visa-free. Additionally, 
the State Department lacks the capacity to meet this potential increase 
in demand. A loss of those 5 million travelers would cost the U.S. 
economy $15 billion in sales and thousands of jobs.
    It is important to note that the U.S. Department of State will not 
be able to start issuing biometric passports until well after the 
October deadline. While the State Department is not required by law to 
do so, it is hypocritical for the U.S. to require other countries to do 
what we cannot.
    The October 26 deadline is a Congressional mandate. The 
Administration does not have the authority to extend the deadline. 
Therefore, TIA calls on the House Select Committee on Homeland Security 
to support at least a one-year extension of the October 26 deadline. By 
doing this, Congress will provide the time necessary to allow these 
important trade and political allies to begin producing passports in a 
way that will not discourage inbound international travel to the U.S.

Concern Over Delays
    TIA is very pleased that enrollment in the program has only added 
an average of 15 seconds to the normal inspection process. We commend 
Homeland Security for their efficiency.
    It is critical that this level of performance be maintained during 
peak travel periods and also when the U.S. travel and tourism industry 
recovers its lost market share. As stated above, overseas travel to the 
U.S. has dropped by approximately one-third over the past three years. 
TIA is concerned that Homeland Security will not have sufficient 
personnel to maintain a 15second US-VISIT inspection time when 
international visitation returns to 2000 levels. TIA urges Congress to 
provide adequate funding so that Homeland Security will have sufficient 
inspectors available to immediately meet the demands peak travel 
periods.
    While TIA is pleased with the efficiency by which individuals are 
processed, TIA also believes it is important to process entire flights 
in a timely manner. The time an individual spends at primary inspection 
is not the only time issue. There is also the concern over how long an 
individual waits to finally reach a primary inspection booth. TIA 
supports the original Congressionally mandated goal of a maximum wait 
of 45 minutes per individual. Although this mandate was repealed in the 
Enhanced Border Security and Visa Entry Reform Act of 2002 (PL 107-
173), TIA believes it is still a useful and important goal for Customs 
and Border Protection inspectors to meet. TIA urges Congress to 
allocate funding to provide sufficient inspectors for the US-VISIT 
program both to meet the IS-second individual inspection time and to 
keep the wait in line to under 45 minutes.
    If primary inspection is perceived to be too much of a hassle, many 
visitors will be discouraged from returning to the U.S. in the future. 
It is critical that the US-VISIT program have the requisite staff to 
keep wait times and inspection times to a minimum. Otherwise, both our 
security and our economy will suffer.
Outreach to Traveling Public
    TIA urges Homeland Security to increase efforts to educate the 
international traveling public about the US-VISIT program. 
International travelers coming to the U.S. for business and pleasure 
should be told who is impacted, and who is not impacted, by this new 
program. Visitors need to understand in advance what to expect in the 
process, and what they can do to make the process go more smoothly.
    The international traveling public increasingly perceives that the 
myriad of new security rules is creating a ``Fortress America.'' 
International travelers do not just consider the impact of a single 
rule, but view all rules and programs in total. They have noted the 
increase in visa fees, new visa interview requirements and growing visa 
denials. They are also aware of machine-readable passport deadlines, 
the future use of biometric identifiers in U.S. visas and Visa Waiver 
passports, collection and use of advance passenger information, or API, 
along with US-VISIT.
    By and large, these new rules and requirements make sense from a 
homeland security perspective, and TIA supports these efforts to 
enhance national security. But for many prospective international 
visitors, wave after wave of new travel requirements paint a ``big 
picture'' that the United States is becoming a destination that is too 
difficult to enter, too expensive to visit and simply not worth the 
effort. In their opinion, the ``welcome mat'' has been pulled. TIA has 
heard accounts of how this negative perception has resulted in lost 
business. While the Department of Homeland Security cannot respond to 
every misperception and rumor, the opportunity exists to set the record 
straight on the US-VISIT program and tell international travelers 
exactly what the program is and who it affects.
    In conclusion, Congress must act in two areas to ensure the 
continued success of the US-VISIT program and allow the U.S. to remain 
a viable destination for international travelers. Congress must act 
immediately to extend the October 26 deadline on biometric passports by 
a minimum of one year. Congress also must ensure that the US-VISIT 
program has sufficient funds and personnel to meet security and 
efficiency objectives. TIA also urges the Department of Homeland 
Security to increase outreach and education efforts to the 
international traveling public.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
